<html>
<title> - THE MITCHELL REPORT: THE ILLEGAL USE OF STEROIDS IN MAJOR LEAGUE BASEBALL, DAY 2</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]


 
   THE MITCHELL REPORT: THE ILLEGAL USE OF STEROIDS IN MAJOR LEAGUE 
                            BASEBALL, DAY 2

=======================================================================

                                HEARING

                               before the

                         COMMITTEE ON OVERSIGHT
                         AND GOVERNMENT REFORM

                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS

                             SECOND SESSION

                               __________

                           FEBRUARY 13, 2008

                               __________

                           Serial No. 110-63

                               __________

Printed for the use of the Committee on Oversight and Government Reform


  Available via the World Wide Web: http://www.gpoaccess.gov/congress/
                               index.html
                      http://www.house.gov/reform

                               ----------
                         U.S. GOVERNMENT PRINTING OFFICE 

43-333 PDF                      WASHINGTON : 2008 

For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
Washington, DC 20402-0001 














































              COMMITTEE ON OVERSIGHT AND GOVERNMENT REFORM

                 HENRY A. WAXMAN, California, Chairman
TOM LANTOS, California               TOM DAVIS, Virginia
EDOLPHUS TOWNS, New York             DAN BURTON, Indiana
PAUL E. KANJORSKI, Pennsylvania      CHRISTOPHER SHAYS, Connecticut
CAROLYN B. MALONEY, New York         JOHN M. McHUGH, New York
ELIJAH E. CUMMINGS, Maryland         JOHN L. MICA, Florida
DENNIS J. KUCINICH, Ohio             MARK E. SOUDER, Indiana
DANNY K. DAVIS, Illinois             TODD RUSSELL PLATTS, Pennsylvania
JOHN F. TIERNEY, Massachusetts       CHRIS CANNON, Utah
WM. LACY CLAY, Missouri              JOHN J. DUNCAN, Jr., Tennessee
DIANE E. WATSON, California          MICHAEL R. TURNER, Ohio
STEPHEN F. LYNCH, Massachusetts      DARRELL E. ISSA, California
BRIAN HIGGINS, New York              KENNY MARCHANT, Texas
JOHN A. YARMUTH, Kentucky            LYNN A. WESTMORELAND, Georgia
BRUCE L. BRALEY, Iowa                PATRICK T. McHENRY, North Carolina
ELEANOR HOLMES NORTON, District of   VIRGINIA FOXX, North Carolina
    Columbia                         BRIAN P. BILBRAY, California
BETTY McCOLLUM, Minnesota            BILL SALI, Idaho
JIM COOPER, Tennessee                JIM JORDAN, Ohio
CHRIS VAN HOLLEN, Maryland
PAUL W. HODES, New Hampshire
CHRISTOPHER S. MURPHY, Connecticut
JOHN P. SARBANES, Maryland
PETER WELCH, Vermont

                     Phil Schiliro, Chief of Staff
                      Phil Barnett, Staff Director
                       Earley Green, Chief Clerk
                  David Marin, Minority Staff Director





















































                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on February 13, 2008................................     1
Statement of:
    Clemens, Roger, major league baseball player.................    20
    McNamee, Brian, former major league baseball strength and 
      conditioning coach.........................................    78
Letters, statements, etc., submitted for the record by:
    Braley, Hon. Bruce L., a Representative in Congress from the 
      State of Iowa, Report 9 of the Council on Scientific 
      Affairs....................................................   141
    Clemens, Roger, major league baseball player, prepared 
      statement of...............................................    22
    Davis, Hon. Tom, a Representative in Congress from the State 
      of Virginia:
    Letter dated February 11, 2008...............................   110
    Prepared statement of........................................    17
    Lynch, Hon. Stephen F., a Representative in Congress from the 
      State of Massachusetts, followup questions and responses...   105
    McNamee, Brian, former major league baseball strength and 
      conditioning coach, prepared statement of..................    81
    Waxman, Hon. Henry A., a Representative in Congress from the 
      State of California, prepared statement of.................     8


   THE MITCHELL REPORT: THE ILLEGAL USE OF STEROIDS IN MAJOR LEAGUE 
                            BASEBALL, DAY 2

                              ----------                              


                      WEDNESDAY, FEBRUARY 13, 2008

                          House of Representatives,
              Committee on Oversight and Government Reform,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 11:07 a.m., in 
room 2154, Rayburn House Office Building, Hon. Henry A. Waxman 
(chairman of the committee) presiding.
    Present: Representatives Waxman, Kanjorski, Maloney, 
Cummings, Kucinich, Davis of Illinois, Tierney, Clay, Watson, 
Lynch, Higgins, Yarmuth, Braley, Norton, Van Hollen, Hodes, 
Murphy, Sarbanes, Welch, Davis of Virginia, Burton, Shays, 
Mica, Souder, Duncan, Turner, Issa, Marchant, Westmoreland, 
Foxx, Bilbray, Sali, and Jordan.
    Also present: Representatives Jackson Lee and Serrano.
    Staff present: Phil Schiliro, chief of staff; Phil Barnett, 
staff director and chief counsel; Kristin Amerling, general 
counsel; Karen Lightfoot, communications director and senior 
policy advisor; John Williams and Theo Chuang, deputy chief 
investigative counsels; Brian Cohen, senior investigator and 
policy advisor; Michael Gordon, senior investigative counsel; 
Steve Glickman, counsel; Steve Cha, professional staff member; 
Earley Green, chief clerk; Teresa Coufal, deputy clerk; Caren 
Auchman and Ella Hoffman, press assistants; Zhongrui ``JR'' 
Deng, chief information officer; Leneal Scott, information 
systems manager; William Ragland and Miriam Edelman, staff 
assistants; David Marin, minority staff director; Lawrence 
Halloran, minority deputy staff director; Jennifer Safavian, 
chief counsel for oversight and investigations; Keith Ausbrook, 
general counsel; Steve Castor, minority counsel; Ali Ahmad, 
minority deputy press secretary; Benjamin Chance and John Ohly, 
minority professional staff members; Patrick Lyden, minority 
parliamentarian and member services coordinator; and Brian 
McNicoll, minority communications director.
    Chairman Waxman. The committee will please come to order.
    Before we begin our hearing, the Chair wants to make some 
personal statements and statements on behalf of all of our 
colleagues about the seat that is next to me that is vacant. 
That seat was occupied by Representative Tom Lantos, who passed 
away this week.
    Those of us who have worked with Tom Lantos over the years 
know about his deep commitment and compassion, his integrity, 
and his leadership not only on behalf of his constituents, but 
the people of this country and around the world. He was a 
champion for human rights.
    He was a member of this committee, but he was also chairman 
of the Foreign Affairs Committee. And I think it is appropriate 
that as a long-time member of this committee and a very 
esteemed Member of Congress that we recognize him and have a 
moment of silence. But before I call for that moment of 
silence, I would like to recognize Mr. Davis.
    Mr. Davis of Virginia. Thank you, Mr. Chairman.
    Having survived unalterable inhumanity, Tom Lantos spent 
the rest of his life giving voice to the ideals of human rights 
and freedom. His keen intellect, indomitable spirit, and wry 
insights left an indelible mark on all that he touched. We are 
grateful to have known him. He will be missed, but not 
forgotten. And we take solace in the Hebrew lesson, There are 
stars whose light only reaches the Earth long after they have 
fallen apart.
    There are people whose remembrance gives light in this 
world long after they have passed away. Their light shines in 
our darkest nights on the road we must follow.
    Thank you, Mr. Chairman.
    Chairman Waxman. Thank you, Mr. Davis. And if you would all 
just please remember him in a moment of silence.
    [Moment of silence.]
    Chairman Waxman. This is our second hearing on Senator 
Mitchell's report on the illegal use of steroids and other 
performance-enhancing substances by players in Major League 
Baseball. This hearing is focused on the accuracy of an 
important section of that report, the section that is based on 
the information that strength and fitness coach Brian McNamee 
provided to Senator Mitchell.
    This committee has a special connection to the Mitchell 
Report. In 2005, when Representative Tom Davis was our 
chairman, the two of us urged Commissioner Selig to investigate 
baseball's history with performance-enhancing substances. The 
Commissioner agreed with our suggestion and appointed Senator 
George Mitchell to lead that effort.
    Senator Mitchell's report is impressive and credible. He 
concluded that the use of performance-enhancing substances was 
pervasive for more than a decade, and that everyone in 
baseball--the players, the union, the owners, and the 
Commissioner--were responsible for the scandal.
    Senator Mitchell released his report on December 13th. That 
same day this committee announced a hearing with Senator 
Mitchell, Commissioner Selig, baseball player's union leader 
Don Fehr. We intended for that hearing to close the chapter on 
looking at baseball's past.
    On the same day the Mitchell Report was released, however, 
Roger Clemens, through his attorney, Rusty Hardin, publicly 
challenged the accuracy of the section of the report that 
presented evidence of his use of steroids and human growth 
hormone. Mr. Hardin later told the committee that the Mitchell 
Report is a horrible, disgraceful report.
    Given the committee's past work and our interest in an 
accurate record of baseball's steroid era, we have investigated 
the evidence in Senator Mitchell's report that relates to Mr. 
McNamee and the players he identified. Tom Davis and I made 
this decision reluctantly; we have no interest in making 
baseball a central part of our committee's agenda. But if the 
Mitchell Report is to be the last word on baseball's past, we 
believe we have a responsibility to investigate a serious claim 
of inaccuracy.
    The committee's inquiry and this hearing are focused on the 
accuracy of the Mitchell Report as it relates to information 
provided by Brian McNamee. Mr. Davis and I both believe that 
this narrow focus is important. We have carefully limited our 
inquiry to the relevant facts regarding Mr. McNamee's 
interactions with three players he claims to have supplied with 
these substances.
    In the course of this investigation, we have been able to 
probe more deeply than Senator Mitchell could. Senator Mitchell 
could only ask for information and had no power to subpoena 
documents or to insist that individuals talk to him. As the 
chief investigative committee in the House of Representatives, 
we have greater authority and have been able to consider 
evidence that was not available to Senator Mitchell.
    I will now summarize some of the information our 
investigation has uncovered.
    Based on the information that Brian McNamee provided 
Senator Mitchell, he reported that Chuck Knoblauch used human 
growth hormone in 2001. According to the report, ``Beginning 
during spring training and continuing through the early portion 
of the season, McNamee injected Knoblauch at least seven to 
nine times with human growth hormone.''
    Mr. Knoblauch voluntarily met with the committee on 
February 1st, and told us that Mr. McNamee was accurate when he 
told Senator Mitchell that McNamee had injected him with human 
growth hormone. Mr. Knoblauch also told us about additional 
injections of human growth hormone that were not reported by 
Senator Mitchell. Mr. Knoblauch told us that he administered 
HGH injections to himself in 2002. There is no mention of these 
injections in Senator Mitchell's report or in any published 
account.
    In a moving part of his deposition, Mr. Knoblauch said, My 
son was here today, and I am trying not to get emotional about 
this, but I am trying to teach him a lesson that you need to do 
things in life that you are going to be willing to talk about 
openly and to tell the truth. On behalf of the committee, I 
want to thank Mr. Knoblauch for his cooperation and for his 
candor in accepting responsibility for his actions.
    Based on the information Mr. McNamee provided, Senator 
Mitchell also reported that Andy Pettitte used human growth 
hormone. Mr. McNamee has known Mr. Pettitte since 1999, and has 
worked as his personal fitness coach. According to the Mitchell 
Report, Mr. McNamee recalled that he injected Pettitte with 
human growth hormone on two to four occasions in 2002.
    Andy Pettitte voluntarily met with the committee for a 
sworn deposition on February 4th, and told the committee that 
the information that Mr. McNamee provided to Senator Mitchell 
was accurate. In addition, Mr. Pettitte told the committee 
about a second time he used human growth hormone. This occurred 
in 2004, where Mr. Pettitte injected himself twice with HGH 
when he was recovering from an injury.
    Mr. Pettitte had never told anyone outside of his family 
about this incident, but he volunteered it during the 
deposition because he wanted to provide a complete record to 
the committee. Mr. Pettitte also provided additional 
information of particular relevance to this hearing, which I 
will describe later in my statement.
    On behalf of the committee, I want to commend Mr. Pettitte 
for his cooperation. He found himself in an extremely 
uncomfortable position, but he did the right thing and told the 
truth. During his deposition, he was asked how he approached 
this difficult situation, and he said, ``I have to tell you the 
truth. And 1 day I have to give an account to God and not to 
nobody else about what I have done in my life. And that is why 
I have said and shared the stuff that I wouldn't like to share 
with you all.'' Mr. Pettitte's consistent honesty makes him a 
role model on and off the field.
    And finally, based on the information that Brian McNamee 
provided, Senator Mitchell reported that Roger Clemens used 
human growth hormone and steroids. Brian McNamee told Senator 
Mitchell that on over 20 occasions he injected Roger Clemens 
with either human growth hormone or steroids.
    All of us from time to time can have memory lapses. If any 
of us were asked to recall a specific incident or event that 
occurred 10 years ago, we might get the substance right, but we 
would be off on some details. I think most of us can relate to 
that. It is rare, however, to have the situation the committee 
faces today.
    Mr. Clemens and Mr. McNamee have both cooperated fully with 
us, and both have given us sworn statements. They both insist 
that they are telling the truth. But their accounts couldn't be 
more different. They don't disagree on a phone call or one 
meeting. They disagree on whether, over a period of 4 years, 
Mr. McNamee repeatedly injected Mr. Clemens with steroids and 
human growth hormone.
    It is impossible to believe that this is a simple 
misunderstanding. Someone isn't telling the truth. If Mr. 
McNamee is lying, then he has acted inexcusably and he has made 
Mr. Clemens an innocent victim. If Mr. Clemens isn't telling 
the truth, then he has acted shamefully and has smeared Mr. 
McNamee. I don't think there is anything in between.
    After we had completed our depositions, my intent was to 
cancel this hearing and issue a written report. We have learned 
a lot about Mr. McNamee's allegations and Mr. Clemens's 
account, and I thought a bipartisan report setting out the 
facts with Mr. Davis might be the most effective way to present 
the results of our investigation.
    But others had different views, and I was particularly 
influenced by the view of Mr. Clemens' attorneys, who thought 
it would be unfair if the committee issued a report without 
giving Mr. Clemens the opportunity to testify in public. So I 
decided to proceed with this hearing, which I expect will be 
the last hearing this committee will have on baseball's past or 
the Mitchell Report.
    In today's hearing, Mr. McNamee's credibility will be 
bolstered by the testimony the committee received from Mr. 
Knoblauch and Mr. Pettitte in their depositions. Mr. McNamee 
named three players in the Mitchell Report: Mr. Knoblauch, Mr. 
Pettitte and Mr. Clemens. None of these players talked with 
Senator Mitchell, but now two of them have told us under oath 
that Mr. McNamee told the truth as it related to them.
    Senator Mitchell told us in our January 15th hearing that 
two other factors supported Mr. McNamee's credibility. First, 
he said that the only penalty Mr. McNamee faced in dealing with 
Federal prosecutors was perjury, which meant that he faced 
legal jeopardy only if he lied. And second, Mr. McNamee was 
being paid by Mr. Clemens in 2007, as he had been paid for many 
years, and he had an economic interest against implicating the 
individual who supported his livelihood and was his most 
prominent client.
    On the other hand, the committee learned that Mr. McNamee 
has twice failed to tell the government investigators the full 
truth. There was an incident in Florida in 2001 that is not 
related to the matter before us, but relates to Mr. McNamee's 
credibility. We are not going to make that incident part of 
today's hearing, but Mr. Davis and I have prepared a joint 
statement that will be part of today's record. We are 
stipulating for the record that Mr. McNamee lied to police 
officers when they investigated the matter. Mr. McNamee does 
not dispute that he lied, but told us he did it to protect 
others. Mr. McNamee was never charged in that case.
    Of more direct relevance to this matter, it is clear from 
our deposition with Mr. McNamee that he didn't tell Federal 
prosecutors everything he knew. In his deposition, Mr. McNamee 
acknowledged that he misled prosecutors about the number of 
injections he gave Mr. Knoblauch and Mr. Clemens. Until last 
month, he also withheld from the prosecutors physical evidence 
that he says implicates Mr. Clemens.
    Mr. McNamee says he did not tell the full truth because, 
``I was trying not to hurt the guy. I felt awful for being in 
the situation I put myself into. There was a feeling of 
betrayal. I shouldn't have done it. But I didn't want to hurt 
him as bad as I could.''
    That is no excuse. It is a serious matter that Mr. McNamee 
did not tell the investigators the full truth. We need to keep 
this in mind in evaluating his credibility today.
    Mr. Clemens has visited with many committee members 
personally in the last few days. One point he and his attorneys 
have made is that it would make no sense for him to testify 
under oath if he actually used steroids. In judging his 
credibility, the risk that he takes by testifying today needs 
to be taken into account.
    It is also relevant that Mr. Clemens is a credible and 
convincing person. I am also aware of the tremendous amount of 
good that Mr. Clemens has done through the Roger Clemens 
Foundation--and I thank you for helping so many children--but 
it is also true that as we moved forward in our investigation, 
we found conflicts and inconsistencies in Mr. Clemens's 
account.
    During his deposition, he made statements we know are 
untrue, and he made them with the same earnestness that many of 
the committee members observed in person when he visited our 
offices. In other areas, his statements are contradicted by 
other credible witnesses or simply implausible.
    At the beginning of his sworn deposition, Mr. Clemens 
repeatedly told the committee that he never talked with Brian 
McNamee about human growth hormone. We know from his later 
testimony that these statements were false. Mr. Clemens told 
the committee that Mr. McNamee injected him with a dangerous 
pain medication, Lidocaine, in a public area of a team training 
room. Dr. Ron Taylor, the team doctor, Melvin Craig, the team 
trainer, both told the committee that this account does not 
make any sense.
    During his interview on 60 Minutes, Mr. Clemens asserted 
that ``Mr. McNamee didn't tell me a word about the Mitchell 
Report,'' and he lambasted Mr. McNamee for sending him an e-
mail about fishing equipment a week before the release of the 
report.
    Well, these statements were not accurate. Eight days before 
the release of the Mitchell Report, Mr. McNamee called Mr. 
Clemens' representatives and told them about the report. Mr. 
McNamee also allowed Mr. Clemens' investigators to interview 
him at length about the evidence in the Mitchell Report before 
the release of the report. We know this happened because those 
investigators secretly taped the interview.
    There is also a direct conflict between Mr. Clemens' 
testimony and Mr. Pettitte's. During his deposition, Mr. 
Pettitte told the committee that in 1999 or 2000, Mr. Clemens, 
``told me he had taken HGH.'' During his deposition, Mr. 
Pettitte was asked whether he had any doubt about that 
recollection and he said, ``I mean no. He told me that.'' Mr. 
Clemens said this conversation never took place.
    Mr. Pettitte also said he had a second conversation with 
Mr. Clemens about HGH in 2005. This conversation took place 
after the committee's hearings on steroids in baseball, when 
Mr. Pettitte asked Mr. Clemens what he would say about the HGH 
use, if asked. According to Mr. Pettitte, Mr. Clemens said, ``I 
never told you that. I told you that Debbie used HGH.'' Debbie 
Clemens is Mr. Clemens' wife.
    Well, we learned through our depositions of Mr. Clemens and 
Mr. McNamee that Mr. Clemens did inject--Mr. McNamee did inject 
Mr. Clemens' wife with HGH.
    Mr. Clemens and Mr. McNamee gave completely different 
accounts of this injection. Mr. Clemens says that Mr. McNamee 
injected Mrs. Clemens without his knowledge. Mr. McNamee says 
that Mr. Clemens asked him to inject Mrs. Clemens. What they do 
agree upon, however, is that these injections occurred in 2003. 
That makes it impossible that Mr. Clemens, when he spoke to Mr. 
Pettitte in 1999 or 2000 could have been referring to these 
injections of Mrs. Clemens.
    Mr. Pettitte also told the committee that he talked about 
both of these conversations with his wife. Because of the 
relevance of this evidence to the committee's investigation, 
the committee asked Mr. Pettitte and his wife to submit 
affidavits to the committee. And this is an excerpt of what Mr. 
Pettitte wrote:

        In 1999 or 2000, I had a conversation with Roger Clemens in 
        which Roger told me he had taken human growth hormone. This 
        conversation occurred at his gym in Memorial, Texas. He did not 
        tell me when he got the HGH or from whom, but he did tell me 
        that it helped the body recover. I told my wife Laura about the 
        conversation with Roger soon after it happened.

        In 2005, around the time of the congressional hearing into the 
        use of performance-enhancing drugs in baseball, I had a 
        conversation with Roger Clemens in Kissimmee, Florida. I asked 
        him what he would say if asked by reporters if he ever used 
        performance-enhancing drugs. When he asked what I meant, I 
        reminded him that he told me that he had used HGH. Roger 
        responded by telling me that I must have misunderstood him. He 
        claimed that it was his wife Debbie who used HGH.

        I said, ``OK--oh, OK,'' or words to that effect, not because I 
        agreed, but because I wasn't going to argue with him. Shortly 
        after that I told my wife Laura about this second conversation 
        with Roger about HGH and his comment about his wife.

    That is what Mr. Pettitte told us in his affidavit; and 
this is what his wife, Mrs. Pettitte wrote:

        In 1999 or 2000, Andy told me he had a conversation with Roger 
        Clemens in which Roger admitted to him using human growth 
        hormone. A few years later, I believe in 2005, Andy again told 
        me of a conversation with Roger Clemens about HGH. Andy told me 
        that he had been thinking that if a reporter asked him, he 
        would tell the reporter of his own use of HGH in 2002. He said 
        that he told Roger Clemens this and asked Roger what he would 
        say if asked.

        Andy told me that in this 2005 conversation Roger denied using 
        HGH, and told Andy that Andy was mistaken about their earliest 
        conversation. According to Andy, Roger said that it was his 
        wife Debbie who used HGH.

    Well, we will sort through all of this today. I suspect we 
will find inconsistencies in both Mr. Clemens' and Mr. 
McNamee's accounts, and each Member will have to reach his or 
her own conclusions. These conclusions should not be based on 
whether we like or dislike Mr. McNamee or like or dislike Mr. 
Clemens; our conclusions must be on the facts.
    During the course of our investigation, we have acquired a 
considerable amount of relevant evidence. We have taken the 
depositions of Mr. Clemens, Mr. Pettitte, Mr. McNamee. We have 
conducted transcribed interviews of Mr. Knoblauch, several team 
trainers and doctors, and Jim Murray, a representative of Mr. 
Clemens.
    We have received e-mails, communications and transcripts of 
tape recordings. We have also received affidavits and 
declarations from several witnesses. Ranking Member Davis and I 
have agreed to make this evidence part of the hearing record, 
with appropriate redactions to protect personal privacy.
    I know, given the nature of this hearing, that our 
witnesses have strong feelings, and I suspect that some 
committee members may share these. I want to caution both the 
witnesses and the Members, the Chair will not tolerate any 
outbursts or defamatory comments at this hearing. This is an 
unusual hearing, but we have tried to be as fair as we can 
throughout this investigation; and I am determined that this 
hearing will also be conducted in the fairest way possible for 
everyone.
    I would now like to recognize Tom Davis for his opening 
statement.
    [The prepared statement of Hon. Henry A. Waxman follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Davis of Virginia. Thank you, Mr. Chairman. I just 
heard the bells ring. Let me ask, we may be interrupted 
frequently today with votes. I think there is some chaos on the 
floor, which isn't uncommon. I am willing to sit through the 
hearing if you are----
    Chairman Waxman. Yes.
    Mr. Davis of Virginia [continuing]. And pair each other on 
motions to adjourn and dilatory motions, if that would be OK 
with the chairman.
    The Members----
    Chairman Waxman. The two of us will pass up those votes 
that are procedural. Members will use their own judgment and 
guidance as to whether they will join us in missing those 
votes. But the hearing will continue.
    Mr. Davis of Virginia. Thank you, Mr. Chairman. Thank you 
for holding this hearing today. And thank you for reminding us 
all why we are here today.
    It gives me no joy to have joined you in calling this 
hearing. We were faced with an unenviable choice: Allow a 
strenuous challenge to the Mitchell Report to stand without 
review, or open ourselves up to criticism that we are 
grandstanding, that we are acting like self-appointed 
prosecutors trying the claims of that report.
    In the end, we decided we had a duty to probe the 
challenge, that we needed to help determine whether the 
Mitchell Report, with its 409-page sordid picture of back-room 
drug deals and players injecting each other with illegal 
substances right in their locker rooms, whether that report 
could and should still stand as proof positive that baseball's 
efforts to combat illegal drug use needs a fresh look.
    Our hearing yesterday was a helpful reminder of the 
importance of our work. We learned how those attempting to sell 
HGH are scamming consumers and breaking the law. We learned of 
the terrible risks associated with unapproved use. We learned 
yet again of the dangerous and phony messages being sent to 
young athletes that there are magic pills and wonder drugs that 
can grease their path to the Hall of Fame.
    So while today's hearing may be awkward and joyless, we 
know why we are here. We are here to again try to disrupt and 
discredit the crass messages aimed at our children.
    We can't be arbitrators of credibility, at least not this 
soon after gathering evidence. We can't be lured into attaching 
a coefficient of credibility to different witnesses. We can 
only collect facts and present them as completely and 
dispassionately as possible.
    Today, we will let the American people judge who is to be 
believed in this unfortunate battle of wills, memories and 
reputations.
    Coming into today's hearing, we have before us two very 
different stories. They are in many ways incompatible. 
Someone's lying in spectacular fashion about the ultimate 
question. But we have not prejudged, nor should anyone coming 
in today prejudge. Let's listen to the witnesses. Let's probe 
disparities and contradictions. Let's remain fair and 
objective. And then let's decide whether anything we have 
learned leaves the Mitchell Report in a less glowing light than 
it has thus far enjoyed.
    As we did in January, we want to commend Senator Mitchell 
for his work. He was saddled with a daunting task and list of 
obstacles: no subpoena power, little cooperation from players 
and only tepid enthusiasm among owners more concerned with 
filling seats than protecting public health. He produced a 
sober, evenhanded document whose factual assertions, with 
little exception, have remained unchallenged.
    Today, we offer a stage to the primary, most vocal 
challenger. What better way to examine the strength of the 
Mitchell Report than to offer someone of Roger Clemens' stature 
the chance to tell his story and have that story, in turn, 
examined as well. Mr. Clemens, because of the scrutiny he has 
received, because of his accomplishments and profile, because 
of the good work his foundation has done for many years, 
deserves this opportunity.
    And so does his former friend, trainer, and now accuser, 
Brian McNamee.
    At our first hearing, on January 15th, we learned from 
Senator Mitchell that players were required to consent to an 
interview before seeing the evidence against them; and they 
couldn't simply appear, review the evidence and leave if they 
concluded they had nothing further to say.
    It is not hard to imagine why players like Roger Clemens 
might have opted to remain mum under this scenario. Today is 
his chance to speak free of these constraints, yet under oath 
and before a multitude of interested observers.
    We will ask our witnesses about the contradictions, open 
threads and mysteries we have uncovered through interviews, 
depositions, and document review. We will find out if witnesses 
are sticking to their stories. We will probably discover that 
some lines of inquiry are red herrings. We will undoubtedly 
learn things that are new to us. And perhaps we will end up as 
confused and as uncertain as ever.
    But reaching consensus on whether the Mitchell Report is 
now sullied does not require us to reach firm conclusions or 
judgments on the veracity of our witnesses today. Factual 
resolution, whether through exoneration or heightened 
skepticism, need not be our goal.
    Today's testimony and questioning may not be tidy. Our 
hearing may not end up wrapped in a neat package and may not 
fit the story line anticipated by many and hoped for by some. 
That is OK. I think we will have heard and learned enough to 
soon conclude whether we can return to the process of 
implementing the best of Senator Mitchell's recommendations.
    This is not a court of law. The guilt or innocence of the 
players accused in this report and of the accusers is not our 
concern. Our focus is, and has been, on Senator Mitchell's 
recommendations more than his findings. We are here to save 
lives, not ruin careers. Why? Because the health of young 
athletes across the country is at stake, and we don't hesitate 
to defend their interests, even if the process isn't always 
pretty.
    Thank you.
    [The prepared statement of Hon. Tom Davis follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Chairman Waxman. Thank you very much, Mr. Davis.
    By agreement, we will proceed without objection in 
questioning in the following way after the witnesses have 
presented their testimony: one 15-minute round for both the 
majority and minority, controlled by the chairman and the 
ranking member; two 10-minute rounds for both the majority and 
the minority, controlled by the chairman and the ranking 
member.
    Gentlemen, we welcome you to our hearing today. We 
appreciate your being here.
    It is the practice of this committee that all witnesses 
that testify before us testify under oath. So the Chair would 
like to ask the three of you to please stand and raise your 
right hands.
    [witnesses sworn.]
    Chairman Waxman. The Chair will note for the record that 
each of the witnesses answered in the affirmative.
    There are only two of you who will be making opening 
statements. Mr. Scheeler is here to answer questions. We will 
give each of the witnesses adequate time to make their 
presentation.
    And we would like to start with you, Mr. Clemens. There is 
a button on the base of the mic. Be sure it is on and be sure 
it is close enough to you so that we can hear everything you 
have to say.

    STATEMENT OF ROGER CLEMENS, MAJOR LEAGUE BASEBALL PLAYER

    Mr. Clemens. Thank you, Mr. Chairman.
    First, I would like to express my sympathy to the committee 
on the passing of Chairman Lantos, a man, I understand, with a 
remarkable personal history, and a man who served this country 
with great distinction. My condolences go out to his family and 
to all of you.
    Thank you for allowing me to tell you a little bit about 
myself and how I have conducted my professional career over the 
past 25 years.
    I have always believed that hard work and determination 
were the only ways to be successful and to reach goals. 
Shortcuts were not an option. This was instilled in me since I 
was a young boy by my mother and by my grandmother.
    Over the course of my career, I have had the opportunity to 
work with many trainers, chiropractors, physical therapists, 
and other professionals to try and educate myself and to use 
what knowledge they had to keep my body in the best shape it 
could possibly be.
    I met Brian McNamee while playing with the Toronto Blue 
Jays in 1998. I trusted him, put faith in him, brought him 
around my family and my children. I treated him just like I 
have done everyone else I have met in my life, like family.
    I am a positive person, and I enjoy doing things for 
others. I am not just a ballplayer. I am a human being. 
Baseball is what I do; it is not who I am. I played the game 
because of my love and respect for it. I have devoted my life 
to it, and pride myself as an example for kids, my own as well 
as others. I have always tried to help anyone who crossed my 
path that was in need.
    To that end, here we are now with me being accused of 
steroids and cheating the game of baseball. If I am guilty of 
anything, it is of being too trusting of everyone, wanting to 
see the best in everyone, being too nice to everyone. If I am 
considered to be ignorant because of that, then so be it.
    I have chosen to live my life with a positive attitude, yet 
I am accused of being a criminal, and I am not supposed to be 
angry about that. If I keep my emotions in check, then I am 
accused of not caring. When I did speak out, I was accused of 
protesting too much, so I am guilty. When I kept quiet at the 
advice of my attorney, until he could find out why in the world 
I was being accused of these things, I must have had something 
to hide, so I am guilty.
    People who make false accusations should not be allowed to 
define another person's life.
    I have freely, without question, shared my talents God gave 
me with children, young and old, and I will continue to do so. 
I have been blessed with a will and a heart that carries me on 
in life. I have had thousands of calls, e-mails from friends, 
working partners, teammates, fans, and men that have held the 
highest office in our country telling me to stand strong. These 
words were welcomed during some very tough times for my family 
and me.
    Do I think steroids are good for helping someone's 
performance? No. In fact, I think they are detrimental. These 
types of drugs should play no role in the game of baseball and 
athletics at any level.
    Should there be more extensive testing? Yes. I think 
whatever is necessary for everyone involved to satisfy 
themselves that it is not going on should be done. I have been 
accused of something I am not guilty of. How do you prove a 
negative?
    No matter what we discuss here today, I am never going to 
have my name restored, but I have to try and set the record 
straight. However, by doing so, I am putting myself out there 
to all of you, knowing that because I said that I didn't take 
steroids that this is looked as an attack on Senator Mitchell's 
report. Where am I to go with that?
    I am not saying Senator Mitchell's report is entirely 
wrong. I am saying Brian McNamee's statements about me are 
wrong.
    Let me be clear. I have never taken steroids or HGH. Thank 
you.
    Chairman Waxman. Thank you very much, Mr. Clemens.
    [The prepared statement of Mr. Clemens follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Chairman Waxman. Mr. McNamee? Be sure the button is pushed 
on the mic, and it is close enough to you so that we can hear 
every word.

   STATEMENT OF BRIAN McNAMEE, FORMER MAJOR LEAGUE BASEBALL 
                STRENGTH AND CONDITIONING COACH

    Mr. McNamee. Thank you, Chairman Waxman, Ranking Member 
Davis, and other members of the committee. My name is Brian 
Gerard McNamee, and I was once the personal trainer for one of 
the greatest pitchers in the history of baseball, Roger William 
Clemens.
    During the time that I worked with Roger Clemens, I 
injected him on numerous occasions with steroids and human 
growth hormone. I also injected Andy Pettitte and Chuck 
Knoblauch with HGH. The Mitchell Report documented the 
pervasiveness of steroids and HGH in Major League Baseball, and 
I was unfortunately part of that problem.
    I want to be clear that what I did was wrong. I want to 
apologize to the committee and to the American people for my 
conduct. I have helped taint our national pastime. I hope that 
my testimony here today allows me in some small way to be part 
of the solution.
    I am not proud of what I have done, and I am not proud to 
testify against a man I once admired. To those who have 
suggested that I take some personal satisfaction in bringing 
down Roger Clemens, let me assure you nothing could be further 
from the truth. I take responsibility for my actions in the 
hopes that others may learn from my mistakes.
    My father, who served for 24 years with the New York City 
Police Department, instilled in me that people are human and 
make mistakes, and I should always step up and acknowledge my 
mistakes despite the consequences.
    And so, here we are. Providing information to Federal 
investigators has been very painful for me, and I did not seek 
out Federal investigators. They sought me out. I did not want 
to cooperate, because I knew that if I told the truth, I would 
be providing damaging information against people who I worked 
for. And in the end, I cooperated with Federal investigators 
and with Senator Mitchell.
    Make no mistake, when I told Senator Mitchell that I 
injected Andy Pettitte with performance-enhancing drugs, I told 
the truth. Andy Pettitte, who I know to be honest and decent, 
has since confirmed this.
    And make no mistake, when I told Senator Mitchell that I 
injected Chuck Knoblauch with performance-enhancing drugs, I 
told the truth. Chuck Knoblauch has also confirmed this as 
well.
    And make no mistake, when I told Senator Mitchell that I 
injected Roger Clemens with performance-enhancing drugs, I told 
the truth. I told the truth about steroids and human growth 
hormone. I injected those drugs into the body of Roger Clemens 
at his direction. Unfortunately, Roger has denied this and has 
led a full-court attack on my credibility. And let me be clear, 
despite Roger Clemens' statements to the contrary, I never 
injected Roger Clemens or anyone else with Lidocaine or B-12.
    I have no reason to lie and every reason not to. If I do 
lie, I will be prosecuted.
    I was never promised any special treatment or consideration 
for fingering star players. I was never coerced to provide 
information against anyone. All that I was ever told to do was 
to tell the truth to the best of my ability; and that is what I 
have done. I told the investigators that I injected three 
people, two of whom I know confirmed my account. The third is 
sitting at this table.
    When I first provided information to Federal investigators, 
I had not spent much time going back over these facts and 
trying to piece together the details. And I guess maybe I 
wanted to downplay the extent of their use because I felt I was 
betraying the players I had trained.
    In the following weeks and months, I have had the 
opportunity to think about these events and consider the 
specific drug regimens we used. As a result, I now believe that 
the numbers of times I injected Roger Clemens and Chuck 
Knoblauch was actually greater than I initially stated.
    Additionally, I recently provided physical evidence to 
Federal investigators that I believe will confirm my account, 
including syringes that I used in 2001 to inject Roger Clemens 
with performance-enhancing drugs. This evidence is 100 percent 
authentic, and the DNA and chemical analysis should bear this 
out.
    To put in context, the issue of steroids and performance-
enhancing drugs in baseball was starting to pick up steam in 
2000. While I liked and admired Roger Clemens, I don't think 
that I ever really trusted him. Maybe my years as a New York 
City police officer had made me wary, but I just had the sense 
if this ever blew up and things got messy, Roger would be 
looking out for No. 1. I viewed the syringes as evidence that 
would prevent me from being the only fall guy.
    Despite my misgivings about Roger, I have always been loyal 
to a fault, a trait that has gotten me into trouble in the 
past. Even though I saved the material, I never considered 
using it.
    When I met with Federal investigators, I still did not want 
to destroy Roger Clemens. I was hoping this issue would just 
fade away. It has not faded away, and everything changed for me 
on January 7th, when Roger Clemens' lawyer played a secretly 
tape-recorded conversation between me and Roger, in which my 
son's medical condition was discussed on national TV. It was 
despicable.
    The next day I retrieved the evidence and contacted my 
lawyers and the Federal investigators.
    The whole experience has been a nightmare for my family. I 
have had to revisit and read about, in the press, mistakes I 
have made in the past and serious mistakes concerning an 
incident that happened in Florida in 2001, when I was a member 
of the Yankee organization. I lied to police officers to 
protect friends, ballplayers, coaches, and myself with whom I 
worked. I was wrong, and I deeply regret my actions.
    Today, my livelihood is in ruins, and it is painful beyond 
words to know that my name will be forever linked with scandal 
in the sport I love. Yet the spotlight generated by Senator 
Mitchell's report and this hearing can help clean up the drug 
culture in baseball so that young people no longer see 
performance-enhancing drugs as a necessary shortcut to success. 
Maybe, just maybe, all the pain and shame will have served a 
greater good.
    Thank you, and I will be happy to answer all your 
questions.
    Chairman Waxman. Thank you very much, Mr. McNamee.
    [The prepared statement of Mr. McNamee follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Chairman Waxman. Under the previous unanimous consent 
agreement, we will control 15 minutes in the first round and 
Mr. Davis, 15 minutes on his side.
    And I would like to yield at this time 5 minutes to Mr. 
Cummings. I would like to yield the full 15 minutes to Mr. 
Cummings.
    Mr. Cummings. Thank you very much, Mr. Chairman.
    And thank you, gentlemen, for being with us this morning.
    And I was very pleased to hear both of the witnesses talk 
about children, because that is what this was all about when we 
started, so many children trying to emulate their sports stars.
    I am going to ask you a few questions, Mr. Clemens, and I 
first want to make sure that you are very clear. You understand 
that you are under oath; is that correct?
    Mr. Clemens. That's correct.
    Mr. Cummings. And you know what that means; is that 
correct?
    Mr. Clemens. That's correct.
    Mr. Cummings. Very well.
    First of all, Mr. Pettitte, Andy Pettitte, is one of the 
most respected players in the major leagues, and commentator 
after commentator has said that he is one of the most honest 
people in baseball. Would you agree with that?
    Mr. Clemens. I would agree with that, yes, sir.
    Mr. Cummings. Keep your voice up.
    Mr. Clemens. I would agree with that, yes, sir.
    Mr. Cummings. In fact, this is what your own lawyer, Rusty 
Hardin, said about Mr. Pettitte in the New York Times, ``We 
have nothing to fear about what Andy may testify to. Everyone 
says that Andy is honest. We have no reason to believe he will 
lie.''
    Would you agree with that statement your lawyer made?
    Mr. Clemens. I would agree with that, yes.
    Mr. Cummings. Very well.
    Now, Mr. Clemens, I want to ask you just one thing. In his 
deposition, Mr. Pettitte told the committee that he had a 
conversation with you in 1999 or 2000 in which you admitted 
that you used human growth hormones.
    Is this true?
    Mr. Clemens. It is not.
    Mr. Cummings. So you did not tell Mr. Pettitte at this time 
that you used human growth hormones?
    Mr. Clemens. I did not.
    Mr. Cummings. And--but at the same time you just said that 
he is a very honest fellow; is that right?
    Mr. Clemens. I believe Andy to be a very honest fellow, 
yes.
    Mr. Cummings. Very well. Let's continue.
    In his deposition, Mr. Pettitte was honest and forthcoming 
with the committee. He told us things that were embarrassing, 
that we had no way of knowing except through his own testimony.
    First, he confirmed that Mr. McNamee injected him with HGH 
in 2002, which is in the Mitchell Report.
    You understand that, right?
    Mr. Clemens. I do.
    Mr. Cummings. Then he told us that he injected himself, 
again, in 2004. We did not know about the 2004 injection, but 
he volunteered that information because he wanted the committee 
to know the entire truth.
    It was hard for Mr. Pettitte to tell the committee about 
the 2004 injections. The circumstances which he described in 
length were exceptionally personal and embarrassing. But it was 
even harder for him to talk about you, Mr. Clemens. He is 
friends with both you and Mr. McNamee, and he felt caught in 
the middle.
    During his deposition, he was asked how he would resolve 
the conflict between two friends. Here is what he said, ``I 
have to tell you all the truth. And 1 day I have to give an 
account to God, and not to nobody else, of what I have done in 
my life. And that is why I said and shared the stuff with y'all 
that I would not like to share with y'all.''
    Now, Mr. Clemens, I reminded you that you are under oath. 
Mr. Clemens, do you think Mr. Pettitte was lying when he told 
the committee that you admitted using human growth hormones?
    Mr. Clemens. Mr. Congressman, Andy Pettitte is my friend. 
He will--he was my friend before this. He will be my friend 
after this. And again, I think Andy has misheard.
    Mr. Cummings. I am sorry, I didn't hear you?
    Mr. Clemens. I believe Andy has misheard, Mr. Congressman, 
on his comments about myself using HGH, which never happened.
    The conversation that I can recall, that I had with Andy 
Pettitte, was at my house in Houston, while we were working 
out. And I had expressed to him about a TV show something that 
I have heard about three older men that were using HGH and 
getting back their quality of life from that. Those are the 
conversations that I can remember.
    Andy and I's friendship and closeness was such that, first 
of all, when I learned when he was--when he said that he used 
HGH, I was shocked. I had no idea.
    When I just heard your statement and Andy's statement about 
that he also injected himself, I was shocked. I had no idea 
that Andy Pettitte had used HGH.
    My problem with what Andy says, and why I think he 
misremembers, is that if Andy Pettitte knew that I had used 
HGH, or I had told Andy Pettitte that I had used HGH, before he 
would use the HGH, what have you, he would have come to me and 
asked me about it. That is how close our relationship was. And 
then when he did use it, I am sure he would have told me that 
he used it.
    And I say that for the fact that we also used a product 
called Hydroxycut and ThermaCore. It had ephedra in it, from 
what I understand to be a natural tree root. I believe ephedra 
was banned in 2004, something of that nature. A player in 
Baltimore passed away because of it.
    Andy and I talked openly about this product. And so there 
is no question in my mind that we would have talked, if he knew 
that I had tried or done HGH, which I did not, he would have 
come to me to ask me those questions.
    Mr. Cummings. Well, let's continue.
    In the deposition, we wanted to make absolutely sure, 
because we knew the significance of this, that Mr. Pettitte had 
a clear recollection. And let me read another excerpt from the 
deposition, and this was a question to Mr. Pettitte: ``you 
recollect a conversation with Mr. Clemens. Your recollection is 
that he said he was taking human growth hormone?'' Answer: 
``yes.'' ``And you have no doubt about that recollection?'' ``I 
mean, no, he told me that.''
    Now, Mr. Clemens, you know Mr. Pettitte well. You just 
again described your relationship. You described him as a close 
friend in your deposition. Would he tell the Congress that one 
of his close friends was taking an illegal, performance-
enhancing drug if there were any doubt in his mind about the 
truth of what he was saying?
    Mr. Clemens. Mr. Congressman, once again, I believe----
    Mr. Cummings. Please.
    Mr. Clemens. I am sorry?
    Mr. Cummings. No, I just want you to go ahead and answer 
that.
    Do you think he would do that?
    Mr. Clemens. I think he misremembers----
    Mr. Cummings. Very well.
    Mr. Clemens [continuing]. Our conversation.
    And let me add, in 2006--in 2006, he and I had a 
conversation in Atlanta's locker room when this L.A. Times 
report became public about a Grimsley report, and they said 
that Andy's and my name were listed in that. And I remember him 
coming into that room, the coach's room, the main office there 
of the clubhouse attendant, and sitting down in front of me, 
wringing his hands and looking at me like he saw a ghost.
    And he looked right at me and said, What are you going to 
tell them? And I told him that I am going out there and I am 
going to tell them the truth, I did none of this. I never 
worked out with Jason Grimsley. He was a teammate of mine, and 
I never worked out with him. And I am going to go out there and 
tell them the truth.
    That alone should have confirmed Andy's misunderstanding 
that I have ever told him that I used HGH.
    Mr. Cummings. Very well. Let's continue, because I want to 
make sure that I get through some----
    Mr. Clemens. Yes, sir.
    Mr. Cummings [continuing]. Very key points.
    Mr. Clemens, you have been very critical of Mr. McNamee's 
motives. You just did it a few minutes ago.
    What possible motive would Mr. Pettitte have to fabricate a 
story about you, his friend?
    Mr. Clemens. Andy would have no reason to.
    Mr. Cummings. Very well.
    This was so important we went back to Mr. Pettitte a third 
time, a third time. We asked him to submit an affidavit to the 
committee. This gave him a chance to express his recollection 
clearly, without the pressures of a deposition. I want to read 
to you what he wrote.
    It says, In 1999 or 2000, I had a conversation with Roger 
Clemens in which Roger told me that he had taken human growth 
hormones. This conversation occurred at his gym in Memorial, 
Texas. He did not tell me where he got the HGH or from whom, 
but he did tell me that it helped the body recover.
    It is not just Mr. Pettitte who recollects this 
conversation. During his deposition, Mr. Pettitte told us that 
he tells his wife everything. So we asked his wife to give us 
an affidavit about what she knew. And understand, this is under 
oath. Let me read to you what his wife said in her affidavit.
    I, Laura Pettitte, do depose and state, in 1999 or 2000, 
Andy told me he had a conversation with Roger Clemens in which 
Roger admitted to him using human growth hormones.
    Mr. Clemens, once again I remind you. You are under oath. 
You have said your conversation with Mr. Pettitte never 
happened. If that was true, why would Laura Pettitte remember 
Andy telling her about the conversation?
    Mr. Clemens. Once again, Mr. Congressman, I think he 
misremembers the conversation that we had.
    Andy and I's relationship was close enough to know that if 
I would have known that he was--had done HGH, which I now know, 
that he--if he was knowingly knowing that I had taken HGH, we 
would have talked about the subject. He would have come to me 
to ask me about the effects of it.
    Mr. Cummings. Well, the fact is, Mr. Clemens, that 
apparently now you know he knew it and he didn't tell you.
    Has your mind changed about his credibility?
    Mr. Clemens. Andy's a fine gentleman. I have no reason, 
again----
    Mr. Cummings. Very well.
    Mr. Clemens. I think he misremembers.
    Mr. Cummings. Very well.
    Mr. Clemens. I know it. Again, our relationship was close 
enough that if I knew--if he knew that I had tried HGH, which I 
hadn't, he would have come to me and talked to me and discussed 
this subject.
    Mr. Cummings. I understand.
    The 1999 or 2000 conversation is not the only conversation 
that Mr. Pettitte remembers having with you about HGH. He also 
remembers a second conversation very clearly. This conversation 
took place in 2005. Let me read to you what he wrote about this 
conversation in his affidavit:

        In 2005, around the time of the congressional hearings into the 
        use of performance-enhancing drugs in baseball, I had a 
        conversation with Roger Clemens in Kissimmee, Florida. I asked 
        him what he would say if asked by reporters if he had ever used 
        performance-enhancing drugs.

        When he asked what I meant, I reminded him that he had told me 
        that he had used HGH. Roger responded by telling me that I must 
        have misunderstood him. He claimed that it was his wife Debbie 
        who used HGH; and I said, ``OK,'' or words to that effect, not 
        because I agreed with him, but because I wasn't going to argue 
        with him.

    This conversation happened just 3 years ago, and it is the 
kind of conversation that most people would remember. It is 
hard for me to imagine that Mr. Pettitte made up this 
conversation.
    Did you have a conversation with him to this effect?
    Mr. Clemens. I don't believe I had a conversation in 2005 
with him in Kissimmee, FL. We would have been with the Houston 
Astros at the time.
    But I don't remember that conversation whatsoever.
    Mr. Cummings. Are you saying that you don't remember it, or 
are you telling us that you didn't have it? Do you know?
    And the reason why I am asking you that is because we are 
dealing with some serious matters here, and I want to give 
you--you wanted a fair chance to address this committee; and I 
am just wondering, are you telling us under oath that it didn't 
happen, or are you saying you just don't remember it?
    Mr. Clemens. I don't remember that. And again, I will 
address the--any conversation about my wife Debbie using HGH.
    I know that at one point she read a USA Today article about 
that. I don't know the year. It sure could have been 2005 when 
this article came about, and they just--it was just general 
talk----
    Mr. Cummings. All right.
    Mr. Clemens [continuing]. About HGH.
    Mr. Cummings. Let me go on.
    Laura Pettitte also has a clear recollection of being told 
about this conversation by her husband. Let me read what she 
wrote:

        A few years later, I believe in 2005, Andy again told me of a 
        conversation with Roger Clemens about HGH. Andy told me that he 
        had been thinking that if a reporter asked him, he would tell 
        the reporter of his own use of HGH in 2002. He said that he 
        told Roger Clemens this and asked Roger what he would say, if 
        asked.

        Andy told me that in the 2005 conversation Roger denied using 
        HGH and told Andy that Andy was mistaken about the earlier 
        conversation. According to Andy, Roger said that it was his 
        wife Debbie who used HGH.

    Now, the timeline is very important here. According to Mr. 
Pettitte, his first conversation with you, Mr. Clemens, 
occurred in 1999 or 2000. But you told us that your wife did 
not use HGH until 2003. That makes it impossible that you could 
have been referring to your wife's use of HGH in the first 
conversation.
    These aren't the only relevant conversations that Mr. 
Pettitte told us about. He told us that after his first 
conversation with you, Mr. Clemens, he spoke with Mr. McNamee. 
Let me read what--let me read to you again that affidavit: 
``Shortly after my conversation with Roger, I spoke with Brian 
McNamee. Only he and I were parties to the conversation. I 
asked Roger about HGH, and told him that Roger said he had used 
it. Brian McNamee became angry. He told me that Roger should 
not have told me about his use of HGH because it was supposed 
to be confidential.''
    Mr. McNamee, do you remember that conversation?
    Mr. McNamee. Yes, sir.
    Mr. Cummings. Did it happen?
    Mr. McNamee. Yes, sir.
    Chairman Waxman. Mr. Cummings, your time has expired.
    Mr. Cummings. Thank you very much.
    Chairman Waxman. The Chair will recognize Mr. Davis for 15 
minutes.
    Mr. Davis of Virginia. Thank you very much.
    The good news is everybody, I think, understands the 
dangers of steroids and HGH, and it is the one thing I think 
you both agree on.
    Mr. McNamee, let me start with you just because they asked 
all the questions of Mr. Clemens. I have questions for both of 
you.
    You mentioned in your earlier statement how the number of 
times that the players--you injected the players has constantly 
risen every time you have testified somewhere. You have alleged 
Mr. Clemens' steroid use to at least five groups of people--
your lawyers, Federal agents, Senator Mitchell and his staff, 
private investigators for Mr. Clemens, and then our staff--
during depositions.
    Why has the number continued to change if we are coming 
clean each time?
    Mr. McNamee. Thank you for the question.
    The beginning of the investigation with the Federal 
Government, I didn't know what questions they were going to ask 
me about specific players and injections. I had no recollection 
of the amounts of times because it wasn't part of my regimen 
where I would mark it down. It was pretty much, you know, done 
by the players; they would tell me when, and I would do it.
    But it came because I downplayed at the beginning where I 
didn't want to hurt the players, even though I told the truth 
about their injections and their use.
    And then, as I lived this for the last 2 months and--then I 
had realized, as I said in my opening statement about the 
regimens--there were specific different types of regimens for 
testosterone, Winstrol, and growth hormone that--I started to 
think more about it.
    Even though I can't be accurate, you know, these are just 
ballpark numbers, or best guesstimate as far as low end, high 
end, as I thought about the regimen over time.
    Mr. Davis of Virginia. I mean, the ballpark for Knoblauch 
went from seven times to nine types to 50 times.
    Mr. McNamee. Yes.
    You have to understand, every time I met, sir, with 
investigators, Senator Mitchell, with the congressional panel, 
I had more time to think about it. And the regimen for growth 
hormone was four times a week, so then I just did the math.
    Mr. Davis of Virginia. So you didn't keep any records or 
anything? This is just going back----
    Mr. McNamee. Every time I met, each individual time, did it 
go up? Anything change? Did it go up? And I was specifically 
living this every single day, as opposed to, I didn't think 
about it for years.
    Mr. Davis of Virginia. Did you reinform the Federal 
Government about these changes as you went forward?
    Mr. McNamee. Yes, sir.
    Mr. Davis of Virginia. Mr. Clemens, shortly after the 
call--I am going to ask some questions about the January 4th 
call between you and Mr. McNamee.
    Shortly after your call with Brian McNamee on Friday, 
January 4th, you sent him an e-mail. In the e-mail you very 
clearly tell Mr. McNamee there is nothing to talk about unless 
he admits he is lying.
    Did you ever get a response to this e-mail?
    Mr. Clemens. I am sorry?
    Mr. Davis of Virginia. To the e-mail, did you ever get a 
response to your e-mail to Mr. McNamee on Friday, January 4th?
    This was after your phone call.
    Mr. Clemens. Congressman, after the phone call that was 
taped, I believe I sent an e-mail back to him saying that 
unless you are going to come forward and tell the truth, we 
have nothing to discuss.
    Mr. Davis of Virginia. Did he ever respond?
    Mr. Clemens. He did not.
    Mr. Davis of Virginia. That's what I am asking you.
    During the phone call, Mr. McNamee, during that call that 
you had with Mr. Clemens, Mr. Clemens said, I just need you to 
come out and tell the truth. And you didn't respond.
    Why didn't you just tell Mr. Clemens during the course of 
that conversation, Roger, I did tell the truth. I had to tell 
the truth. I am not trying to hurt anybody. That is all you 
needed to say in this conversation.
    This was a conversation between the two of you. It seems to 
me, this would have been the time where, if this was a friend 
and you felt pained about having to expose him, you would have 
said, Roger, I had to tell the truth.
    Why, in that conversation, didn't you say that?
    Mr. McNamee. Because at the state of that conversation I 
realized that it was being taped, and I also didn't know if 
anyone else was listening, so--I also was trying not to hurt 
him if it wasn't just him taping me.
    But if you listen to it and you know my jargon, I did say 
that. It is what it is.
    Mr. Davis of Virginia. How in your jargon did you say that?
    Mr. McNamee. I said, It is what it is, meaning that I did 
tell the truth.
    Mr. Davis of Virginia. And you knew it was, I mean, for 
posterity and everything else? I would have thought this would 
have been a good opportunity for you to step forward. But you 
were afraid of hurting others at this point.
    Mr. McNamee. I was afraid of hurting Roger Clemens.
    Mr. Davis of Virginia. In your testimony--Mr. McNamee, in 
your testimony about 2001, you added an additional substance, 
parabolen on the list of steroids you injected into Mr. 
Clemens. You didn't tell Senator Mitchell about that. Is that 
again because you weren't focused on that at the time and you 
hadn't had time to think about it?
    Mr. McNamee. That's accurate, sir. I just--it wasn't 
until--I don't remember actually that question being asked, if 
it was any other steroids being injected by anybody else except 
for the congressional panel. And they--I thought about it, I 
thought about it and it just--like--like increasing the numbers 
of injections, it just came to me that parabolen was also 
another steroid used by Mr. Clemens.
    Mr. Davis of Virginia. You testified in your deposition 
that Mr. Clemens on one occasion bled through his designer 
pants and a player noticed it and that's when he bought Band-
Aids. There weren't a lot of--there wasn't a lot of blood a lot 
of times. But since he was wearing his dress pants, he bled 
through and Mike Stanton had noticed it and made a comment. So 
he then--he always traveled now with those little Band-Aids for 
his butt if he bled. That's your quote. He said something to 
Roger about growth hormone. I think it was Stanton started 
taking growth hormone and he said something about knowing that, 
and I walked right into Roger and just turned around to 
Stanton, and said, hey, man, whatever I can do to get the edge. 
And Stanton was asking him, thinking that I told him he was 
taking steroids growth hormone etc. Do you recall any--let me 
ask this, Mr. Clemens. Do you recall any bleeding through your 
pants in 2001? 
    Mr. Clemens. I don't.
    Mr. Davis of Virginia. Do you recall Mike Stanton ever 
talking to you about growth hormone?
    Mr. Clemens. And I don't and I had no knowledge that Mike 
Stanton was using growth hormone.
    Mr. Davis of Virginia. Do you recall him asking you about 
blood on your pants?
    Mr. Clemens. No.
    Mr. Davis of Virginia. Do you ever recall saying anything 
to him about getting an edge, and even as a joke, could that 
have occurred?
    Mr. Clemens. Congressman, when I'm on the mound, I want an 
edge, so----
    Mr. Davis of Virginia. Let me ask you, Mr. McNamee, could 
you describe that a little clearer, what happened at that 
point?
    Mr. McNamee. Involving Mr. Stanton?
    Mr. Davis of Virginia. Yes. The incident involving him and 
bleeding through his pants.
    Mr. McNamee. Excuse me. My best recollection was that I 
didn't witness, Mr. Stanton witnessed him bleeding through the 
pants. It was just a comment that Mr. Clemens had told me. 
That's why he started buying Band-Aids, those little Band-Aids 
to cover up any blood that might bleed. And on a separate 
occasion, if not the same occasion on the plane I had walked in 
to Mr. Stanton talking to Roger about growth hormone. And I was 
upset that--I believed that Mike Stanton duped Roger into 
thinking I had told Stanton about his growth hormone use and 
Roger's response was, I'll do anything to take an edge. And I 
didn't respond to it.
    Mr. Davis of Virginia. You didn't witness any of this?
    Mr. McNamee. I witnessed the conversation as Roger had 
turned around and said, I'll do whatever it takes to get an 
edge. And then I figured out because I also trained Mike 
Stanton on a somewhat one-on-one basis that the conversation 
that he duped him into telling him because I wouldn't tell 
Stanton.
    Mr. Davis of Virginia. Did Stanton use steroids?
    Mr. McNamee. I know he used growth hormone, yes.
    Mr. Davis of Virginia. Did you tell the Mitchell Report 
that?
    Mr. McNamee. I believe so, yes.
    Mr. Davis of Virginia. OK. The Mitchell Report talks about 
the party at Jose Canseco's house on or about June 8th through 
10th, 1998. This was toward the end of the road trip and it 
included a Marlin series after the Blue Jays returned home to 
Toronto. This is allegedly--Mr. Clemens then approached you and 
for the first time, brought up the subject of steroids. I think 
that was your testimony. I want to ask some questions about 
that because the Canseco barbecue is a key event in 1998 where 
your testimonies differ significantly. You described the 
barbecue as potentially the time and place where Roger Clemens 
comes into possession of anabolic steroids. You told us in your 
deposition you have a vivid recollection of Clemens being at 
the barbecue. Do you stand by that?
    Mr. McNamee. Yes, sir.
    Mr. Davis of Virginia. Now all the evidence the committee's 
obtained goes the other way. For example, Jose Canseco 
completed an affidavit and he was interviewed by the staff. He 
said he remembers the barbecue as if it were yesterday. Canseco 
says, Clemens was not there. He remembers being disappointed 
that Mr. Clemens wasn't there. He specifically remembers having 
his high school baseball coach at the barbecue and being 
disappointed he was unable to introduce the coach to Clemens.
    Canseco's affidavit reads, on Tuesday June 9, 1998, I 
hosted a barbecue at my house for my teammates and other Blue 
Jays staff members. It was an honor for me to host a luncheon 
for my new team. During that luncheon, there were approximately 
30 to 40 people present. I specifically recall that Clemens did 
not come to the barbecue. I remember this because I was 
disappointed that he did not attend. According to news reports, 
Blue Jays catcher at the time Darrin Fletcher doesn't remember 
seeing Clemens there. The Blue Jays trainer at the time, Tommy 
Craig and Scott Shannon, told us they don't remember Clemens 
being at the barbecue. The Blue Jays' traveling secretary at 
the time specifically remembers Clemens not being on the team 
bus to travel to the barbecue and does not remember Clemens 
being there.
    Mr. Canseco's wife at the time, the then-Jessica Canseco, 
now Jessica Fisher, has supplied an affidavit to the committee 
that she does not remember Clemens being there. And audio from 
the television broadcast of two different games during the 
three-game series has the announcers talking about the barbecue 
and how Roger Clemens did not attend. And Mr. Clemens has 
produced a golf receipt showing that he played golf that day. 
Now how do you explain--you're the only person that remembers 
him that day and is that a critical juncture.
    Mr. McNamee. I don't think it's that critical in regards to 
Mr. Clemens's steroid use. But I guess as far as asking me is 
it critical in my recollection, I have two distinct memories of 
that party. And one of them is as I was eating a sandwich next 
to Mr. Canseco's pool by myself, I noticed a young child 
running toward the pool. And as I looked up, there was a woman 
chasing after the young child and she was wearing a peach 
bikini with green in it with board shorts and she was a thin 
probably mid to late 30's woman, and she grabbed the kid, the 
child, who was about 2 years old at the time, if not younger.
    And I later found out from one of the ball players, I said 
who's that? And they said, it's Roger's nanny. And I had turned 
around to see Roger and Debbie Clemens talking in the middle 
and then they went inside the house. I did believe I said hello 
to Roger, and I know Roger showed up a little bit later, and I 
also have--
    Mr. Davis of Virginia. How do you know he showed up later, 
because you saw him there?
    Mr. McNamee. I saw him at the house of Jose Canseco's. And 
I believe--we've had numerous conversations about how great 
that party would have been if it wasn't for the fact that we 
had a game that night and all we had was sandwiches and ice tea 
because Jose had a really nice house.
    Mr. Davis of Virginia. Mr. Clemens, your golf receipt that 
day is time stamped 8:58. Do you recall at what time you teed 
off?
    Mr. Clemens. Well, the time I would get out of the pro shop 
and get ready to tee off, it had been a good 30, 40 minutes 
probably. The time was 8--again, I'm sorry?
    Mr. Davis of Virginia. 8:58. So it would have been after 9 
you would have teed off. How long does it generally take to you 
play a round?
    Mr. Clemens. Maybe 4, every bit of 4 hours, 4-1/2.
    Mr. Davis of Virginia. How far was the golf course from Mr. 
Canseco's house, any idea?
    Mr. Clemens. I don't. I would think it was 20 minutes at 
best.
    Mr. Davis of Virginia. Did you eat lunch after your round 
of golf that day, do you remember?
    Mr. Clemens. I don't remember.
    Mr. Davis of Virginia. You pitched 7 innings the night 
before. What would have been your pattern of practice on the 
day after pitching? What time do you ordinarily show up at the 
ballpark the day after you started?
    Mr. Clemens. Well the day after--well, obviously the day 
after I enjoy playing golf. I usually enjoy playing golf the 
day before I pitch and the day after when I can. I like--you 
know obviously getting outdoors anytime I can, especially when 
we're on the road, I do not like hanging in the hotel room.
    Mr. Davis of Virginia. The night before the barbecue, the 
Blue Jays lost 4-3 in 17 innings. Does that ring a bell? Does 
that----
    Mr. Clemens. It does. And you said earlier I threw that 
game. So obviously there was a no decision involved I would 
imagine.
    Mr. Davis of Virginia. Were your wife and children in Miami 
for this series?
    Mr. Clemens. Yes.
    Mr. Davis of Virginia. You think you might have gone on--
onto the barbecue after the golf?
    Mr. Clemens. I don't remember his party.
    Mr. Davis of Virginia. OK. Is it possible your wife and 
some of your kids could have gone without you?
    Mr. Clemens. I believe my wife Debbie was in my golf 
foursome and the kids sure could have been. I don't remember 
that they were----
    Mr. Davis of Virginia. But you don't remember being there 
at all?
    Mr. Clemens. I don't.
    Mr. Davis of Virginia. The reason I ask this is because 
this was brought up and this was the beginning I think of--as I 
look at the testimony of your starting to ask about these 
questions right at that time or right thereafter.
    We've also spoken to a number of medical professionals 
inside and outside of baseball. This is about the vitamin B-12 
shots. And I know a lot of players seem to take it. We had a 
hearing on this yesterday. Most of them say B-12 is not 
beneficial unless you have a dire medical need for it, like if 
you had anemia. What's your experience been through injecting 
B-12?
    Mr. Clemens. I was encouraged to take B-12 all the way back 
since 1988. My mother encouraged me to take B-12. I think it's 
beneficial. I take vitamins every other day. I take B-12 in the 
tablet form. I take vitamin E, I take a multivitamin. Again, 
just about every other day. And I think it was most common if 
anybody was sick on the team or if your energy felt run down 
and so on and so forth. I don't know the technical benefits for 
it. But I've always assumed that it was a good thing to have.
    Mr. Davis of Virginia. Did you inject yourself with B-12 or 
would Mr. McNamee ever inject you or do you remember?
    Mr. Clemens. I have never injected myself. Mr. McNamee's 
given me three shots--when we were traveling, three shots of B-
12, two in New York.
    Mr. Davis of Virginia. OK. Mr. McNamee, do you concur with 
that?
    Mr. McNamee. The first time I heard of Roger taking B-12 
was on 60 Minutes. I've never given Roger Clemens B-12. And had 
never heard of B-12 really before.
    Mr. Davis of Virginia. Is my time up? OK.
    Chairman Waxman. Thank you, Mr. Davis. The Chair recognizes 
Mr. Tierney for 10 minutes.
    Mr. Tierney. Thank you, Mr. Chairman. Mr. Chairman, my 
questions I guess are going to be a little bit about who's 
telling the truth here as well. I have questions for both Mr. 
McNamee and Mr. Clemens about whether or not they've been 
telling the truth to us or to investigators. Mr. McNamee, let 
me start with you if we could. We know that in some previous 
investigations you haven't always been honest. You were 
involved in a criminal investigation in Florida in 2001, you 
told committee investigators that you provided the police in 
that investigation with statements that were not truthful. Mr. 
McNamee, were you truthful to government investigators in 
Florida in 2001?
    Mr. McNamee. No, sir.
    Mr. Tierney. You also told the committee that you withheld 
information from Federal prosecutors who were investigating the 
steroid use by professional baseball players. You didn't give 
prosecutors the whole truth about the number of injections that 
you gave Mr. Knoblauch and Mr. Clemens and you now say that 
there were more injections than you previously admitted to. And 
you withheld physical evidence, syringes, needles and gauze 
pads that you claimed you used to inject Mr. Clemens in 2001. 
Mr. McNamee were you truthful to Federal investigators last 
year?
    Mr. McNamee. No, sir.
    Mr. Tierney. Why did you mislead the investigators?
    Mr. McNamee. The part about the injections were part 
recollection and part withholding, trying not to hurt these 
players. And about the evidence. Once again, I really felt bad 
for the situation that I was in. I felt bad for having to be 
confronted to--with the Federal investigators and Senator 
Mitchell. But everything I told them about their use was true.
    Mr. Tierney. Well, I think it's important that we establish 
that on the record. You've admitted credibility problems in the 
past. And I think we have to keep that in mind as we move 
forward. But Mr. Clemens, let me turn to you if I might.
    Mr. Clemens. Yes.
    Mr. Tierney. I know you've been visiting Members of 
Congress recently and the Members seem to be impressed by your 
apparent credibility in person. But we know that some of the 
things you told us with great earnestness appear to not be 
accurate. And this raises questions about your own credibility. 
Let me read to you from page 66 of your deposition.
    Mr. Clemens. OK.
    Mr. Tierney. You were asked, did you ever speak with Mr. 
McNamee about human growth hormone? And you answered, I have 
not. Then you were asked, never asked him any questions about 
it? You answered, never asked him. You were then asked the 
question a third time, the question was, do you recall a 
specific instance where you did speak with Mr. McNamee about 
HGH? And your answer was, I don't remember. The only thing I 
remember about the topic was, there was an article or show 
about some elderly man that had a curve in the spine and then 
later on in the show he was able to play golf. And that's 
basically the conversation we had. When you gave those answers 
in your deposition, you seemed earnest, you seemed credible, 
according to those who were questioning you, much like you do 
today. Were your answers truthful?
    Mr. Clemens. Yes, they were.
    Mr. Tierney. With respect to you, we know that you didn't 
give the committee the truthful answers much later in your 
deposition then because you were asked whether any members of 
your family had taken HGH. In answering that question later in 
your deposition, you told the committee staff about two 
specific conversations that you had with Mr. McNamee about HGH. 
So I want to walk you through that testimony about the time 
your wife was injected with HGH by Mr. McNamee.
    At the outset it doesn't appear to be any dispute between 
you and Mr. McNamee about whether your wife Debbie Clemens was 
injected with HGH by Mr. McNamee in 2003. You both told the 
committee about this in your depositions, but you gave very 
different accounts of what actually happened.
    Mr. Clemens, according to your account, Mr. McNamee 
injected your wife in your bedroom without your knowledge. 
Here's what you said on page 174 of your deposition. I was not 
present at the time. I found out later in the evening, and the 
reason I had found out is she was telling me that something was 
going wrong with her circulation and this concerned me. You 
also said on page 176 of your deposition, the next day, she 
still was not feeling comfortable, something about her 
circulation. You told us you had a very strong reaction. You 
told us you were so concerned about what happened that you 
searched the luggage of Mr. McNamee that he had stored at your 
house, looking for other evidence of drugs. Do I have that 
right so far.
    Mr. Clemens. That is correct, sir, yes.
    Mr. Tierney. You then told us about two specific 
conversations you had with Mr. McNamee with about your wife and 
HGH. The first happened that night when you called him on the 
telephone. So let me read that part of the transcript to you. 
That is on page 174. You said we had a pretty heated discussion 
about it, that I don't know enough about it and that we don't 
know enough about it.
    You then told the committee, I also called him the next day 
because she still was not feeling comfortable, something about 
her circulation. I wasn't happy about it. I said, we don't know 
anything about this. He says that it's legal. There's no law 
against it. Mr. Clemens, you told the committee that you had no 
conversations with Mr. McNamee about HGH. You did that three 
times in the early part of your deposition. But your own 
statements now showed that you had two specific and memorable 
conversations with him about HGH.
    So when you were asked on three specific occasions why 
didn't you tell the committee about those conversations when 
you were asked, did you ever speak with Mr. McNamee about human 
growth hormone.
    Mr. Clemens. Prior to he injecting my wife, Mr. 
Congressman, we had no conversation about HGH in any substance 
or any detail whatsoever. And definitely, again, I'm going to 
read a statement from my wife here in just a minute. But we 
never discussed HGH in detail. I go back to, again, Andy 
Pettitte. If I was a part of using HGH or a user of HGH, Brian 
McNamee would have come and told me that Andy was a part of 
this. I would--I'm certain, again, I would have known about all 
this.
    Mr. Tierney. Well, help us out, Mr. Clemens, if I might. 
Later in your deposition is when you talked about your wife. 
The earlier part of your deposition three times, very clear and 
unambiguous questions and answers, did you ever speak with Mr. 
McNamee about human growth hormone? I have not. The question, 
did you ever. Second time you said you never asked him about 
any questions? You answered, never asked him. The third time, 
do you recall a specific instance where you did speak with Mr. 
McNamee about HGH? You said I don't remember. Then later on you 
go to recall two very specific conversations. How do you 
reconcile three times saying you didn't and then later when 
somebody specifically finally asks you about your wife you have 
a recollection of two very distinct and memorable 
conversations?
    Mr. Clemens. Mr. Congressman, again, I never had any 
detailed discussions with Brian McNamee about HGH.
    Mr. Tierney. Well, didn't you call him on the phone after 
your wife had told you that she had taken HGH?
    Mr. Clemens. That very much is detailed conversation.
    Mr. Tierney. It certainly is.
    Mr. Clemens. It sure is. And if I may----
    Mr. Tierney. Well, I just want to know if you can reconcile 
that. How can you say three times that you never did speak to 
him about it, and then later on acknowledge that you had, in 
fact, a pretty heated conversation you said.
    Mr. Clemens. Very heated conversation about it. And again, 
prior to that, we had not had discussions about HGH.
    Mr. Tierney. But Mr. Clemens, come on, the questions early 
in the morning hadn't been prior to your wife. The questions 
were had you ever. You can see where that leaves us with some 
credibility issues here. You have three times said never and 
then only when somebody really presses you on a specific 
instance you have a recollection of two memorable 
conversations.
    Mr. Clemens. Again, prior to Mr. Congressman, we had no 
detailed discussion about HGH.
    Mr. Tierney. Prior to what?
    Mr. Clemens. During my testimony with the committee. And I 
believe the committee ran down when they were asking me the 
question about front office people, other employees and that's 
when they said family on the question.
    Mr. Tierney. That's all helpful, but these questions I'm 
reading to you right from the transcript. What you are 
referring to all happened later. The three distinct questions 
were specifically about whether you ever spoke with Mr. 
McNamee. And three times you said never. Later somebody brought 
up the fact about your wife. And that's the inconsistency that 
we have. Let me go on a little bit. It's not the only area 
where we've got some question. I will read to you another 
excerpt from your deposition.
    You were asked--it's on page 67, if you want. Did you do 
any research on your own about human growth hormone? And you 
answered no, I haven't. I've never researched it. I couldn't 
tell you the first thing about it. It seems a little difficult 
to believe. You testified that your wife was injected by Mr. 
McNamee without your knowledge of HGH. She didn't feel well and 
started to have circulation problems. You felt so strongly 
about what Mr. McNamee had done that you searched his luggage 
to make sure there were no drugs in the house. What did your 
doctor say about this?
    Mr. Clemens. I talked to Deborah about calling our doctor, 
and she said she was just feeling very uncomfortable and in her 
words, wigged out about it. And not only did the reason I 
searched his luggage for the fact that he would always leave 
his luggage behind and have us mail out his luggage and leave 
without his luggage at my house, no differently than when I 
spoke to him about bringing alcohol onto my property. I had 
young kids. That is the conversation that was about. I was 
comfortable with my wife's reaction.
    Mr. Tierney. She told you she had circulation problems?
    Mr. Clemens. She felt that she was having circulation 
problems, yes.
    Mr. Tierney. But you never called a doctor. Certainly it 
seems, with most reasonable people I think if that were the 
case, your wife told you she was having a reaction, circulation 
problems and particularly if it was administered by a fitness 
trainer without your knowledge that you would have called a 
doctor to find out what the consequences were. You never did 
that?
    Mr. Clemens. We did not and I did talk to Deb about that, 
if we should call our doctor.
    Mr. Tierney. What steps did you take to learn about the 
effects of HGH after you learned that your wife had taken the 
injection?
    Mr. Clemens. I didn't take a lot of steps, Mr. Congressman. 
To be--in the last 2 months since this has been going on, I've 
learned more about HGH than I--than I ever thought. I still 
don't know enough about it. I--you know I've heard--I've seen 
things on TV that these guys talk about how it helps them, 
actors and different things of that nature. I don't know 
anything about it.
    Mr. Tierney. Well, I guess--that's where the question comes 
in, if I might, Mr. Chairman. If you want us to believe that 
Mr. McNamee injected your wife without your knowledge, that she 
started suffering serious side effects of the drug, that you 
were upset enough to call Mr. McNamee and then search his 
luggage. But despite all that you never made inquiry of a 
doctor and you never even looked up to see what the effects 
might be, is that right?
    Mr. Clemens. Mr. Congressman, I don't believe I ever said 
serious effects. She said she was having itching and she had 
some type of circulation problem that she was feeling.
    Chairman Waxman. The gentleman's time has expired. The 
chair yields to Mr. Davis 10 minutes to control.
    Mr. Burton. Thank you, Mr. Chairman. The tapes of the 
Toronto Blue Jays-Florida Marlins game has several comments on 
it about Mr. Clemens not being at that Canseco party. And Mr. 
Canseco provided a sworn affidavit, stating that Clemens did 
not attend that party. And you indicated that he came to the 
party late. Now how do you square that with what was on 
television on the radio and what the sworn affidavit of 
Canseco's was? I mean there's some inconsistency there.
    Mr. McNamee. My recollection is not inconsistent. What they 
said they said. I recall Roger Clemens being at that party.
    Mr. Burton. Why did you keep those gauze pads?
    Mr. McNamee. I'm sorry?
    Mr. Burton. Why did you keep the needles and the gauze 
pads?
    Mr. McNamee. Like had I mentioned in my opening statement--
--
    Mr. Burton. I want to read to you what you said in the 
sworn testimony. OK? And this was 2000, 2001 that these pads 
were accumulated, right?
    Mr. McNamee. 2001, 2002, sir.
    Mr. Burton. OK. 2001 2002. And you worked for Clemens up 
until what, 2006?
    Mr. McNamee. 2007.
    Mr. Burton. 2007. So you stayed with him 5 years after you 
kept these materials, right?
    Mr. McNamee. Yes, sir.
    Mr. Burton. I want to read this to you. It says, I kept 
them well because throughout my time with Roger Clemens, it was 
there always somewhat in the back of my mind that I distrusted 
him to a degree. And my gut feeling and the fact that I was an 
ex-cop, I just felt that--and I think there were bits and 
pieces coming out in the paper. Why in the world would you work 
for somebody that you thought was unethical and would lie? And 
why would you keep this information for 5 years if you--if he 
was your friend and you thought that he was to be distrusted?
    Mr. McNamee. He was my employer.
    Mr. Burton. Do you do this to all your employers? I mean, 
is this the kind of employer he was, to keep gauze pads and 
needles and everything for 5 years and go on and keep working 
for him?
    Mr. McNamee. It wasn't something I thought about. It was 
just there and it kept coming up. It was in the basement. And 
as I--as I thought about it, more things came up. And as you 
saw in 2000, I wrote an article in the New York Times regarding 
the more stuff that kept coming out about steroid use in 
baseball. So for the fact that I would--I never felt good about 
what I was doing, the fact that it was illegal, I figured 
because I've done things before for other people and have 
gotten hurt by it, I might as well hold onto these things. It 
wasn't something I dwelled on.
    Mr. Burton. How many other people did you treat that you 
kept their gauze pads and needles?
    Mr. McNamee. Possibly one other.
    Mr. Burton. And who was that?
    Mr. McNamee. Chuck Knoblauch.
    Mr. Burton. Do you still have them?
    Mr. McNamee. I believe it's in the possession of the 
Federal Government.
    Mr. Burton. Why did you not give those to the Mitchell 
Report committee immediately when you were contacted by them?
    Mr. McNamee. Because I felt horrible about being in the 
position that I was in.
    Mr. Burton. Now let me get--I want to make sure I got this 
straight. Your friend, Roger Clemens, you allegedly gave him 
these shots. You kept the pads and the needles for 5 years and 
went on and kept working for him because he was your employer. 
And then you said you felt bad, you felt bad about proposing 
and giving these to the Mitchell Committee when you first 
started talking to them?
    Mr. McNamee. Yes, sir.
    Mr. Burton. Gee whiz, are you kidding me?
    Mr. McNamee. No, sir.
    Mr. Burton. My goodness. As I understand from my colleague 
here, you told the New York Times that you had no direct proof 
at the beginning of this investigation, right?
    Mr. McNamee. I'm sorry?
    Mr. Burton. You told the New York Times that you had no 
direct evidence, like the gauze and needles at the beginning of 
all this?
    Mr. McNamee. I told the--I didn't talk to the New York 
Times. I told the Federal investigators and the Mitchell people 
that I had no direct evidence as far as physical evidence.
    Mr. Burton. On January 5th--so you didn't tell the truth 
then initially to them?
    Mr. McNamee. No, sir.
    Mr. Burton. You lied?
    Mr. McNamee. Yes, sir.
    Mr. Burton. There's several things here that really bother 
me. First of all, you lied about him being at Canseco. Canseco 
said he wasn't there in a sworn affidavit. On the radio, on 
television they said he wasn't there. And yet you still 
maintain that he did come there. And now you admit you lied 
about this. Are you lying about anything else? I mean why don't 
you tell us?
    Mr. McNamee. No, sir. I'm not lying about Jose Canseco's 
house.
    Mr. Burton. So you just lie when it's convenient for you?
    Mr. McNamee. No, sir.
    Mr. Burton. No. Can you pull the microphone a little bit 
closer, please?
    Mr. Clemens, in your defamation lawsuit against McNamee, it 
says that according to McNamee, he originally made his 
allegations of Federal authorities after being threatened with 
criminal prosecution if he did not implicate you. That's an 
allegation of coercion. Why do you consider McNamee trustworthy 
on this point? And how do you have this kind of information 
that he might have been coerced into his testimony?
    Mr. Clemens. I just--what I've heard on different occasions 
about what he said and what he hasn't said, there was a--a tape 
that I heard. The timeline would have been 4 or 5 days before 
the report came out. It was a taped conversation from Jim 
Murray. And that's basically where I heard the allegations that 
were being said by Brian McNamee about myself and Andy Pettitte 
also, which again, that's the first time that I heard Andy 
Pettitte's name. And--about using HGH, I said absolutely no 
way. Of course, now that I've learned that Andy has done it, I 
was shocked.
    Mr. Burton. Mr. McNamee, I'm going to read to you a series 
of prior statements attributed to you regarding steroid use or 
the lack thereof by Mr. Clemens or Mr. Pettitte. I never gave 
Clemens or Pettitte steroids. They never asked me for steroids. 
The only thing they asked me for were vitamins. That was 
William, Sherman and TJ Quinn, Andy Totes Baggage to Bronx, New 
York Daily News December 10, 2006. Did you say that?
    Mr. McNamee. Yes, I did.
    Mr. Burton. Is that a lie?
    Mr. McNamee. Yes, it is.
    Mr. Burton. Oh, it's another one. OK. I told Federal 
investigators twice that Roger and Andy had nothing to do with 
it. Is that right?
    Mr. McNamee. Yes, sir.
    Mr. Burton. Is that a lie?
    Mr. McNamee. Yes, sir.
    Mr. Burton. OK. I said, Roger and Andy, you know what, you 
have to talk to them. I don't know anything about that. I don't 
know anything about that. Transcript of interview by Jim 
Yarborough and Billy Belk. Is that correct?
    Mr. McNamee. I'm sorry can you repeat that please?
    Mr. Burton. I said, Roger and Andy, you know what, you have 
to talk to them. I don't know anything about that. I don't know 
anything about that. That's a transcript of the interview by 
Jim Yarborough and Billy Belk and Brian McNamee, December 12, 
2007. Is that correct?
    Mr. McNamee. I'm not sure. What are you referring to? What 
am I saying I don't know anything about, sir?
    Mr. Burton. Well, let's pass on that because--oh, this is a 
quote she told the investigators. We'll pass on that.
    Mr. McNamee, I'm going to read you a series of statements 
attributed to you regarding your involvement with steroids. ``I 
don't have any dealings with steroids or amphetamines. I don't 
buy it, sell it, condone it or recommend it. I don't make money 
from it. It's not part of my livelihood and not part of my 
business.'' Did you say that?
    Mr. McNamee. Yep.
    Mr. Burton. That's a lie, right?
    Mr. McNamee. Partial.
    Mr. Burton. Partial?
    Mr. McNamee. Partial lie.
    Mr. Burton. McNamee pleads guilty to knowing the ins and 
outs of steroids but says I have no involvement as far as 
supplying it, getting it, selling it, telling them to use it. 
John Hayman, the sixth man. Clemens' trainer denies links to 
Grimsley. Is that a lie?
    Mr. McNamee. Yes, sir.
    Mr. Burton. You know, I'm not going to read any more of 
this. This is really disgusting. You're here as a sworn 
witness. You're here to tell the truth. You're here under oath. 
And yet we have lie after lie after lie after lie of where 
you--you've told this committee and the people of this country 
that Roger Clemens did things, and I don't know what to 
believe. I know one thing I don't believe and that's you. The 
other thing I want to say is that--and I want to say this about 
this whole investigation. You know, Donovan, who was the 
Secretary of Labor, was accused of wrongdoing and went to 
trial. And he was found innocent within about 20 minutes. And 
he came out and said, how do I get my reputation back?
    You know, Roger Clemens, unless it's proven that he used 
steroids--and so far I haven't seen anything like it, if he 
did, he ought to be held accountable. But Roger Clemens is a 
baseball--he's a titan in baseball. And you and with all these 
lies, if they're not true, are destroying him and his 
reputation. Now how does he get his reputation back if this is 
not true? And how can we believe you because you've lied and 
lied and lied and lied?
    And the thing I want to say is that we have this penchant 
in the country of trial by media. I mean, I understand the 
media has a right to come to these things and to get all the 
information that they can. But until--in this country, until a 
man is proven guilty, he's innocent. And this kind of a hearing 
and this kind of a circus that I call it really bothers me. If 
he's done something wrong he ought to be indicted, he ought to 
be prosecuted and he ought to be punished for it. But I don't 
see any evidence of that so far. And with that, I'll stop.
    Chairman Waxman. The gentleman's time has expired. The 
Chair recognizes the gentleman from Massachusetts for 10 
minutes.
    Mr. Lynch. Thank you, Mr. Chairman and the ranking member. 
Since the testimony is so contradictory in this case, I'd like 
to at least refer to some of the physical evidence that we have 
before the committee. Mr. Clemens, earlier in the investigation 
you provided the committee with a transcript of a secretly 
taped interview by--conducted by two of your investigators. The 
interview was of Brian--with Brian McNamee and it took place at 
Mr. McNamee's home on December 12, 2007. Is that correct?
    Mr. Clemens. That's correct.
    Mr. Lynch. OK. During the interview, Mr. McNamee, you told 
investigators that you had injected Mr. Clemens with Windstrol, 
a steroid, in 1998. And your exact testimony is that--well, 
actually, that he probably developed an abscess on his buttocks 
as a result of the injection. And you said, ``it was probably 
my fault because Windstrol, I learned later, that you're not 
supposed to inject it quickly. You're supposed to do it very 
slowly. That way it dispenses slowly. If you do it quickly, 
then it settles in a pool of fat and that is how an abscess is 
formed and that's what happened. So it was probably my fault.'' 
Now, being under oath today, is that basically correct as far 
as your testimony goes regarding that incident?
    Mr. McNamee. Yes, sir.
    Mr. Lynch. OK. In pursuit of further information on this, 
we and the committee asked for medical records during this time 
period. And a medical record from July 28, 1998 was provided by 
the Toronto Blue Jays at the time that said that there was a 
palpable mass ``on the right buttock of Mr. Clemens.'' On 
another record, it also noticed a similar mass on the left 
buttock. And the July 28th record said also that Roger received 
a B-12 injection approximately 7 to 10 days ago into his right 
buttock from Dr. Taylor at the Skydome.
    So we brought in Dr. Taylor and asked him some questions 
about this. He said that he did give a B-12 shot to Mr. Clemens 
but he could not remember exactly when. We also asked Mr. 
Clemens about it. And in his previous testimony he said, it 
says right here, Dr. Taylor had given me a B-12 shot so that 
surely could have happened. Mr. Clemens, you also told us that 
the palpable mass could have had other causes. For example, you 
said that the muscle strain--that a muscle strain, which you 
called a strained glute, could have led to the problem. The 
medical records indicated that after the July 28th diagnosis, 
Mr. Clemens was sent to have an MRI. And this MRI was not 
provided in the original set of documents that the committee 
received.
    And in fact, it was not easy for the committee to receive--
to obtain the MRI from counsel for Mr. Clemens. And repeated 
requests were made for this MRI. And we only received the MRI 
report on Monday after the committee informed counsel for Mr. 
Clemens that the committee would consider stronger options if 
the document were not provided to the committee voluntarily. 
The MRI report provides important additional information about 
the injury to Mr. Clemens and the palpable mass on his 
buttocks. According to the report, the injury was ``likely 
related to the patient's prior attempted intramuscular 
injections.'' I want to repeat that. It says ``it was likely 
related to the patient's prior attempted intramuscular 
injections.''
    And to get more insight into the significance of this MRI, 
we actually stripped the name, we redacted the report from the 
records and provided them to the chief of muscular--excuse me, 
musculoskeletal radiology at the Armed Forces Institute of 
Pathology, Dr. Mark Murphy, he is one of the country's leading 
experts on MRI. And we asked him to review the records and give 
us his opinion. He issued a report, which I'd like to make part 
of the hearing record. The MRI report----
    Chairman Waxman. Without objection, so ordered.
    [The information referred to follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Lynch. The MRI report we received said the injury--and 
this is a quote from Dr. Murphy. It says it was likely related 
to the patient's prior attempted intramuscular injections. And 
Mr.--excuse me. That Mr. Murphy agreed with that--Dr. Murphy 
agreed with that diagnosis. He said that the MRI showed that 
the muscles of the buttocks showed no strain or trauma. So he 
concluded that the injury was not a strained muscle. Next he 
gave his opinion about whether the injury was more likely 
caused by B-12, as you've asserted, or steroids, as Mr. McNamee 
claims. And to be fair, Dr. Murphy stated that he could not be 
definitive without seeing the films and he cautioned that the 
patient's reaction can vary. He said it wasn't a true abscess. 
But he did say this, and this is a quote. It is my opinion that 
the history and the MRI imaging descriptions are more 
compatible with a Windstrol injection, as the inflammatory 
component is prominent by report.
    Mr. Breuer. Mr. Chairman, I know it's highly irregular. May 
I as counsel to Roger Clemens please address the point of the 
Congressman for one moment, please?
    Chairman Waxman. The rules of the committee provide that 
counsel may advise their clients but not speak directly to the 
hearing itself.
    Mr. Breuer. Well, Mr. Chairman----
    Mr. Lynch. Reclaiming my time, Mr. Chairman.
    Mr. Breuer. Mr. Chairman, I would request that I be 
permitted----
    Chairman Waxman. I'm sorry. The rules don't provide it. 
Please talk to your client and have him answer any questions 
that are outstanding.
    Mr. Lynch. Thank you, Mr. Chairman. Reclaiming my time if I 
may. During our investigation we also asked Dr. Taylor about 
whether he thought the B-12 shots that he gave to Mr. Clemens 
could have caused the mass on his buttocks. He told us that 
this was unlikely. He stated that he had given close to 1,000 
B-12 shots in his medical career and that he had never seen a 
complication like the one presented with Mr. Clemens. The head 
trainer, we also questioned Tommy Craig, the head trainer. He 
also told--he had never seen a side effect like the one 
exhibited from Mr. Clemens from a B-12 shot in 30 years as a 
trainer.
    As well we asked the assistant trainer, Scott Shannon, in a 
career of almost 20 years he said that he had never seen a B-12 
shot cause that kind of reaction. Based on the MRI results, it 
also appears definitive that the mass was not caused by a 
strained glute or other muscle strain. In addition, we have Mr. 
Canseco's testimony that on numerous occasions, he had 
conversations with Mr. Clemens regarding cycling and stacking 
of steroids as well.
    Given the--given the physical testimony--the physical 
evidence that we've had there that seems to be consistent with 
much of what Mr. McNamee is saying, Mr. Clemens, how am I 
supposed to receive this--this testimony? As someone who's 
simply looking for the truth and looking for it to be supported 
by the physical evidence, how--this is not--this is not 
supportive of your claim. Much of this is supportive of Mr. 
McNamee's assertions. And I just want, as someone who went 
through all of this, I want you to explain to me the import of 
this evidence. How can this all be wrong? Help me here.
    Mr. Davis of Virginia. Mr. Chairman, could I just ask a 
second, he's inserted into the record a report by Mr. Murphy. 
We ask unanimous consent to insert into the record a report by 
Dr. Burt O'Malley, professor and chair of molecular and 
cellular biology, who comes to a much different conclusion.
    Chairman Waxman. We will take whatever you want into the 
record. But this is Mr. Lynch's time.
    Mr. Davis of Virginia. OK.
    Mr. Clemens. Congressman Lynch, if I may, from what I 
understand, we provided everything that we could possibly 
provide to the staff. We've fully cooperated with everything 
that was asked of us. I know obviously by looking at the 
medical records, I got a B-12 shot and it obviously gave me 
some discomfort. I hate to get on Dr. Taylor who gave the shot, 
but if he gave me a bad shot, he gave me a bad shot. I don't 
know how to explain that. But looking at my medical records and 
fully cooperating, you know anytime I need an MRI--I've had 
many MRIs on my body. So that's--I have--again, I don't have 
any idea. I don't know who the gentleman is that you're 
expressing this today. But all's I can tell you is what I know 
by my medical reports. We've had a Dr. O'Malley review 
everything and he concludes there was no steroids.
    So I don't--I'm doing every due diligent thing that I can 
possibly think of. And given the staff everything I could 
possibly think of to look wherever they need to look about this 
subject. So I--I have not heard that we weren't cooperating on 
giving you everything that you could possibly need to look into 
this in any way shape or form.
    Mr. Lynch. Well, and again, there was difficulty--some of 
the information came over quite readily. It was difficult to 
obtain others, especially this MRI report. But let's get back 
to the simple fact that----
    Chairman Waxman. You'll have to conclude. Your time has 
expired.
    Mr. Lynch. This is not the report of some unknown physician 
that we're contesting here. This is the reports of Dr. Taylor, 
this is the reports of the trainer, Mr. Shannon and others who 
have said that in over--Scott Shannon, Dr. Ron Taylor and 
Melvin Thomas Craig, these are these are people who are very 
familiar with this, probably 60 years of experience here in 
giving B-12 shots.
    Chairman Waxman. The gentleman's time has expired. Mr. 
Davis.
    Mr. Davis of Virginia. Thank you. I ask unanimous consent 
that a commission study look at the same MRI records done by 
Burt W. O'Malley M.D. professor and chair of molecular and 
cellular biology at Baylor University be admitted into the 
record.
    Chairman Waxman. Was this given to you by Mr. Clemens's----
    Mr. Davis of Virginia. It was. They had this done.
    Chairman Waxman. Without objection the request would be----
    [The information referred to follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Davis of Virginia. I mean, practically, I think 
requesting Mr. Clemens to answer a medical technical question 
like this isn't fair on a report he's never seen before. This 
was just made available to our side this morning.
    Chairman Waxman. The gentleman from Virginia is recognized.
    Mr. Davis of Virginia. I would also note that Alan Gross, 
who was the doctor who ordered the MRI and actually is the only 
doctor here who viewed Mr. Clemens's injury himself gave a 
deposition to the committee that will be released this 
afternoon under oath and he came to a different conclusion. And 
he didn't even see an abscess at that point. The only reason he 
ordered an MRI was because this was Roger Clemens, this was the 
franchise. And if you see a bruise on your star player, you are 
going to get an MRI and you are not taking any chances.
    And there was zero evidence at that point or even suspicion 
that drugs or anything had caused this. And that deposition as 
we said will be released this afternoon. So listen, I will just 
say this was literally a new definition of lynching with the 
last question that came in, asking Mr. Clemens a technical 
medical question like this on a report that he had never had 
the opportunity to see before. He is not a doctor.
    Chairman Waxman. Evidently his lawyers were able to get a 
report for you to give for the record on that issue. So you are 
not completely taken by surprise.
    Mr. Davis of Virginia. That was an exhibit that they had 
before from this committee, Mr. Waxman, for weeks.
    Mr. Clemens. Mr. Chairman, out of respect, I believe the 
committee got the report also. I'm sure I've given----
    Mr. Davis of Virginia. This has been part of your 
submissions. There's no surprises here. You didn't give this to 
us special. We just pulled it out of the records because I 
don't really think this tells anybody--none of these doctors 
physically looked at you. They're looking at an MRI and taking 
a different view. And I'm just saying the doctor who looked at 
this originally came to a much different conclusion. People can 
judge whatever they want. But I think what's fair is fair on 
this.
    Mr. McNamee, let me just return to you since--the other 
side seems to be focused on Mr. Clemens. At your deposition, 
you testified that one of your alleged injections of Windstrol 
went wrong, is that correct?
    Mr. McNamee. I'm not saying one of them. I'm just relating 
that it--possibly I did it too fast, that it could have led to 
this abscess. Which one I'm not sure.
    Mr. Davis of Virginia. I think it was the one in the Tampa 
Bay Clubhouse. Does that ring a bell?
    Mr. McNamee. I know I mentioned that. But I was just--I 
didn't know when that trip took place.
    Mr. Davis of Virginia. I'm just trying to get into this 
abscess question. That's not as important. Now when you said 
you inject Windstrol too quickly, one of the risks is having an 
abscess formed is that correct?
    Mr. McNamee. That's what I believe.
    Mr. Davis of Virginia. And you said you thought that Mr. 
Clemens developed an abscess?
    Mr. McNamee. I was told by the head trainer that he 
developed an abscess.
    Mr. Davis of Virginia. You said that the head trainer Tommy 
Craig told you that?
    Mr. McNamee. Yes, sir.
    Mr. Davis of Virginia. You said, Clemens came to you around 
this time and said something along the lines of get rid of this 
stuff, is that correct?
    Mr. McNamee. Yes, sir. A little bit after his treatment of 
the abscess he had come to me and said that.
    Mr. Davis of Virginia. And you interpreted to get rid of 
this stuff, meaning he did not want to use Windstrol?
    Mr. McNamee. He threw it in my locker and he said get rid 
of this stuff. So yes.
    Mr. Davis of Virginia. You said there was a good portion 
left of the season when he stopped using the Windstrol.
    Mr. McNamee. That was my recollection.
    Mr. Davis of Virginia. Now if you go back and look at the 
Blue Jays schedule for 1998, the team was in Tampa where in 
your testimony, you noted that it was Tampa. Your testimony 
will be released today. The team was in Tampa in the middle of 
June and toward the end of September. As you testified, this 
botched injection supposedly occurred at the end of July or in 
the beginning of August. Can you reconcile this at this point 
as you look back on the schedule?
    Mr. McNamee. Sir, the botched injection is just something 
that I felt bad about that I might have done. I'm not exactly 
sure it was a botched injection. That's what I had told the 
people. But my recollection is----
    Mr. Davis of Virginia. Your deposition said this happened 
in the Tampa Clubhouse, and I'm just saying the only times they 
were in Tampa were in the middle of June and the end of 
September. And as you testified before us, it was at the end of 
July or the beginning of August. And I'm just saying, could 
your memory be faulty on this?
    Mr. McNamee. Very much so.
    Mr. Davis of Virginia. Another problem is that the head 
trainer, Tommy Craig, recalls nothing about any abscess in our 
conversations with him. Is it unusual that Tommy Craig would 
fail to recollect an injury like this to the star pitcher at 
the time?
    Mr. McNamee. Tommy Craig was a trainer for a very long 
time, and we're talking about 10 years ago. So----
    Mr. Davis of Virginia. But you seem to have a very vivid 
memory of and no one else seems to.
    Mr. McNamee. That's why I told--in my deposition, I felt 
bad because I had assumed it was my fault.
    Mr. Davis of Virginia. If Craig treated an injury to 
Clemens's buttocks, wouldn't that be something he would recall? 
This was the star.
    Mr. McNamee. You'd have to ask Tommy Craig.
    Mr. Davis of Virginia. Now he wasn't the only member of the 
medical team that failed to recall the injury to Mr. Clemens's 
buttocks. Assistant trainer Scott Shannon, when asked, didn't 
remember it, team doctor Ron Taylor didn't remember it, team 
orthopedist Alan Gross who ordered the MRI, didn't remember.
    In fact, when--in his testimony, he came to a much 
different conclusion than these-after-the-fact people who just 
looked at the MRI. If Roger Clemens, the most famous pitcher in 
baseball and really the franchise for the team at that point, 
at least on their pitching side, had developed an injury known 
to be the type of injury known to be associated with steroids, 
wouldn't you expect that someone would have recollected it 
along the way--except for you, you're the only one who seems to 
recollect.
    Mr. McNamee. Well, none of those people were injecting 
Roger Clemens with illegal steroids in his butt.
    Mr. Davis of Virginia. No. And whether you did or not I 
think remains an open question. But the question I'm asking is, 
we're talking here about an injury to him that was a result of 
that. And they don't--they did see an injury and they ordered 
an MRI as a result of that. But none of the alarms went off.
    Now, the medical records showed that Clemens had some type 
of injury to his buttocks at the end of July. There's no 
question about that. But according to the MRI, it was not an 
abscess. It was simply described as a palpable mass. In 
laymen's terms, this could have simply been a bruise. Are you 
certain that Tommy Craig told you that Clemens had an abscess?
    Mr. McNamee. Yes, I'm certain.
    Mr. Davis of Virginia. OK. Both head trainer Tommy Craig 
and team doctor Ron Taylor told us the MRI was ordered because 
they thought the bruise or buttocks injury might have been 
caused by a muscle tear. The MRI was not ordered to look for an 
abscess. The MRI was ordered because the team's star pitcher 
was injured. Now that you know Tommy Craig, Scott Shannon, Ron 
Taylor, Dr. Gross all say no abscess and no memory of this 
injury, you still stand by your allegation that he had an 
abscess?
    Mr. McNamee. It's not my allegation. It was--he was getting 
treated for an abscess diagnosed by the head trainer and he was 
getting treated with ultrasound, which it was right or the 
area--the ultrasound was right over the area where I injected 
Roger Clemens with Windstrol.
    Mr. Davis of Virginia. OK. Now, Dr. Taylor says he gave two 
B-12 shots in his life and one was to Roger Clemens in July 
1998 which was the time of the injury and was not in Tampa. The 
medical records also say Clemens started complaining of 
soreness in his buttocks after receiving this injection. How 
can you be so sure this buttocks injury was not the result of 
the B-12 shot, since that was the only shot that could have 
taken place at that point, Tampa, where you allege this 
originally took place, were going to be in June and September? 
How do you reconcile that?
    Mr. McNamee. I'm not sure I follow your question.
    Mr. Davis of Virginia. Well, the question is simple. The 
only time they were in Tampa where you testified this took 
place was in June and September. This injury took place in 
July. The MRI, July August timeframe. And we know that he 
received a shot for B-12 during that time. So if there's any 
kind of shot or abscess, it would have had to be the B-12 shot. 
It couldn't have been the steroid shot you are talking about 
because they were in Tampa at the time.
    Mr. McNamee. I know, but you misunderstood the deposition 
then because what happened was I assumed not knowing when the 
Tampa trip was. I just said because it was a hurried--a hurried 
instance where we were in the closet and that's where the 
injection took place. But I was unaware of the dates.
    Mr. Davis of Virginia. Yes, you were unaware of the dates 
which is why we have an inconsistency here.
    Mr. McNamee. That's right. I wasn't aware of the dates.
    Mr. Davis of Virginia. That's right. And now that you are, 
it makes your statement inconsistent because this took place in 
the July August timeframe when they weren't in Tampa. Let me 
ask you this, Mr. McNamee, why do you inject professional 
athletes with substances you know to be forbidden or illegal as 
a former police officer?
    Mr. McNamee. It was something I shouldn't have done and I'm 
ashamed of it, and that's why I'm here today.
    Mr. Davis of Virginia. Why did you keep doing it?
    Mr. McNamee. I believe that I haven't since 2002.
    Mr. Davis of Virginia. Why did you keep doing it for so 
many years?
    Mr. McNamee. I just accepted it as the norm and it was a 
part of the culture in baseball.
    Mr. Davis of Virginia. How prevalent was it?
    Mr. McNamee. Excuse me? Excuse me?
    Mr. Davis of Virginia. How prevalent was this in clubhouses 
across baseball at the time?
    Mr. McNamee. I think within the players, it was pretty 
prevalent and I'm not sure about other strength coaches and 
their--and their involvement.
    Mr. Davis of Virginia. OK. Again, Mr. Shays, I'll yield to 
you.
    Mr. Shays. Just listening to your testimony, you said you 
believe you haven't injected anyone with any illegal drugs 
since 2002. What does the word ``believe'' mean? Did you or 
didn't you?
    Mr. McNamee. I wasn't really--about ballplayers, I haven't, 
but I inject--I injected Debbie Clemens in 2003.
    Mr. Davis of Virginia. Let me ask a question before our 
time runs out. Did you ever tell Andy Pettitte you were 
contemplating suing Hendricks Sports Management?
    Mr. McNamee. I might have.
    Mr. Davis of Virginia. Did you ever contemplate litigation 
against the L.A. Times following the stories relating to Jason 
Grimsley's affidavit?
    Mr. McNamee. Yes, I did.
    Chairman Waxman. The gentleman's time has expired. Just for 
the record, as I understand it, there was an injury on Mr. 
Clemens's buttocks. This was in the team records. And in the 
records, it said that the injury was related to an injection. 
Do any of you disagree with those three statements?
    Mr. McNamee. No.
    Mr. Clemens. No.
    Mr. Davis of Virginia. Let me just add, if there was an 
injection, a B-12 injection----
    Chairman Waxman. That's one contention. The other 
contention, it was an injection of something else. But those 
three points I made for the record are accurate. Mr. Kanjorski 
is recognized for 5 minutes.
    Mr. Kanjorski. Thank you, Mr. Chairman. In an attempt not 
to have Mr. Scheeler appear to be a potted plant, I gather you 
were instrumental in preparing the Mitchell Report, is that 
correct?
    Mr. Scheeler. I did assist Senator Mitchell, yes, 
Congressman.
    Mr. Kanjorski. OK. Can you pull that a little closer to 
you. When you get to be my age, you lose about 20 percent of 
your hearing capacity. And I just don't want to embarrass the 
other younger citizens in the audience. OK.
    Let me preface my remarks with one or two comments. I have 
the highest regard for Senator Mitchell. As a matter of fact, 
at one time he was my proposed candidate for President. So--and 
I've known him for more than a quarter of a century. So any of 
the remarks that I make to you or questions I ask of you are 
not intended to impugn his credibility or his reliability. But 
having been involved in Washington a few years and knowing that 
the Mitchell Report was quite extensive--in excess of 400 
pages, is that correct?
    Mr. Scheeler. That's correct.
    Mr. Kanjorski. Now, I know George Mitchell is a very 
dedicated person. But I don't suspect that George Mitchell 
wrote every one of those 400 pages in his own handwriting or by 
his own dictation. Is that reasonable to assume?
    Mr. Scheeler. He did not do the first draft of every word. 
But I will tell you that he reviewed every sentence, every 
comma, every semicolon on multiple occasions.
    Mr. Kanjorski. So would you say that he substantially 
stands by every fact set forth in that report?
    Mr. Scheeler. Everything that we said in the report was at 
the time we wrote the report, we had a good faith belief for 
it----
    Mr. Kanjorski. You had a what?
    Mr. Scheeler. We had a good faith belief for it and we 
believed it to be true.
    Mr. Kanjorski. OK. Have you changed that opinion now?
    Mr. Scheeler. No.
    Mr. Kanjorski. You believe every fact set forth in the 
report as it's set forth?
    Mr. Scheeler. Sitting here at this moment, I cannot think 
of a single fact that we would recant, no.
    Mr. Kanjorski. So the supposed meeting that occurred at 
Canseco's house, you've reviewed that and he has told a lie, 
and the people that reported the ball game, they've told a lie? 
Is that correct? Or did that meeting not occur? Did it or did 
it not occur? That's the question.
    Mr. Scheeler. I would say at this point, we're not in a--
it's not our role to judge what the subsequent facts are that 
have come into play.
    Mr. Kanjorski. Whoa, whoa, whoa. You mean to tell me, if 
you were going to say, I committed perjury or lied about some 
substantial fact and, in doing that, you place me at a 
particular location, and then it turns out that you couldn't 
possibly have been there and you weren't there, that's not 
material to your report?
    Mr. Scheeler. Well, let me try and put the Canseco lunch 
into perspective then for you.
    Obviously, Mr. McNamee told Senator Mitchell that Mr. 
Clemens had been at Mr. Canseco's house for a luncheon. And 
this, I would add, is an instance which shows it is one of the 
reasons why we would have liked to have talked to the current 
players, because we could have gotten additional facts.
    Mr. Kanjorski. You would have liked to talk to God to find 
out, but you didn't. You relied on one witness, and he put Mr. 
Clemens at a location that, supposedly, other impartial parties 
have provided affidavits that he wasn't there and couldn't have 
been there.
    Now my question to you is, as the writer of that report--
and I will assume you are the writer of that report--which of 
those facts is this committee and the public of the United 
States to accept? Did this meeting occur where the conversation 
of steroids occurred or didn't it?
    Mr. Scheeler. Let me take issue with a premise of your 
question, because it is important to understand that at that 
meeting we do not write that any conversations about steroids 
took place at the Jose Canseco luncheon.
    Mr. Kanjorski. OK. Assume----
    Mr. Scheeler. If I could complete my statement----
    Mr. Kanjorski. I only have 5 minutes, so I don't want you 
to filibuster. We are used to the Senate doing that, but we 
don't do that in the House. So I want you to respond as quickly 
as you can so we can move through these facts.
    Mr. Scheeler. I will do my best.
    Mr. Kanjorski. OK.
    Now, are you contending that the fact that meeting occurred 
and whether or not Mr. Clemens was there is not important and 
it meaningless and shouldn't have been in the record?
    Or was it placed there for some purpose to show that there 
could have been a semiconspiracy occurring and discussions 
being had, and this was just another element of that evidence?
    What is it?
    Mr. Scheeler. This was placed in the report in large part 
because of the fact that we also interviewed Jose Canseco, and 
Mr. Canseco advised us that he had repeated conversations----
    Mr. Kanjorski. Didn't he advise you that meeting did not 
occur under oath?
    Mr. Scheeler. He was not under oath when we spoke to him. 
We did not have the ability to place people under oath.
    Mr. Kanjorski. OK. So now are you concluding that what he--
did he tell you that meeting did not occur?
    Mr. Scheeler. He did not answer that question because we 
did not ask it.
    At the time we interviewed Mr. Canseco, that was July 11, 
2006 in Fullerton, CA. At that time we did not know of this 
issue of the Canseco lunch.
    Chairman Waxman. Mr. Kanjorski, your time has expired.
    Mr. Kanjorski. Can I just close with a last question, Mr. 
Chairman?
    Chairman Waxman. Please, go ahead.
    Mr. Kanjorski. Are we to assume now at this hearing--did 
that meeting occur or didn't that meeting occur?
    Mr. Scheeler. I think you can draw your own judgments. I 
have heard, since the report came out, evidence suggesting that 
Mr. Clemens was at the lunch, evidence suggesting Mr. Clemens 
was not at the lunch.
    The one point I would like to make about that lunch is that 
Senator Mitchell did not state in the report that there was 
either performance-enhancing substance use discussed, nor were 
any performance-enhancing substances exchanged during the 
course of that luncheon.
    Chairman Waxman. The gentleman's time has expired.
    Mr. Mica for 5 minutes.
    Mr. Mica. Thank you, Mr. Chairman.
    Mr. McNamee, you have come up with so-called physical 
evidence of possible steroid use that I believe you turned over 
to investigators?
    Mr. McNamee. Yes, sir.
    Mr. Mica. OK. And is that--as I understand it, there is 
gauze and there is a syringe?
    Mr. McNamee. Yes, sir.
    Mr. Mica. Is that the extent of it? The physical evidence?
    Mr. McNamee. There are empty, broken ampules that were used 
with those syringes. There are some unused ampules, about seven 
or eight of them, I believe. There are also about 30 or so 2-
inch needle heads, along with a bottle of white pills, along 
with the evidence.
    Mr. Mica. The gauze that I saw looked like it had some 
blood stains on it; is that correct?
    Mr. McNamee. Yes, sir.
    Mr. Mica. And that blood would, if it was DNA tested, you 
think it would be Mr. Clemens'?
    Mr. McNamee. Yes, sir.
    Mr. Mica. OK. And you could have had gauze with his blood 
stains on it because you had done several injection procedures 
on him and also treated him; is that correct?
    Mr. McNamee. Yes, sir.
    Mr. Mica. Mr. Clemens claims that he was treated with 
vitamin B-12, I guess it was. And did you do some of those 
injections?
    Mr. McNamee. I can't hear you, sir.
    Mr. Mica. I said Mr. Clemens has said that you treated him 
with injections of vitamin B-12; is that correct?
    Mr. McNamee. Negative.
    Mr. Mica. You never did any B-12?
    Mr. McNamee. No, sir.
    Mr. Mica. OK. What color is this--well, then you claim you 
gave him a steroid or a compound.
    What was it that you claim that you gave him the injections 
of?
    Mr. McNamee. It was--throughout the course of the years it 
was Winstrol, also known as stanozolol; there was 
testosterones, steroids, and HGH, human growth hormone.
    Mr. Mica. What colors are they, the testosterone, the 
various liquids?
    Mr. McNamee. The Winstrol, the stanozolol, from 1998, was 
like a powdery white or a milky white liquid, water-based 
somewhat.
    The testosterones were more of an oily, clear to a little 
bit darker, almost like a honey color.
    And the HGH, once it was mixed with the diluted water, it 
would become clear.
    Mr. Mica. So basically clear to honey tone?
    Mr. McNamee. And milky white.
    Mr. Mica. Mr. Clemens, you claim that--you did admit that 
you were injected with vitamin B-12, and also you admitted to 
Lidocaine.
    OK, what color is the vitamin B-12 shot? You told me you 
had quite a few shots.
    Mr. Clemens. Brian McNamee gave me shots on four to six 
occasions of B-12. It is red or pink in color.
    Lidocaine, I do not know the color of Lidocaine. He gave me 
one shot of Lidocaine in my lower back, and that happened in 
Toronto. I have no idea----
    Mr. Mica. Now, he could have gauze with your blood sample 
on it; is that correct?
    Mr. Clemens. Absolutely.
    Mr. Mica. OK. But you have said that the only two injected 
substances you had--was it Mr. McNamee that injected those two 
substances?
    Mr. Clemens. That's correct.
    Mr. Mica. OK. And you also said that you knew very 
distinctively the color of the B-12 because you had that 
injection, and that is a fairly distinctive color.
    Mr. Clemens. That is correct. It was red or pinkish in 
color and----
    Mr. Mica. What color was what he injected you when you 
thought it was B-12?
    Mr. Clemens. I am sorry?
    Mr. Mica. What color was it when he injected you when you 
thought it was B-12?
    Mr. Clemens. It was red and pink. B-12 is red and pink that 
he gave me.
    I don't remember the color of the Lidocaine. It was one 
shot. He told me it would give me some freeness in my back.
    Mr. Mica. So we may never know, because he may in fact--and 
you say he would have gauze with possibly your blood DNA sample 
on it. That would be correct?
    Mr. Clemens. He sure could have.
    Mr. Mica. OK. But we don't know what he injected.
    But he just testified that the substance was a different 
color than, in fact, you recognized. And, in fact, you told me 
on a prior occasion the color of the substance you were 
injected with; is that correct?
    Mr. Clemens. I am sorry, I didn't----
    Mr. Mica. I said you told me the color of the substance you 
were injected with. That is why I asked him that----
    Mr. Clemens. That's correct.
    Mr. Mica [continuing]. Question first.
    You don't think he is telling the truth then?
    Mr. Clemens. Brian McNamee has never given me growth 
hormone or steroids.
    Mr. Mica. Thank you.
    Chairman Waxman. The gentleman's time has expired.
    Mrs. Maloney, do you want to take your 5 minutes now?
    Mrs. Maloney. Yes. Thank you. Thank you, Mr. Chairman.
    First of all, Mr. Clemens, as a New Yorker, we are very 
proud of your professional achievements. Thank you for your 
many efforts to help children through your foundation. And you 
are an important role model to many young people. And I am 
concerned about these allegations against you and your 
conflicting response to many of them.
    First of all, the Mitchell Report was released in December 
2007, and after it was issued, you began speaking out against 
these allegations. One question that I have is, why did you 
refuse to talk to Senator Mitchell when he reached out to you 
before the report was released? And specifically on page 175 of 
his report it says, ``In order to provide Clemens with 
information about these allegations and to give him an 
opportunity to respond, I asked him to meet with me, and he 
declined.''
    As part of your public statements, you went on 60 Minutes, 
and during an interview with Mike Wallace, he asked you, Why 
didn't you speak to George Mitchell's investigators? And in 
response you stated, ``I listened to my counsel. I was advised 
not to. A lot of the players did not go down and talk to him as 
well.''
    And do you remember saying that to Mike Wallace on 60 
Minutes?
    Mr. Clemens. Yes.
    Mrs. Maloney. Mr. Clemens, in your deposition with our 
committee you gave a very different explanation. You did not 
tell us your lawyers told you not to speak to Senator Mitchell. 
You repeatedly told us you had no idea Senator Mitchell wanted 
to talk to you. And let me give you some examples from the 
transcript.
    First, on page 112 of your deposition, you were asked, Were 
you aware that Senator Mitchell was seeking to interview you? 
And your answer was, I was not.
    Then later, on page 112, Senator Mitchell sent a letter to 
the players union in July 2007 requesting an interview with 
you, and you were not--you testified that you were not aware of 
this request. You said, I was not aware of it.
    Then on page 117, when Mr. Hendricks, your agent, heard 
about the invitation, did he communicate with you that you were 
invited to talk to Senator Mitchell? And your agent, you 
answered that he did not even communicate this request to you.
    Then on page 115, in the July timeframe there, your agent, 
Hendricks, never said to you, By the way, Senator Mitchell 
wants to talk to you. And your answer was, that is correct.
    Then on page 116, in October, Senator Mitchell informed the 
players union that any player who agreed to an interview would 
be provided with the evidence that Senator Mitchell had. Did 
you know of this in 2007? And your answer was, I did not.
    And then you made this definitive statement, ``I had no 
idea that Senator Mitchell wanted to talk to me. If it was 
about baseball and steroids in general, I would have wanted to 
see him. And obviously, if I knew what Brian McNamee was saying 
about me in this report, I would have been there.''
    So, Mr. Clemens, there were six times that you told our 
committee under oath that you had no idea that Mitchell wanted 
to talk to you. Yet you said on national television that you 
refused to talk to Senator Mitchell on the advice of your 
attorneys. So I have two questions about this.
    First, why did you give one explanation on 60 Minutes for 
why you failed to talk to Senator Mitchell and a different 
explanation in the depositions before this committee?
    Mr. Clemens. Congresswoman, the fact of the matter was I 
was never told by my baseball agent/attorney that we were asked 
to come down and see Senator Mitchell. Like you said in that 
statement, if I knew the lies that Brian McNamee were telling 
about me I would have been down there to see Senator Mitchell 
in a heartbeat, in a New York minute, if you will. I was never 
told about that.
    The Players Association, from my understanding, reached out 
to a lot of the players. I don't believe any player went down, 
other than, from what I understand, Jason Giambi; and it was 
relayed to Mr. Hendricks who--you stated his name in that, my 
earlier testimony. It was never brought to me.
    From talking to Randy Hendricks and I believe the Players 
Association, in my situation, I had to answer allegations back 
in 2006 about an L.A. Times report.
    Mrs. Maloney. But would you say then that your agents did 
you a terrible disservice by not bringing this information to 
you that you had an opportunity to talk before the report came 
out?
    Mr. Clemens. I would say so. And with all----
    Mrs. Maloney. Can I ask, what actions did you take after 
you learned that your agents kept from you Senator Mitchell's 
inquiry?
    I would say that if the Ethics Committee in the House sent 
me a letter about possible illegal action and my staff kept 
this information from me, I would have fired my staff. And so 
my question to you, have you fired these agents that did not 
inform you about this? What action have you taken with this, 
really, breach of trust?
    Mr. Clemens. No, I haven't. And with all respect, Senator 
Mitchell, from what I understand, again was asked by members of 
the Players Association, what do you have to talk about with 
these players? And would you please tell us what it is? And 
they said, We are not going to respond to that. You will have 
to come down and see us.
    Mrs. Maloney. My time has expired.
    Chairman Waxman. Thank the gentlelady.
    Mr. Souder for 5 minutes.
    Mr. Souder. Thank you.
    This has been very frustrating. I am sure it has been very 
frustrating to those watching, too. When you testify in front 
of this committee it is better not to talk about the past and 
to lie about the past.
    Somebody is not telling the truth today.
    Now, I am disappointed that the other witnesses are not 
here. And I understand from the chairman that we plan to 
release those depositions, and I hope that the public 
understands that what we are having today is a very short 
forum. I went through most of these depositions last night, 
hundreds of pages; and when this is released, you are going to 
get somewhat of a more comprehensive view.
    What is interesting today is to see the interaction. But I 
would argue that those depositions are fairly devastating.
    Mr. McNamee, there was something that caught my attention 
that I would like to raise. It was a side comment fairly far 
into your testimony. You were discussing related issues, and 
you alleged that David Cone, a player rep for, I believe, then 
the Toronto Blue Jays, said, ``The owners want the union--the 
owners went to the union and said, `We don't want to test,' but 
you have to give us some valid excuse to go to the media.''
    Do you have any more knowledge of that? And is that an 
accurate characterization of what you said? Because--that is an 
incredible allegation here, because the union is being blamed 
for not testing. And there hasn't been an investigation of the 
owners thus far. And what you are saying is a player rep went 
to who and said that? Did you hear this second-hand, third-
hand?
    Mr. McNamee. The player rep came to me, and that's what was 
told to me, those statements.
    Mr. Souder. And why did he come to you?
    Mr. McNamee. Because of my background, and he wanted to 
know--he was talking to me on the back of the plane about the 
current state, which reverts back to, I guess--I believe it 
was--yeah, it was 2000.
    And I think--it was just a conversation, and he thought 
maybe I had--maybe I had some knowledge that might have led to 
believe that steroid use didn't enhance hand-eye coordination, 
which is what baseball is mainly depicted as, as far as 
ability.
    Mr. Souder. Mr. Chairman, I know you don't want to have 
another hearing, I am not advocating another hearing; but the 
Mitchell Report was not targeted toward the ownership, and it 
is one thing we haven't investigated. This is a second- to 
third-hand type of revelation.
    But I think that the staff needs to look at this because 
this comes to the core question of the legislation that you, I, 
Congressman Cummings, Congressman Davis, and Senator McCain 
introduced about whether we can trust baseball to, in fact, do 
testing on themselves. And if it is true that the owners wanted 
to, in effect, cover up and not have testing, this is a very 
serious allegation.
    Chairman Waxman. I thank the gentleman for his comment. We 
will discuss it.
    Mr. Souder. Also, Mr. McNamee, when he held the press 
conference and played the tape live to the national media, that 
appears to have really ticked you off.
    Mr. McNamee. Yes, sir.
    Mr. Souder. You made a reference in your deposition that's 
when you produced the physical evidence.
    Mr. McNamee. Yes.
    Mr. Souder. Do you believe that physical evidence--my 
friend Mr. Mica was questioning, yes, there will be blood; Mr. 
Clemens said the blood could be from a number of other things--
do you believe that physical evidence will tie him directly to 
an illegal drug?
    Mr. McNamee. Yes, I do.
    Mr. Souder. Do you believe it can be debated whether or 
not--in other words, will it be on a needle or something that 
clearly takes the DNA to that?
    Have you ever handled physical evidence when you were a 
policeman?
    Mr. McNamee. Physical evidence?
    Mr. Souder. Yes, like this. How to track it----
    Mr. McNamee. No.
    Mr. Souder [continuing]. How to protect it, what it is 
likely to show?
    So are you speculating at this point, or do you know, in 
fact, that the DNA will be traced to HGH or steroids?
    Mr. McNamee. I am speculating.
    Mr. Souder. OK. Because the DNA, if it is clear, will not 
disremember. In other words, it will help settle a debate. But 
if there is a dispute whether it was B-12 or that, that even 
could be confusing.
    But I think it is important for the record, because I 
chaired the narcotics committee for a long time, and I can't 
tell you how much these depositions look like any kind of a 
narcotics debate we had--it looks like cocaine, it looks like 
methamphetamine.
    And when you talked in your testimony about lying in the 
early stages, we often see witnesses who are caught, who go to 
the Federal Government and initially give us just enough so 
they think they are not going to go to jail, but they don't 
really turn over their major clients. And then something ticks 
them off, and they go a step further.
    And that could be another explanation. But it may be, if it 
doesn't show the tracking, that it is going to be very 
difficult to resolve.
    But the other reason, Mr. Chairman, I think it is very 
important that you have committed to release the depositions is 
that, in fact, Mr. McNamee has been verified by Mr. Knoblauch 
as accurate. He has been verified by Mr. Pettite as accurate. 
Radomski, who is under Federal investigation, supports a lot of 
that, although we don't have a deposition on him.
    And one last thing. It would have been great to have Mr. 
Knoblauch here today because it was a sad testimony that he had 
about his life experiences and about how he wanted to come 
clean for his family. I urge people to read that.
    And if I could make one last statement, I am incredibly 
disappointed with the players and the pressure that they put on 
that comes through all these depositions about not to talk. If 
families in America don't talk about the drug abuse in their 
neighborhoods--and the locker room would be your neighborhood--
if you don't talk about that drug abuse--there was a family in 
Baltimore that Congressman Cummings and I did a bill on, the 
Dawson family, that their house was fire-bombed, that all of 
them were killed, all their children, because they talked.
    And yet baseball players somehow--and management and 
trainers--think that they are above it, that they are some kind 
of a snitch, that there is some kind of a thing wrong if you 
talk about other players.
    The fact is, we can't get control of drug abuse unless you 
turn over other people and cooperate. And this wall of silence 
coming out of baseball has been disgusting. And it took the 
Federal Government, the Balco case, to get anything out of 
this. And then it took the hearings to get the Mitchell Report. 
And now we have all kinds of questions coming off that and 
whether management was, in fact, involved. When people say that 
there should not be an independent test, I don't see how, given 
this track record, they think there can be anything but 
independent testing.
    Thank you, Mr. Chairman.
    Chairman Waxman. Thank you, Mr. Souder.
    Mr. Clay.
    Mr. Clay. Thank you, Mr. Chairman.
    Mr. Clemens, in our previous hearing in 2005 one witness 
clearly misled this committee, another temporarily lost his 
ability to speak and understand the English language, while a 
third witness decided that he didn't want to talk about the 
past.
    You have four sons, and you understand how young athletes 
admire players of your caliber. Can I look at my two children 
with a straight face and tell them that you, Roger Clemens, 
have always played the game with honesty and integrity?
    Mr. Clemens. Yes, sir.
    Mr. Clay. And there would be no doubt that's true?
    Mr. Clemens. Without a question. I took no shortcuts.
    I can tell you about my upbringing. There were--you know, I 
have heard the thing about pampered athletes and million-dollar 
ballplayers. I have heard that from my own counsel. And I take 
a little offense to that for the fact that my father passed 
away when I was 9 years old.
    My mother--I was raised by great, strong women, my mother 
and my grandmother. They gave me my will and my determination.
    I have had my work ethic--which again has come in question 
here by a man at this table, that he made me, he made me who I 
was. I didn't meet him until 1998. In 1997, I won the Triple 
Crown in Pitching. I already had over 200 wins. But he coaxed 
me--on a statement he says he coaxed me to four Cy Youngs. And 
if you do the math, I would have nine Cy Youngs according to 
his math, and I don't.
    Mr. Clay. You have seven.
    Mr. Clemens. I have seven. Thank you.
    My career, Mr. Congressman, didn't happen by accident. I 
worked extremely hard. I have had a great work ethic since I 
was in high school. I didn't have a car in high school. I ran 
home, which my condominium or town home was about 2 miles from 
my school.
    My sister reminded me that when you went to the University 
of Texas, the only way I was going to further my education--my 
mother didn't have the means; she worked three jobs; she didn't 
have the means to send me to college. So it came through the 
game of baseball, which we love.
    So it is very--it is very hurtful to me and my family and 
to the children that look up to us.
    The Congressman earlier--I guess he stepped out. My 
innocent sister-in-law was murdered, brutally murdered because 
of drugs. It hurt our family. My mother pulled my other 
athletic brother, my middle brother, if you will, my next-older 
brother--I have two brothers and three sisters--out of college 
because of an incident that happened on campus involving 
marijuana, pulled him out of campus. And I tip my hat to my 
brother. He went on to finish school and get his degree.
    These are the values that we have, that I have, and that I 
will continue to have.
    Somebody's tried to break my spirit in this room. They are 
not going to break my spirit. I am going to continue to go out 
and do the things that I love to do and try and be honest and 
genuine to every person I can be. It is the way I was brought 
up. It is what I know. But you can tell your boys that I did it 
the right way, and I worked my butt off to do it.
    Mr. Clay. Thank you for that response. You have a very 
compelling and telling story about your life and career.
    A colleague of mine, Mr. Capuano of Massachusetts, wants to 
know what uniform you will wear to the Hall of Fame.
    Mr. Clemens. Can I ask you--may I state that I didn't hear 
that question?
    Mr. Clay. That's fine.
    Let me ask, Mr. McNamee, sir, when you first spoke to the 
government about this matter, did you deny that Roger Clemens 
ever used steroids or HGH?
    Mr. McNamee. No, sir.
    Mr. Clay. You never denied it to Federal authorities?
    Mr. McNamee. No, sir.
    Mr. Clay. OK. I recognize how intense the pressure can be 
when testifying for a Federal prosecutor. Did their 
intimidation tactics influence you to give conflicting 
testimony?
    Mr. McNamee. No, sir.
    Mr. Clay. You are sure about that?
    Mr. McNamee. Yeah, I am pretty sure.
    Mr. Clay. Were you granted 5 years probation in exchange 
for your testimony?
    Mr. McNamee. No, sir.
    Mr. Clay. You don't have a deal sitting on the table with 
the Federal prosecutors----
    Mr. McNamee. No, sir.
    Mr. Clay [continuing]. To come before this committee and to 
say what you have said? You don't have a deal at all?
    Mr. McNamee. No deal, sir.
    Mr. Clay. Were you simply telling the prosecutors what they 
wanted to hear in order to secure a deal for yourself?
    Mr. McNamee. No, sir.
    Mr. Clay. You have answered truthfully to all my questions?
    Mr. McNamee. Yes, sir.
    Mr. Clay. Thank you very much, Mr. Chairman.
    Chairman Waxman. Thank you, Mr. Clay. Your time has 
expired. The Chair is going to take his time for questioning.
    Mr. Clemens, I am puzzled about something that happened 
last week, and I would like you to help me understand why you 
did what you did.
    You have a tough job today, and you said you find it very 
hard to have to prove a negative. But your attorneys have 
provided documentation to rebut the passage in the Mitchell 
Report about a party at Jose Canseco's house.
    I don't view this passage as anything central to the issue 
before us, but it is important that we know if it is true; and 
your attorneys and you have been very forceful in telling us 
that the report is wrong, you were not at Canseco's house 
between June 8th and June 10, 1998, when the Toronto Blue Jays 
were playing in Miami.
    During your deposition you were asked, Could you have been 
at this house during this time period, June 8th to June 10, 
1998, and you answered ``no.'' Is that a correct statement?
    Mr. Clemens. On the dates, sir?
    Chairman Waxman. Did you answer ``no'' to the question 
whether you were at Jose Canseco's party?
    Mr. Clemens. If you will repeat your question then I can--
please.
    Chairman Waxman. Well, during your deposition you were 
asked, could you have been at his house during this time 
period, which was June 8th to 10th, 1998? And you answered 
``no.''
    You have given us supporting materials. You have provided 
an affidavit from Jose Canseco that said that you were not at 
his house during the team party on June 9th. You provided a 
golf receipt from 8:58 a.m. on June 9th, which showed that at 
least that morning you were purchasing merchandise at the golf 
course next to Canseco's house. And you provided excerpts from 
a baseball broadcast that reported that you were not at the 
team party. And these came up when several other Members asked 
you about it. It is all very helpful.
    When the committee took Mr. McNamee's deposition, he had a 
completely different recollection, as he has today. He had a 
clear recollection that Mr. Clemens was at Mr. Canseco's home. 
So our committee staff investigated this issue, and we received 
conflicting evidence.
    I am not surprised by conflicting recollections of a party 
around 10 years ago that was really of no special importance. 
But Jose Canseco thinks Roger Clemens and Mr. Canseco's ex-wife 
weren't at the party. Mr. Canseco's ex-wife, Jessica Fisher, 
believes that she was there, and so was Debbie Clemens.
    Mr. McNamee told us that one key witness who would know 
whether you were at Canseco's house for that party was your 
former nanny. And the committee staff asked your attorneys for 
her name last Friday so we could contact her. We made 
additional requests for her name and contact information over 
the weekend.
    Around 5 p.m. on Sunday afternoon, committee staff made 
another request, and asked your attorneys to refrain from 
contacting the nanny before the committee staff could speak 
with her. It wasn't until Monday afternoon that your attorneys 
provided the nanny's name and phone number to the committee; 
and it wasn't until yesterday that the committee staff actually 
spoke with the nanny.
    Are you aware of all this timeline about the nanny?
    Mr. Clemens. I am not sure of all the timeframe. I know 
that----
    Chairman Waxman. OK.
    Mr. Clemens. Yeah.
    Chairman Waxman. Well, what the nanny said to us when we 
finally contacted her yesterday was important in several 
respects. First, she said that she was at Mr. Canseco's home 
during the relevant time period. In fact, she said that she and 
Mrs. Clemens and the children stayed overnight at the Cansecos.
    Second, she told us she did not remember any team party as 
described in the Mitchell Report.
    And third, she said that she did not--she did remember that 
you were at that home during the relevant time period, although 
she didn't know how long you stayed or whether you spent the 
night with your family.
    The third point directly contradicted your deposition 
testimony, where you said you were not at Mr. Canseco's home at 
any point June 8th to June 10, 1998. But it is entirely 
understandable to me. It was 10 years ago.
    Here is what puzzles me about your actions: We have a 
transcript of the interview with the nanny, whose name I am not 
going to release to protect her privacy; but in this transcript 
she says that on Sunday, this last Sunday, you called her and 
asked her to come to your Houston home. She had not seen you in 
person since 2001. But after you called, she went to your home 
on Sunday afternoon. And I would like to read a portion of the 
transcript of the committee interview.
    Question: ``when you said you didn't remember a party, what 
did he say?''
    Answer: ``he says, you know, the reason you don't remember 
that party is because I wasn't there. He said because I know 
that he was playing with Jose.''
    Question: ``so did he ask you, do you remember a party, and 
then you said you did not remember a party?''
    Answer: ``that's right.''
    She also told the committee staff that you told her that 
she should tell the committee the truth. And after your 
meeting, an investigator working for you called her and asked 
her a series of additional questions.
    Your meeting took place 2 days after the committee staff 
made a simple request for your former nanny's name. And then it 
took 24 hours after your meeting for your attorneys to provide 
her name to the Republican and Democratic staffs, and that is 
why I am puzzled about this.
    Was it your idea to meet with her before forwarding her 
name to us, or did someone suggest that to you?
    Mr. Clemens. Mr. Chairman, I believe that just like through 
this whole hearing, I was doing y'all a favor by finding a 
nanny that was--supposedly came in question, so----
    Chairman Waxman. You might have been trying to do us a 
favor, but who told her you should invite her to your house, 
that you haven't seen her in all those years?
    Mr. Hardin. Mr. Chairman, this is unfair. What his lawyers 
tell him is unfair for you to ask. And I will tell you in any 
case----
    Chairman Waxman. OK. Well, I accept that. I accept that. 
Would the gentlemen please be seated?
    Mr. Breuer. Mr. Chairman----
    Chairman Waxman. Was it your idea? That is the question. 
Was it your idea?
    Mr. Hardin. It was my idea. It was my idea to investigate 
what witnesses know----
    Chairman Waxman. OK.
    Mr. Hardin [continuing]. Just like any other lawyer in the 
free world does.
    Chairman Waxman. Did you think, Mr. Clemens, it was a good 
idea to invite her to your home on Sunday after not seeing her 
for 7 years?
    Mr. Clemens. I am sorry?
    Chairman Waxman. Did you think it was a good idea to invite 
her to your home after you hadn't seen her for 7 years?
    Mr. Clemens. I was told on Friday night to see if you--you 
know, we could locate the nanny. Obviously, it is very nice of 
you, I don't think she needs any publicity; but I was told on 
Friday night that you guys may want to talk to her, and so----
    Chairman Waxman. And you felt you should talk to her first.
    Well, I don't know if there is anything improper in this.
    Mr. Clemens. Mr. Chairman, I hadn't talked to her in years. 
And I did everything I could to locate her to--if you guys had 
any questions for her. And I did tell her to answer truthfully.
    Again, I am not sure----
    Chairman Waxman. I don't know if there is anything improper 
in this, but I do know it sure raises an appearance of 
impropriety. The impression it leaves is terrible.
    The right way to have handled this would have been to give 
the committee information immediately and not have your people 
interview the nanny before we did, and certainly for you not to 
personally talk to her about the interview as you did.
    One option for you was to have given the committee the 
nanny's contact information and had no contact with her. 
Another option could have been to give her a heads-up that the 
committee would be calling her. But you chose, I think, the 
worst approach. That is my opinion.
    You invited her to your home, had a specific conversation 
about whether you were at Mr. Canseco's house, and you did this 
before you gave the committee her contact information.
    Is there anything else you want to add?
    Mr. Breuer. Mr. Chairman, with all due respect, this is 
nothing but innuendo. Your committee asked on Friday evening 
for this information. We have done everything to give you that 
information in a fast and in a thorough manner.
    The innuendo is terrible.
    And I spoke to your own staff member, who is speaking with 
you now. And your statement is--and I have the highest respect 
for the chairman--is calculated to do nothing but to have 
innuendo against this man.
    We have cooperated with the committee fully, as your own 
staff sitting behind you now.
    Chairman Waxman. As I indicated, the rules do not allow the 
lawyers to speak, but I did not cut you off. This action means 
there is always going to be a question whether you tried to 
influence her testimony, and I gather your lawyer thinks----
    Mr. Clemens. Mr. Chairman, Mr. Chairman, I was doing y'all 
a favor; and as far as I was concerned, I haven't seen this 
lady in a long time. She is a sweet lady, and I wanted to get 
her to you as quick as possible, if you had any questions for 
her.
    Again, I am hurt by those statements that I would get in 
the way of finding anything that you guys were looking for. 
That's--I am hurt by that statement.
    Mr. Hardin. We asked her to come to the house so we could 
interview her.
    Chairman Waxman. The gentleman is not going to be 
recognized. My time is up.
    Ms. Norton is here, and I want to recognize her for 5 
minutes to ask questions she might have.
    Ms. Norton. Thank you, Mr. Chairman. And I want to thank 
both Mr. McNamee and Mr. Clemens for having the guts to show up 
here without having been subpoenaed.
    Mr. Clemens, much of what we are about here turns on 
concrete evidence, but much of it on credibility. And my 
questions really go to your longstanding relationship with Mr. 
McNamee, almost 10 years of relationship from 1998, with the 
Blue Jays, until 2007.
    And a whole string of evidence about the closeness of that 
relationship, your training with him in Kentucky, got you Bruce 
Springsteen--you got him Bruce Springsteen tickets. I call that 
love. You lent him fishing gear. And to quote your statement, 
``I trusted him, put my faith in him, and brought him around my 
family and my children. I treated him just like I had done 
others I had met in my life, like family.'' That's pretty 
close.
    Isn't it fair to say you were on quite good terms with Mr. 
McNamee until you found out what he told Senator Mitchell?
    Mr. Clemens. Congresswoman, I did not get him Bruce 
Springsteen tickets.
    Ms. Norton. Let us correct the record.
    Mr. Clemens. And yes, I trusted Brian McNamee like I 
trusted every other trainer or----
    Ms. Norton. Well, I quoted you on how you trusted him.
    Mr. Clemens. Yes, I totally understand.
    Ms. Norton. But I asked you, therefore, don't your own 
statements show that you were on good terms with him until you 
found out what he told Senator Mitchell?
    Mr. Clemens. I was--I would say I was on good terms with 
him. We had a--obviously, what I have learned now----
    Ms. Norton. Yeah, but you see I am not talking about now. 
Now is after the Mitchell Report.
    Of course, you and your legal team are raising very serious 
questions about incidents in Mr. McNamee's past. Some of them 
were public, some of them were not. But I think they would 
cause reasonable people to lose trust and confidence in Mr. 
McNamee, for example, that he gave you without your knowledge 
what you later came to believe, while he was still your 
trainer, an amphetamine.
    Indeed, you describe a ``confrontation,'' your word, that 
you had with him about this particular incident. You told us 
that he falsely claimed that your own workout was his, and how 
you bit your lip and your tongue as you watched him do this.
    You even say that a company associated with McNamee used 
your image in an advertisement without your consent.
    And finally, of course, perhaps most personally, that Mr. 
McNamee injected your wife with HGH in your master bedroom 
without your knowledge. And you described here in prior 
testimony today some of the repercussions she had from that 
injection.
    Now, you were well aware of all of these concerns before 
the Mitchell Report was released. So I have to ask you, sir, if 
Mr. McNamee did all of these things, and they appear not to be 
in doubt, including injecting your wife with HGH without your 
knowledge, why did you continue to employ him?
    Mr. Clemens. Congresswoman, the incident that he told me 
from the St. Pete situation, that he got let go from the 
Yankees, I was told a different story. I was told that he saved 
a woman's life, that again he took a hit for five other guys on 
that situation. I believe I worked----
    Ms. Norton. What about what he did to you, Mr. Clemens? 
What about the incidents I have said and how seriously they 
affected you? Why did you continue to employ him, given what he 
had done to you?
    Mr. Clemens. That's correct. And what I was--the point I 
was getting to, I believe there was a work stoppage for 2 or 3 
months. I believe Mr. Pettitte was playing again, continued to 
play. I was in--still trying to make up my mind again.
    I am not great at retirement. I tried to retire three 
times; it is not working. But there was a work stoppage there. 
There was a work stoppage with him until after the incident 
with my wife, which he again--earlier he said----
    Ms. Norton. There was a work stoppage--excuse me, a work 
stoppage?
    Mr. Clemens. Well, I didn't hire him as a trainer. I 
actually had a different trainer for 2 months that I worked 
with.
    Ms. Norton. The reason for that was?
    Mr. Clemens. I was going in a different direction, so----
    Ms. Norton. Then you had him as your trainer again?
    Mr. Clemens. I am sorry?
    Ms. Norton. And then you had him as your trainer again?
    Mr. Clemens. I did in----
    Ms. Norton. My question, Mr. Clemens, is, why did you keep 
the man? It is very simple. Why did you keep the man? He did 
some pretty horrendous things which are on the record, which 
you yourself said.
    Why did you keep him? And why only after the Mitchell 
Report did your relationship with him end?
    Mr. Clemens. Well, Brian McNamee--again, we had a heated 
discussion. He apologized to me on the situation with my wife.
    Ms. Norton. How about the other things?
    Mr. Clemens. I am a forgiving person. I don't--like I said, 
I don't--when he told me that he was a doctor, and he had a 
Ph.D., I had no reason to look behind that. I mean, he was 
employed by Major League Baseball.
    He ran an ad, and basically I let him have it about that, 
told him about it, that you cannot do that kind of stuff. I 
think that is when he said that he was going to sue my baseball 
attorney; and quite often it happens in my life.
    The other day I had a gentleman come and talk to me about 
that they were excited, that they just bought a lot down from 
my house in the area that they were playing golf in. And I let 
them know that I hate to burst their bubble, but I don't have a 
lot at that house. So it happens quite often.
    Again, I learned--I learned, Ms. Congresswoman--I learned, 
like I said, about the--I had no reason to believe that he 
wasn't a doctor; and these--obviously, the lies that I know now 
that he has told me.
    Ms. Norton. And all this stuff that he did to you.
    Listen, Mr. Clemens, all I can say is, I am sure you are 
going to heaven.
    Thank you very much, Mr. Chairman.
    Chairman Waxman. Thank you, Ms. Norton. We are going to 
take a 15-minute break, and then we will reconvene and continue 
the questioning.
    [Recess.]
    Chairman Waxman. The meeting of the committee will come 
back to order.
    Mr. Davis.
    Mr. Davis of Virginia. Thank you, Mr. Chairman. While I was 
gone I know the chairman asked some questions about an 
affidavit from--or an interview with Lilian Straim. This has to 
do with a very critical issue that the two of you don't seem to 
agree on, and that is the party at Jose Canseco's house.
    We have an affidavit from Mr. Canseco and his wife saying 
they remember you not being there, being hurt that you weren't 
there. We have contemporaneous sportscaster reports noting that 
you were not there. We have your golf ticket that you have 
given us that shows you probably couldn't have been there, 
although maybe it is possible. We have a number of other people 
who were interviewed who say they don't remember you there.
    So when they talked to your nanny, understandably, we are 
trying to find out what she knew about it.
    This committee had no way to reach her except through you. 
Is that right, Mr. Clemens?
    Mr. Clemens. That's correct.
    Mr. Davis of Virginia. We could never have interviewed her 
had you not intervened for us and found her; is that correct?
    Mr. Clemens. That is correct.
    Mr. Davis of Virginia. And her English, as I understand it, 
is not that good. Is that correct?
    Mr. Clemens. It is not that good.
    Mr. Davis of Virginia. And she probably never testified 
before a congressional committee or congressional investigators 
before either----
    Mr. Clemens. Never.
    Mr. Davis of Virginia [continuing]. So understandably would 
be reluctant to do that.
    Can you just give us the circumstances of your--obviously, 
if you hadn't contacted her, we probably never would have been 
able to find her and been able to interrogate her. Can you just 
give us, from your perspective, how you contacted her, what 
meetings and what was said at that point, so we can put this 
into an appropriate perspective?
    Mr. Clemens. Yes, Mr. Congressman.
    I was told on Friday that our nanny, or sitter at the time, 
back at that time period, was wanting to--that they wanted to 
talk to her. And I reached out to her and made the phone call, 
and that was it.
    I haven't talked to her in--I don't know how many years it 
has been, but we haven't talked to her since. And I know, when 
she came to the house, it was great to see her. We hadn't seen 
her in a long time. And that is basically the conversation.
    I said, We are all trying to remember some kind of party at 
Canseco's house. I know that I golfed at that house. And I 
golfed, and then we had a golf game, and I am not totally 
positive that I wouldn't have taken back my wife and dropped 
her off at the house. I believe that the nanny was there with 
my kids; they sure could have been. They could have gone over 
there in the afternoon after the party.
    But I was focused on--what I was asked, Congressman, was 
about attending a party, so----
    Mr. Davis of Virginia. A barbecue, in particular, right?
    Mr. Clemens. Yeah, a barbecue or a luncheon or something of 
that nature.
    So could I have gone by the house later that afternoon and 
dropped my wife or her brother-in-law, the people that golfed 
with me? Sure, I could have. But at the time of the day that I 
would have expressed it to be, I was on my way to the ballpark. 
I would have had to have gotten to the ballpark extremely 
early.
    I know one thing. I wasn't there having huddled up with 
somebody trying to do a drug deal. I know that for sure.
    Mr. Davis of Virginia. This is what, 8 years ago? 9 years 
ago?
    Mr. Clemens. Yes.
    Mr. Davis of Virginia. Thank you.
    Mr. McNamee, let me ask you, did you ever use Roger 
Clemens's likeness without his permission?
    Mr. McNamee. No.
    Mr. Davis of Virginia. Have you ever obtained a doctorate 
degree from a college or university?
    Mr. McNamee. Yes.
    Mr. Davis of Virginia. Can you explain to us how you 
obtained it?
    Mr. McNamee. I obtained it when I was in Toronto at the end 
of 1998. And it was a situation where the--at the time I was 
living in Toronto, so I was looking for something I could do 
correspondence-wise. And I applied to several different 
colleges at the time, and I got accepted to Columbus University 
in Louisiana, and started to take courses in accordance to 
nutritional counseling to achieve a Ph.D. in nutritional 
counseling.
    Mr. Davis of Virginia. How many courses did you take?
    Mr. McNamee. It was 11 courses and, upon completion, a 
dissertation. I took every course, and what it was is, they 
would mail you the course work.
    I would take it, write a thesis paper at the end of the--at 
the end of--when I finished it on my time--when I did it, as 
fast as I could do it, and submit it and get graded, and moving 
forward to the dissertation work at the end of the course work.
    Mr. Davis of Virginia. Did you finish?
    Mr. McNamee. Yes, I did.
    Mr. Davis of Virginia. And did you write a dissertation?
    Mr. McNamee. Yes, I did.
    Mr. Davis of Virginia. And what was the subject of the 
dissertation?
    Mr. McNamee. The subject was weight training, 
supplementation, and improving miles per hour on a fastball 
with pitchers.
    Mr. Davis of Virginia. It would be an interesting one to 
read.
    Have you ever told law enforcement investigators that you 
held a Doctorate in Behavioral Sciences?
    Mr. McNamee. Yes.
    Mr. Davis of Virginia. That's not what your Doctorate was 
in, was it?
    Mr. McNamee. No. It is Behavioral Sciences with a 
concentration in Nutritional Counseling.
    Mr. Davis of Virginia. OK. So you held yourself out as 
doctor then to athletes?
    Mr. McNamee. Ph.D.
    Mr. Davis of Virginia. Ph.D. Can you tell us a little bit 
about the university? Does it have a campus?
    Mr. McNamee. As I found out later, no, it doesn't.
    Mr. Davis of Virginia. Is this what you call a ``diploma 
mill'' to some extent?
    Mr. McNamee. As I found out later on, yes, it is.
    Mr. Davis of Virginia. OK.
    On the checks you wrote Kirk Radomski, and printed in the 
appendix of the Mitchell Report at page D-11, you list yourself 
as Dr. Brian McNamee.
    At that point, you still feel you could hold yourself out 
in good faith as a doctor?
    Mr. McNamee. I am not sure if I follow.
    Mr. Davis of Virginia. On the checks you wrote Kirk 
Radomski you printed in the appendix there in the Mitchell 
Report, you list yourself on the checks as Dr. Brian McNamee.
    This was in good faith? You still hold yourself out as a 
doctor, right?
    Mr. McNamee. I am sure--if that was under my business 
account, then I probably did if it was a business check.
    Mr. Davis of Virginia. OK. I see my time is up. But let me 
just ask quickly, did you ask Roger Clemens' or Andy Pettite's 
permission to use pictures in one of your advertisements which 
promotes McNamee as Dr. Brian McNamee, who is widely recognized 
for his work with Roger Clemens, Andy Pettitte, Jorge Posada, 
Mike Stanton, and many other star athletes?
    Mr. McNamee. No. I never asked their permission.
    Mr. Davis of Virginia. OK. Thank you.
    Chairman Waxman. Thank you, Mr. Davis.
    Mr. Davis on our side.
    Mr. Davis of Illinois. Thank you very much, Mr. Chairman.
    Mr. Clemens, it was a pleasure to meet with you last week.
    Mr. Chairman, in your questions, you asked whether it was 
appropriate for Mr. Clemens to meet with his nanny, a fact 
witness, on Sunday before the committee spoke with her. You did 
not ask the one lawyer on the panel. So I would like to ask Mr. 
Scheeler, a former Federal prosecutor, is it usual for a client 
to meet with a fact witness, as Mr. Clemens did?
    Mr. Scheeler. No, that is not usual. I don't know any of 
the facts and circumstances about these meetings other than 
what I have heard today.
    But what I will tell you from my experience is, in the 
course of investigation what is typical, if there is a witness 
who has potentially relevant information, you have an attorney 
reach out to that witness or you have an attorney's 
investigator. What is unusual is to have the direct witness or 
principal to the controversy reach out to that, because that 
could create the impression that the witnesses are trying to 
get their stories together or something like that.
    So I would say, by far the most customary practice in a 
situation like this is, you would have the lawyer or the 
lawyer's investigator reach out to a potential witness and try 
to get the information that witness has and understand it as 
best you can.
    Mr. Davis of Illinois. Thank you very much.
    Mr. Clemens, on December 12, 2007, private investigators 
who were working for you had a meeting with Mr. McNamee to 
discuss the upcoming Mitchell Report; and although they denied 
recording the meeting, we now know that they did record it. You 
used portions of this recording when you filed your defamation 
lawsuit against Mr. McNamee, but you were selective in which 
portions you made public, and you never released the entire 
recording. Now the committee has the entire recording of that 
meeting, and I want to ask you about it.
    Without knowing he was being recorded, Mr. McNamee told 
your investigators, one, that he injected you with the steroid 
Winstrol in 1998; two, that he injected you with human growth 
hormone in 2000; and three, that he injected you with other 
steroids on multiple occasions in 2000 and 2001. Mr. McNamee 
confirmed to your own investigators virtually all of the facts 
about your alleged steroid use that were reported by Senator 
Mitchell.
    Mr. Clemens, what Mr. McNamee told your investigators in 
private confirms the basic facts that he told Senator Mitchell. 
My question is, do you think the fact that Mr. McNamee gave 
your investigators in private the same account as Senator 
Mitchell, that should be viewed as corroboration of his 
account?
    Mr. Clemens. I am not sure exactly what all he did tell the 
investigators. I heard--what I can recollect is a tape 
recording from a conversation he had with Jim Murray when I 
returned home from vacation, when I met at Randy Hendricks' 
house and with Rusty Hardin's group.
    Mr. Davis of Illinois. Yes.
    There is another part of this secret recording that you did 
not make public, Mr. Clemens. When I read the transcript of the 
secret recording, I was struck by the fact that your private 
investigators seemed to be fishing for information about what 
evidence Mr. McNamee had against you.
    For example, your investigators asked Mr. McNamee, Was 
there any kind of paper trail documentation on any of this 
stuff? They asked him also, Was anybody ever there besides you 
and Roger?
    Mr. Clemens, why did your investigators ask these 
questions?
    Mr. Clemens. Mr. Congressman, I have no idea. I didn't talk 
to my investigators. They went out and did the investigating. I 
don't----
    Mr. Davis of Illinois. OK. I have one final question----
    Mr. Clemens. Sure.
    Mr. Davis of Illinois [continuing]. About this transcript.
    One of your investigators asked Mr. McNamee this question: 
Hypothetically, if Roger Clemens said that is absolutely BS, 
none of that ever happened, is there any doubt in your mind 
that what you told us today is the absolute truth?
    Mr. McNamee answered, I told you more truth than I have 
told the Federal Government.
    The question is, why did your investigators ask Mr. McNamee 
this question and what do you make of Mr. McNamee's answer?
    Mr. Clemens. Congressman, again, I had no idea the 
investigators were doing that with the lawyers. And again, this 
man has never given me HGH or growth hormone or steroids of any 
kind, so that's----
    Mr. Davis of Illinois. So you really don't know, and you 
were not instructing them as they did their investigation?
    Mr. Clemens. That is correct. I didn't have--I wasn't a 
part of that investigation.
    Mr. Davis of Illinois. Thank you very much, Mr. Chairman.
    Chairman Waxman. The gentleman's time has expired.
    Mr. Duncan.
    Mr. Duncan. Thank you, Mr. Chairman, and thank you for 
calling this hearing. Let me say I think almost everything has 
been asked and said that could have been asked at this point, 
so I won't try to belabor this or delay it much longer.
    But I have heard some holier-than-thou types on television 
say that Congress has much more important things to deal with; 
and you know, I will say this. We all work on all these other 
important issues all the time, but a lot of them aren't as high 
profile as this, and so we don't have some of the crowds that 
we have.
    But--we are working on other major issues, too; but because 
of that, I was very interested when I read this comment this 
past Sunday in the Parade magazine. They had an article, Should 
Congress Umpire Baseball? And they said in that article--it 
said, ``Federal scrutiny, however, has led to positive changes. 
After the 2005 hearings, the sport tightened its drug policies 
and launched an extensive probe. Now Congress is pushing 
baseball to implement an investigative unit dedicated to 
steroids, independent drug testing, and better player 
education.''
    So I think some good things have come out of these 
hearings, and I think it has served as a wake-up call to many 
parents of young athletes around the country. Because they have 
heard, I think for the first time, reports of people committing 
suicide or having to have psychiatric treatment because of the 
use of steroids. So I think it has been--there has been some 
good news.
    I did see a report yesterday in the Washington Times in 
which a legal expert said that the case against Mr. Clemens was 
``very, very weak''; and those were his words. And I spent 7\1/
2\ years as a criminal court judge trying felony criminal cases 
before I came to Congress. And I would have to agree, 
particularly on the syringes. There are all sorts of chain-of-
evidence problems that I don't think those syringes would be 
admissible in almost any court in this country.
    But one thing I am not clear on--and maybe it has been 
covered because I have been in and out because of these votes--
but, Mr. Clemens, did you refuse to meet with the Mitchell 
Commission?
    Mr. Clemens. Congressman, I was not told about--to come 
down and visit with Senator Mitchell. He was--again, he was--I 
believe he asked the Players Association is the way that the 
process worked, and the Players Association then contacted 
agents.
    I don't believe any players--from what I understand, maybe 
Jason Giambi did go down. He had already talked to the grand 
jury or what have you.
    But no, sir, I was never told by my baseball agent or the 
Players Association that Mr. Mitchell requested to see me. 
Those letters or phone calls never came to me.
    But once again, if I knew what the lies this man were 
telling about, I would have been down there to see him in a 
heartbeat, without a question.
    And I would like to say again I got a little emotional--a 
little emotional in my testimony with the staff, but I am a 
public person. I am easy to find.
    When the Commissioner asked me to get myself together to go 
out there, and the league asked me to put USA on my chest and 
represent my team, my country, I did everything I could do to 
get ready. They pushed my date up to try get me ready sooner.
    I told them, I could shake hands and wave flags and sell 
tickets for you if you want me to do that, but if you want me 
on the field it is going to take longer to get this body going. 
And I did, and I went out there and I did the best I very--I 
could probably do. And I was proud to have the USA on my chest.
    When a player went down in the All-Star Game in Chicago, I 
happened to be on my All-Star break with my youngest son at a 
lake house about an hour north of my house in Houston. They 
found me.
    This player was hurt, he didn't want to pitch--collect his 
bonus, but did not want to pitch. They asked me if I would come 
pitch an inning in this game. I told them, let me talk to my 
family. But they found me.
    When all this happened, the former President of the United 
States found me in a deer blind in south Texas and expressed 
his concerns, that this was unbelievable, and to stay strong 
and keep your--hold your head up high. These people found me.
    All due respect to Senator Mitchell, I am on the same 
subject with him and steroids and baseball. But Bud Selig, that 
league, Bud Selig could have found me. If he knew that within 
days what this man said was going to destroy my name, he could 
have found me.
    I am an easy person to find. I am an easy person to find in 
the public.
    Mr. Duncan. Let me just say this, and I appreciate 
everything you have just said. You know what they have ended up 
with is a report based primarily--at least as it applies to 
you, a report based on statements by a man who unfortunately 
has admitted here several times today he has lied to law 
enforcement people and many, many others. And based on 
information of a man who I understand pled guilty in court and 
received a 5-year sentence this past Friday, it seems to me 
that there may have been some people a little too anxious to 
get this report out and get all the publicity attendant 
thereto.
    And, you know, I hate to say those things. I spent 5\1/2\ 
years as a batboy for the Knoxville Smokies baseball team--
clubhouse boy, ball chaser, scoreboard operator. I grew up in 
Minor League Baseball. And there was a bond between the batboys 
and the trainers. I hate to hear what I have heard from Mr. 
McNamee today. I think it is a sad thing.
    Anyway, my time is up.
    Chairman Waxman. The gentleman's time has expired.
    Mr. Clemens, didn't you meet with your investigators before 
the Mitchell Report was out and hear what the Mitchell Report 
was going to say?
    Mr. Clemens. I heard a tape that was taped by Jim Murray. 
And again, I don't know how many days. It was when I got back--
--
    Chairman Waxman. I just want to clarify that.
    So you did know before the Mitchell Report came out that it 
was going to talk about you?
    Mr. Clemens. I found out on, I believe--again, I don't know 
the day of the week--maybe a Wednesday.
    Chairman Waxman. Mr. Braley.
    Mr. Braley. Thank you, Mr. Chairman. I would ask unanimous 
consent to submit as part of the record Report 9 of the Council 
on Scientific Affairs from the American Medical Association on 
hormone abuse by adolescents. And also Policy H-478.976, the 
use of anabolic steroids, which is an ethical policy of the 
American Medical Association.
    Chairman Waxman. Without objection, we will receive it for 
the record.
    [The information referred to follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Braley. Mr. McNamee, I was very pleased to hear you 
admit that you were ashamed for your conduct in this whole 
affair. I think that this report on hormone abuse by 
adolescents includes the conclusion that survey data indicates 
that middle and high school students have been using anabolic 
steroids since the mid-1970's; and national surveys indicate 
that the use is increasing among high school students, 
particularly among females, and I find that very disturbing.
    I got a text message from my 16-year-old son during this 
hearing, because he is home sick and he is watching this on 
ESPN, like many young people. And the example that you have 
given by working with highly paid, visible, professional 
athletes, and encouraged them to engage in illegal behavior for 
the purpose of enhancing their performance is shameful and 
something that everyone should be condemning. And I hope that 
you will take the rest of your life going out and educating 
young people about the dangers of steroid usage.
    Mr. Clemens, I know we talked at length about this whole 
issue of whether you have ever taken steroids and HGH, and I am 
not going to talk to you about that. But I am going to tell you 
I am concerned about your testimony of the use of B-12 
injections and Lidocaine, and I am going to talk to you about 
that.
    You testified in your deposition that Mr. McNamee injected 
you with B-12 in Toronto, in its weight room; and that he 
injected you without a prescription, and you didn't know 
whether he was even authorized to give those injections. Do you 
remember that testimony?
    Mr. Clemens. That is correct.
    Mr. Braley. Have you ever been diagnosed with anemia?
    Mr. Clemens. I have not.
    Mr. Braley. Have you ever been diagnosed with senile 
dementia or Alzheimer's?
    Mr. Clemens. I have not.
    Mr. Braley. Have you ever been a vegetarian?
    Mr. Clemens. I am not a vegetarian.
    Mr. Braley. Have you ever been a vegan?
    Mr. Clemens. A what? I'm sorry.
    Mr. Braley. A vegan.
    Mr. Clemens. I don't know what that is. I'm sorry.
    Mr. Braley. Well, there's a very simple explanation why I 
asked you those questions because the medical literature has 
indications for B-12 injections because most people have B-12 
occurring naturally in their systems and ingest it all the time 
from other substances. And the scientific literature is very 
clear that it is indicated in an injection form only for 
patients suffering from anemia, low red blood cell counts or 
elderly patients who are experiencing senile dementia and 
Alzheimer's. And the research maintains that monthly injections 
of B-12 is required to maintain adequate levels in the elderly 
and patients with a diagnosed deficiency. You have clearly 
never been diagnosed with a deficiency. So the question for you 
is, why were you taking it?
    Mr. Clemens. Well, my mother in 1988 suggested I take 
vitamin B-12. And Congressman, again, on the professional 
level, my body's been put through the paces. I was always 
assumed--and it's a good thing, it's not a bad thing. In the--
and I've--again I think it's fairly widely used. Again I take 
B-12 in pill form. But yeah, I mean I look at it as, you know, 
something to--it's healthy.
    Mr. Braley. You also testified that Mr. McNamee gave you 
chiropractic adjustments. Do you remember that?
    Mr. Clemens. I do.
    Mr. Braley. Are you aware that he is not a doctor of 
chiropractic?
    Mr. Clemens. Congressman, when I had my back adjusted in 
different points of my career, I've had some chiropractors that 
have given me--what I would explain--I would--put it this way, 
when I would lay down on the table on--with a couple of the 
chiropractors, I would hope that my lower back did adjust or 
crack, if you will. If it didn't the first time, the guy--he 
was either embarrassed or something. But he jumped on me like 
he was trying to start a Harley-Davidson, that's how hard it 
was. I explained this to Brian McNamee. And he said, I should 
be doing that for you. Again, another trusted guy who had a 
Ph.D. and I had no reasons not to trust him, just like other 
trainers and doctors and physicians.
    Mr. Braley. That's what I'm trying to get to. You also 
testified he gave you a lidocaine injection in your low back 
when you were having low back problems. Do you remember that?
    Mr. Clemens. That's correct.
    Mr. Braley. Did you ever administer a test dose of 
lidocaine before he gave you the full dosage?
    Mr. Clemens. The amount he gave me did give me comfort, 
yes.
    Mr. Braley. Did he give you--did he have you hooked up to 
an EKG monitor when he gave you that dosage?
    Mr. Clemens. No, he did not.
    Mr. Braley. The problem I'm having, Mr. Clemens, is these 
are medical procedures we are talking about, regulated 
professional activities, and you are getting treatments from 
someone who has no medical licensure to even administer these 
injections or to perform chiropractic care. And I guess I have 
a question, as a highly paid professional athlete why you would 
trust your body, which puts food on your table and takes care 
of your family, to somebody who has no professional training to 
take care of you?
    Mr. Clemens. Again he told me that he was a Ph.D. and I do 
trust him. I am a trusting person. Congressman, I would not 
doubt any of the trainers or doctors that would--I would trust 
them not to harm me, just like you are talking about. I would 
trust them not to harm my body.
    Mr. Braley. Thank you.
    Chairman Waxman. The gentleman's time has expired. Mr. 
Issa.
    Mr. Issa. Following up on that, it seems like Ph.D. must 
stand for ``pile it higher and deeper.'' Isn't it true, Mr. 
Clemens, that Mr. McNamee was at times paid by professional 
baseball in addition to the work he did for you?
    Mr. Clemens. That's correct.
    Mr. Issa. So shame on professional baseball with their tens 
of millions of dollars of experts for doing that. And quite 
honestly for my colleague, yesterday I told the committee in 
front of a hearing about my mother getting B-12 shots from our 
family physician. She was pre-menopausal and simply a little 
anemic she thought. And the scientist who was the foremost 
expert we could find on B-12 basically told us there's not a 
really good test for a small deficiency. So the truth is, 
taking it, which cannot hurt you, might help you. And it's not 
easily tested for.
    But of course that was yesterday's hearing. Now we go to 
today's. I'd like to thank the chairman and ranking member for 
the past work they've done. In looking through the Mitchell 
Report I find that throughout the early eighties under Kuhn and 
then Peter Uberoff we had a rampant problem with cocaine and 
other drugs being abused. And little or no ramification for it. 
Years of work went by. And in 2002 they had a major contract 
negotiation, oddly enough with the same Don Fehr who was the 
union negotiator. And they got an agreement with no teeth in 
it. So it was due to the chairman and ranking member's work in 
2005. But I believe we can all say that baseball had begun 
cleaning up with real testing and real enforcement. And for 
that, I'm really thrilled.
    Last, I'm very thrilled that the chairman announced this 
will be the last hearing on baseball for the time being. And I 
think that's appropriate. I think we've done our job. But since 
we have the Mitchell Report in front of us and since a portion 
has been brought into question I'd like to focus us back onto 
the Mitchell Report. And I'll start with you, Mr. Clemens.
    Do you believe other than the allegations of some areas 
that you say are incorrect as to you, that as far as you know 
the rest of the report is accurate, well done and reflects the 
need to clean up baseball?
    Mr. Clemens. Congressman, I have not read the entire 
Mitchell Report. But along the lines that you are speaking, I 
do believe baseball's going in the right direction. I believe 
that the testing is--is good, it's intrusive. I wish I could 
remember the--I believe it was one of the Congressmen or women 
that brought something up that I do that was surprising to me 
that there was a study about the players getting the Ritalin. 
And again, I'm not an expert but if it's--if it's some type of 
speed, I think that needs to be possibly looked into. But I do 
believe that baseball's going in the right direction.
    Mr. Issa. Excellent. Mr. Scheeler, you have read the report 
obviously and are a participant in it. Do you believe that 
other than this area that we're dealing with today that you 
stand by your report and believe that it is good work?
    Mr. Scheeler. We stand by our report with respect to the 
entirety of it, yes.
    Mr. Issa. Even though Mr. Canseco says that there are 
material flaws in it and he's presented information--I mean, I 
guess the question is, do you--you're saying you stand by it, 
including allegations by third parties that there are--there 
are flaws, including video of saying that in a sense that Mr. 
Clemens wasn't at a particular place that you say he was at. 
You don't see that as at least opening the door for some small 
doubt on a small portion of this report?
    Mr. Scheeler. I stand by the report.
    Mr. Issa. OK. That's fine. And to be honest, the part I 
wanted was, you think you did good work. Mr. Clemens thinks for 
the most part you did good work. Mr. McNamee, I realize that 
you're both a principal and a participant. Do you think this 
report is good, leaving aside for a moment one area of 
controversy?
    Mr. McNamee. I believe the report is good.
    Mr. Issa. OK. Now do you think that the lies you've told 
repeatedly have called into question the one portion that we're 
having this hearing on today? Just the credibility question of 
you. Has that hurt the ability for the people in this committee 
to believe this one small portion?
    Mr. McNamee. No, it shouldn't.
    Mr. Issa. OK. And so you don't believe that the numerous 
lies that you've told and admitted to, that Jose Canseco's 
saying that you're lying about steroid pills being given, you 
don't believe that the series of e-mails in which you 
repeatedly asked for even while cooperating with the 
investigation, asked for an endless series of freebies for 
people on behalf of Roger Clemens, things like Under Armour 
where you asked for all sizes, big and small, back in 2006, in 
2005 where you know you said you were suing, contemplating 
suing. But of course that wasn't a real threat. Or the L.A. 
Times in 2007. You don't believe that any of those are the 
reason, that although we all agree that this is generally a 
good report and it closes a sad history, you don't believe that 
creates a situation today in which we'd like to close this 
report without your testimony and without believing you because 
you don't seem to be believable? You don't see that as even 
remotely possible?
    Chairman Waxman. The gentleman's time has expired. But 
please answer the question.
    Mr. McNamee. No, no, I don't.
    Mr. Issa. Well, shame on you.
    Chairman Waxman. Thank you, Mr. Issa. Mr. Westmoreland.
    Mr. Westmoreland. Thank you, Mr. Chairman. Let me start off 
by saying that 2 years ago when this committee held hearings on 
this issue I supported that decision because we have 
jurisdiction over our Nation's drug policy. But I think it's 
important that we be very careful over how we exercise that 
jurisdiction. And I'm convinced that this hearing today is a 
shift away from questions about widespread use of steroids in 
baseball. And instead focuses on alleged wrongdoing by 
individuals. I certainly hope that in the future we'll be real 
careful about how to approach situations like this one because 
if we called everybody in sports that's ever been accused of 
doing steroid before this committee then we would shut this 
down and hold nothing but hearings with athletes that have been 
accused of using performance-enhancing drugs. That's not our 
role in this process, and I certainly hope this show trial will 
teach us that very valuable lesson. The name of our committee 
is Oversight and Government Reform. And I hope that there are 
more important things for oversight and reform of this 
government than alleged bad behavior of individuals.
    Mr. McNamee, in your opening statement, you indicated that 
your decision to release the so-called evidence of bloody gauze 
pads and syringes supposedly of Mr. Clemens was because you 
believe Mr. Clemens betrayed your trust when he recorded a 
phone conversation that the two of you had, I believe on 
January 6, 2007. You said just this morning that what angered 
you most about the recording of that conversation was that the 
entire country heard about your son's private medical 
condition, and yet 15 minutes after making that statement, 
Ranking Member Davis asked you about that taped phone 
conversation. He asked you why you repeatedly said what do you 
want me to do every time that Mr. Clemens told you that he 
wanted the truth. You told Congressman Davis that it was 
because you knew the conversation was being taped. If you knew 
the conversation was being taped, then why would you talk about 
the private medical condition of your son?
    Mr. McNamee. It wasn't so much that I could be sure that 
Roger was taping it, but I didn't know who was listening to it. 
And I didn't think he would air it on national TV.
    Mr. Westmoreland. Well, furthermore, if you knew it was 
being taped, wouldn't it have been the perfect opportunity to 
tell Mr. Clemens that you did tell the truth, that instead of 
saying repeatedly, what do you want me to do, you would have 
said, Roger, I've told them the truth. I mean, isn't this a 
conversation that you were having with Mr. Clemens about what 
the truth really was?
    Mr. McNamee. The conversation was for him to call my son.
    Mr. Westmoreland. Sorry?
    Mr. McNamee. I didn't need to speak to Mr. Clemens. I asked 
him to call my son. The conversation, he asked me to call his 
office. I called his office with the hopes that he would call 
my son.
    Mr. Westmoreland. But during that conversation, you did ask 
him what you wanted--what did he want you to say and did he not 
tell you that he wanted you to tell the truth?
    Mr. McNamee. As I--I said to--in the original statement 
that I did in my own way, as I speak. And if you had known me, 
you would have known what I meant to the answer of that 
question. It is what it is, the truth is the truth. So what I 
said was the truth.
    Mr. Westmoreland. What you said was the truth. But you 
never told Mr. Clemens that what you said was the truth. When 
he asked you to tell the truth, why didn't you just say in 
plain English so everybody could have understood you that----
    Mr. McNamee. If I had known he was going to air it on 
national TV, I would have said, I did tell the truth. But as 
far as him taping a conversation and releasing personal 
information on my son, I wouldn't have said that if I knew it 
was going to be aired on national TV and I would have said I 
did tell the truth. But it is what it is.
    Mr. Westmoreland. That depends on if you--it is what it is 
means I guess. Mr. McNamee, when you first spoke to the 
government about this matter, did they threaten to prosecute 
you for dealing drugs or maybe practicing medicine without a 
license?
    Mr. McNamee. No, sir.
    Mr. Westmoreland. They did not? When you first spoke with 
the government about this case, did they tell you that they 
already knew that Roger Clemens used steroids or human growth 
hormone?
    Mr. McNamee. No, sir.
    Mr. Westmoreland. When you first spoke to the government 
about this case, did they pressure you into saying that Roger 
Clemens used steroids or human growth hormone?
    Mr. McNamee. Not so ever.
    Mr. Westmoreland. Mr. Clemens, you have said publicly that 
baseball should have done more to give you a chance to address 
these allegations. And I just heard some more of that a while 
ago. And Senator Mitchell sent a letter to the players union 
advising that there have been allegations made against you for 
use of performance enhancing substances between 1998 and 2001. 
No. 1, I think you need to explain why you didn't respond 
because they didn't try to get in touch with you. But is there 
something more that baseball should have done to respond to 
this? And to inform the players that were mentioned in the book 
that this was going to come out?
    Mr. Clemens. Well, from my understanding, the Mitchell 
people made a phone call back to Mr. McNamee to go down the 
list of everything that he said. And again, my stance is I 
believe baseball is doing the right thing. I think with our 
testing and everything is going in the right directions. Again, 
Mr. Mitchell, what it says in the report, I was not made aware 
that he wanted to speak to me.
    Mr. Westmoreland. Well, Mr. Clemens, is it fair to say that 
Mr. Selig or somebody from the players union would have known 
about how to get in touch with you?
    Mr. Clemens. Without question. I alluded to that, Mr. 
Congressman, early about how I felt about that. And once again, 
I believe being one of the more visible players in the game 
over the last years, that courtesy would have been extended to 
me.
    Chairman Waxman. The gentleman's time has expired. Mr. 
Tierney.
    Mr. Tierney. Thank you, Mr. Chairman. Mr. Scheeler, we've 
given Mr. McNamee and Mr. Clemens an opportunity to discuss 
what we saw as inconsistencies. I want to talk to you for a 
second. In a defamation suit that was filed by Mr. Clemens, he 
criticized the investigative tactics--of your investigative 
tactics. He alleged that the interview with Mr. McNamee was 
conducted like a cold war interrogation. He says that a Federal 
agent just read Mr. McNamee's previously obtained witness 
statement and had Mr. McNamee confirm each statement. The 
implication was that you didn't question Mr. McNamee to assess 
his credibility. Mr. Clemens' lawyers made this claim, they 
said our understanding is the only in-person interview with the 
chief accused of McNamee, it is our understanding that the 
prosecutors made the deal, asked the questions in front of 
Senator Mitchell. They indeed asked leading questions and 
simply asked McNamee to affirm what he had previously said. So 
in essence he was on a short leash with those who had of course 
challenged and can take away his liberty. We have no reason to 
believe whatsoever--maybe we're wrong--that Senator Mitchell's 
people asked questions, that they asked questions in a setting 
that was really conducive for McNamee to lay out what really 
happened as opposed to the prosecutors themselves asking it. 
What is your response to that, Mr. Scheeler?
    Mr. Scheeler. That account is absolutely incorrect. We 
interviewed Brian McNamee three times. The first interview 
occurred in July 2007. It was at Senator Mitchell's law office 
in New York. Present were Mr. McNamee's counsel, Senator 
Mitchell and members of his staff, including me, as well as 
some Federal law enforcement officials. At the very outset of 
the interview, Mr. McNamee was informed that he faced criminal 
jeopardy only if he failed to tell the truth. Senator Mitchell 
could not have been more clear in following up on that, saying 
that all Senator Mitchell wanted was the truth and the complete 
truth. After that introduction, Senator Mitchell asked the 
lion's share of the questions. And the interview with Mr. 
McNamee proceeded much as many of the other 700-plus interviews 
that we conducted were. Just seeking to find the truth. I 
occasionally asked a question. Federal law enforcement 
officials occasionally asked a question. But for the most part, 
it was Senator Mitchell doing the questioning. And he made 
clear he wanted the truth and the Federal law enforcement 
officials made clear that Mr. McNamee faced criminal jeopardy 
if he failed to tell the truth.
    There was then a second interview by phone in October 2007. 
Again, these same warnings were provided to Mr. McNamee. And 
again, we went over the information.
    Finally, there was a third interview in November 2007. At 
that time I read to him the statements in the draft report 
which we had attributed to Mr. McNamee to make sure that they 
were 100 percent accurate. We told him at that time, this is 
what we understood he had told us before. If there was any 
corrections, we wanted to correct it because we wanted the 
information to be 100 percent accurate as best he could recall. 
He made a couple of minor corrections immaterial to these 
proceedings and then we went forth from there.
    Mr. Tierney. Just so we're all clear on this, the first in-
person interview, Senator Mitchell was not just reading 
questions from a transcript of something that had transpired 
between the Federal investigators and Mr. McNamee. He actually 
created his own questions and asked those, is that right?
    Mr. Scheeler. That is absolutely correct.
    Mr. Tierney. I'm just going to wrap up. I don't have any 
more questions on this. Obviously this is a hearing to try and 
assess the efficacy of that Major League Baseball report. And 
we have all tried--certainly I have tried to come here with an 
open mind, and provide everybody an opportunity to address what 
seem to be apparent inconsistencies in a lot of the testimony. 
We've heard questions about those inconsistencies. Some of the 
troubling things that are still out there are mindful that Mr. 
Knoblauch confirmed Mr. McNamee's statements, that Mr. Pettitte 
confirmed them, that in contemporaneous conversations 
apparently that Mr. Pettitte had with his wife, she confirms 
that those conversations with Mr. Pettitte occurred. Some of 
the questions about Mrs. Clemens taking the HGH and having side 
effects and no followup on that. I just think there's a lot of 
open questions on Mr. McNamee's credibility as well. We'll have 
to go back to the record and take a look at all the transcripts 
on these things to make a decision.
    I do make note though, Mr. Chairman, it made an opportunity 
for people not to have a hearing on this. I hope that the 
hearing that now has transpired has satisfied all of the 
witnesses here that they've had their opportunity to address 
any of the inconsistencies or uncertainties.
    I thank the chairman for conducting the hearing, Mr. Davis 
for his participation and cooperation as well. And I yield 
back.
    Chairman Waxman. Thank you, Mr. Tierney.
    Mr. Souder. Mr. Chairman, I have a parliamentary inquiry.
    Chairman Waxman. Yes, Mr. Souder.
    Mr. Souder. Both Mr. Burton and Westmoreland and much of 
the national public when they heard the taped conversation live 
on national TV heard this expression, it is what it is. And 
none of us are prototypical New Yorkers. I asked a New Yorker 
on the floor, and he said that is a not only Mr. McNamee 
expression but a New York expression for telling the truth. 
Would it be appropriate in the record to have some discussion 
of that phrase because it's a very pivotal phrase that has been 
nationally debated?
    Chairman Waxman. We'll hold the record open if you want to 
submit some documentation. And whatever it is, it is, we'll put 
it in the record. Ms. Foxx.
    Ms. Foxx. Thank you, Mr. Chairman. I appreciate this. I 
have said to the chairman myself personally that I am very 
concerned with the direction this committee has gone in the 
last year or so because I think we've been playing gotcha 
games, and I don't agree with that. I think there are billions 
of dollars being wasted every minute by the Federal Government 
and what this committee ought to be doing is looking, doing 
government oversight. And we're not doing that. I am not a fan 
of holding these hearings on issues we have no business dealing 
with. However, I think since we're here, it's important to try 
to get some questions answered. But I really wish we would get 
back to what our job is, which is government oversight and 
accountability.
    I'd like to ask you, Mr. McNamee, a couple of questions. 
And then, Mr. Clemens, I'd like to ask you a couple. Mr. 
McNamee, are you planning on trying to make money off of this 
situation?
    Mr. McNamee. No, I'm not.
    Ms. Foxx. Are you writing a book or do you plan to write a 
book?
    Mr. McNamee. No, ma'am.
    Ms. Foxx. You don't have any deals in the works with book 
publishers at all?
    Mr. McNamee. No, ma'am.
    Ms. Foxx. OK. We'll see.
    Mr. Clemens, I'm sorry and I apologize to all three of the 
witnesses that we've been pulled out to go vote and I have not 
been here for all of the testimony. And I apologize for that. 
But I thank you all for spending your time here.
    Well, let me go back. Mr. McNamee, I want to ask you one 
more question. In the Mitchell Report you say that Mr. Clemens 
used HGH in 2000, but that he didn't want to use it again 
because he didn't like it. If that's the case, why would he 
possibly want to have his wife injected with it, which is what 
you've alleged?
    Mr. McNamee. I just--he asked me to instruct her on how to 
do it. She continued to use it on her own, and I--you're asking 
the wrong person.
    Ms. Foxx. OK.
    Mr. Clemens. Congresswoman, if I may, my wife has been come 
into question here. Can I read a statement from my--from my 
wife, please?
    Ms. Foxx. Certainly.
    Mr. Clemens. If I may. This is from Debbie Clemens, my 
wife, who is here in the room with me. I'm not sure of the 
dates but I read a news article about the benefits of growth 
hormone. During that same week talking about the subject openly 
Brian McNamee, who was at our house in Houston training people, 
approached me to tell me about the article. She said, he said 
it was not illegal and used for youthfulness. The next mid-
morning he said he had--he had some and would be able to give 
me a test shot. He gave me one shot. He later left the house on 
his way to the airport. During that time Roger was not at home 
and I didn't have the opportunity to tell him about it later 
that evening when he arrived home. In telling Roger about that, 
that evening, I was also having circulation problems with 
itching. It happened the following night, just not as bad. I 
was very comfortable in trying it but it was a harmless act on 
my part. Also since McNamee had a Ph.D. he was a trusted good 
trainer. Roger said let's back off this. We need to know more 
about it. And she agreed. She really didn't need it. She has 
been broken up over this for a long time and she's said to me 
now she feels like a pawn amongst his game.
    I would have never instructed Brian McNamee to give my wife 
these shots. Once again, I don't know enough about growth 
hormone. I would suggest that young kids, kids of all ages, 
athletics, I don't know enough about it. It doesn't help you. 
But I also have heard--again, different news articles where 
people for quality of life have used this product. I have 
learned more about growth hormone in the last month than I ever 
have known. I'm offended again that I--that I was instructed 
and I think he said earlier it was his instruction earlier in 
the day that I instructed him to give my wife growth hormone.
    Ms. Foxx. Thank you. I have four photographs here I'd like 
to you look at. We don't have the exact dates on them. But this 
photo was taken somewhere around 1995-1996, this one 1998. The 
one over here between 2000-2002. And this one here sometime 
between 2004 and 2006. Mr. Clemens, you know, I am not an 
expert in any of these issues, but you appear to me to be about 
the same size in all of those photos. These were taken before 
the accusations that you took human growth hormones. They were 
taken during the time that you are accused of taking them and 
after that. Again, it doesn't appear to me that your size has 
changed much in these four photos.
    Perhaps you'd like to talk a little bit about your regime 
of conditioning that you go through. I know that you take it 
very seriously. And maybe you'd like to say something about how 
hard you work at keeping yourself in shape and how that would 
result in the stamina and body build that you have.
    Chairman Waxman. The gentlewoman's time has expired. If you 
want to answer briefly.
    Mr. Clemens. Thank you, sir. Congresswoman, yes. When all 
these false allegations came out about me, I told them to go 
talk to the trainers and the people around me that know me the 
best. My body didn't change. I didn't start throwing harder. 
The fact of the matter is, I started locating better as a 
pitcher. I think this has gotten a lot of mileage out of it. A 
general manager in Boston, who we'll leave his name out of it 
because he's got a ton of mileage out of this--said--he made 
what I feel is a smart-aleck comment, remark that I was in the 
twilight of my career. And in that 1996 season when I was in 
the twilight of my career, I tied my own single season record 
of 20 strikeouts, I led the league in strikeouts that year. I 
was in the top 10 in innings pitched and ERA. And if I was in 
the twilight of my career, I doubt that the Toronto Blue Jays' 
ownership would have made me the highest paid pitcher in the 
game of baseball the following year. That following year, 1997, 
I won the Triple Crown award of baseball, which is pitch wins, 
ERA, and strikeouts. And that's before I met Brian McNamee. 
Once again, it bothers me greatly that he has taken his Ph.D. 
and gone out and from what I've learned he's coached high 
school kids or college people, he told me Wall Street guys.
    Chairman Waxman. Mr. Clemens, you don't know whether this 
is true or not. The question you were asked is, do you have a 
physical regimen for physical exercise. Do you? You've been 
very successful as a baseball player. So you keep yourself in 
good shape, don't you?
    Mr. Clemens. Without question. I take a lot of pride in it.
    Chairman Waxman. I see that. Thank you very much. Mr. 
Murphy's time now.
    Mr. Murphy. Thank you very much, Mr. Chairman. And thank 
you to all three of you for sustaining yourselves over this 
long period of time. It's clear that someone's not telling the 
truth here. And I don't think I can invent or create any new 
questions to try to get at that, that answer. So I want to step 
back for a moment and ask a couple questions to Mr. Scheeler 
and to Mr. Clemens about how we got here and really where we 
move forward from here.
    Mr. Scheeler, we had some discussion earlier about the 
notice that was given to Mr. Clemens and people that work for 
him. And there certainly seems to be some degree of confusion 
about who knew, why that information didn't get to Mr. Clemens, 
why conversations did not happen between Mr. Clemens and the 
committee staff. Can you just address this issue as to how 
notice was given and why there wasn't potentially more 
aggressive effort made to try to get Mr. Clemens to come in and 
address some of these before his name was included along with 
the information in the report.
    Mr. Scheeler. Certainly. From the very first day of the 
investigation, as a matter of fact, a press conference in which 
the investigation was announced, Senator Mitchell made it clear 
that he would give any person about whom allegations were made 
an opportunity to respond before anything was printed. As a 
practical matter, we were informed by Major League Baseball 
that all communications with current players, such as Mr. 
Clemens, had to go through the players association. Those were 
the union rules and we played by the rules. So in the summer of 
2007, Senator Mitchell sent a letter to the Major League 
Baseball Players Association in which he requested the 
interviews of Roger Clemens and a number of others and in which 
Senator Mitchell stated that we had evidence that Mr. Clemens 
had used performance enhancing substances during--some time 
during the period of 1998 through 2001. We received a letter 
back on August 8, 2007 from the players association in which 
they stated, the following players have asked us to inform you 
that they respectfully decline your request for an interview at 
this time. Roger Clemens and several others.
    We did not stop there, however. In October 2007, Senator 
Mitchell, myself, and others had a meeting with mayors--members 
of the players association, because the players association had 
stated that they weren't clear on Senator Mitchell's invitation 
that any player who came in would be provided the evidence, 
which was--which had been--the allegations which had been 
stated against them, shown any checks, shown any money orders, 
shown any corroborating evidence and then be given a full and 
complete opportunity to respond. So we had that meeting with 
them in October and then we sent another letter, Senator 
Mitchell sent another letter to the players association on 
October 22 in which he stated, to be clear, I have been and 
remain willing to meet with any player about whom allegations 
of performance enhancing substance use had been made in order 
to provide those players with an opportunity to respond to 
those allegations. During the course of any such interview, I 
will inform the player of the evidence of his use, including 
permitting him to examine and answer questions about copies of 
any relevant checks, mailing receipts or other documents and 
give him an opportunity to respond. Five weeks later Senator 
Mitchell received another letter from the players association, 
indicating that the players had been recontacted and they said 
some had been in direct contact with you, with Senator 
Mitchell, which was accurate, some had. On behalf of the 
others, we report that they continue to respectfully decline 
your request.
    So I would submit that given the limitations which we had, 
which is to say we were required by the collective bargaining 
agreement to do our communications through the players 
association, we made repeated requests to Mr. Clemens and 
others and we got three declinations. I would also add we 
sent--Senator Mitchell sent a letter to all players, including 
Mr. Clemens, which was--which were provided, asking anyone who 
wanted to come in and provide any information about steroids 
that they could come in.
    Mr. Murphy. I want to turn this over to Mr. Clemens not on 
the specific issue of notice--not on the specific issue of 
notice but this to me--and I think to a lot of baseball fans 
out there seems to be another instance in which a lot of people 
are doubting the strategy and tactics of the players union. And 
listening to the testimony that they gave before this committee 
several weeks ago in which they made a claim, Mr. Fehr made a 
claim essentially that the sole reason for the existence of the 
players union was to represent the employment rights of the 
players, not necessarily to represent the best interests of 
baseball.
    I'd be interested, Mr. Clemens, just to get your sense on 
your opinion of how the players association and the union has 
conducted themselves in this process and whether you have 
criticisms of the players association's willingness to sit down 
at the table. Because it's going to be their ability to move 
from these hearings to sit down at the table and solve this 
that's going to be the legacy of these hearings and this issue 
going forward. I'd be interested in your opinion on that issue.
    Mr. Clemens. Congressman, thank you. I never received any 
of those letters on that topic there. And I'd--again, I believe 
the--that baseball--the players association, the committee, I 
think everybody's working in the right direction to clean up 
our sport of baseball and sports in general. I think it is very 
important that there's--we send a message to the young kids 
about that. And I believe that the players association is well 
aware of that and I believe it's going in the right direction.
    Mr. Murphy. But Mr. Clemens, you don't think the players 
association might have had a responsibility to make sure that 
you were notified that you were being offered a chance to talk 
to the Mitchell Commission? It seems to me as potentially the 
highest profile player that they received notice regarding, 
they had a little greater obligation than to just tell people 
that worked for you. I mean, if I were you I would be angry not 
just at the people who worked for me but I would be pretty 
angry at the players association as well.
    Mr. Clemens. I understand. And from my understanding, they 
asked Senator Mitchell and his people, staff, what have you, 
what it was concerning. And they said they would not tell them, 
just to come down. That's what I--that's what I got.
    Chairman Waxman. Thank you, Mr. Murphy.
    Ms. Foxx. Mr. Chairman.
    Chairman Waxman. Mr. Shays.
    Ms. Foxx. I have a parliamentary inquiry, too, if I could. 
Mr. Scheeler, I want to get a clarification on something you 
said and then ask if we can make sure that we have exactly what 
you're saying. You said that you--that Senator Mitchell sent a 
notice--and this is how I wrote it down. We had evidence that 
Mr. Clemens had used performance enhancing drugs or something. 
But the key word here is ``evidence.'' You said, we had 
evidence that he had used it. You didn't say we had allegations 
that he had used it. Now I don't know technically evidence 
allegations but it seems to me that you all had made up your 
minds before you ever talked to Mr. Clemens. Is that a 
technical term, we had evidence, wouldn't it----
    Chairman Waxman. That isn't a parliamentary inquiry, but 
you asked your question.
    Mr. Issa. It's a great question.
    Mr. Scheeler. Let me--just so there's no misunderstanding, 
let me just quote what the letter said. This is a July 13, 2007 
letter to the general counsel of the players association. We 
listed a number of players. And for Roger Clemens we stated, we 
have received information that this player allegedly used 
performance enhancing substances sometime between 1998 and 2001 
while a member of the Toronto Blue Jays and New York Yankees. 
Now there were a number of other players mentioned as well. We 
have not----
    Ms. Foxx. Mr. Chairman----
    Chairman Waxman. I'm sorry. But we have to follow the 
regular order. And each Member has 5 minutes and you've had 
your 5 minutes.
    Ms. Foxx. Well, Mr. Chairman, I just want to say that this 
is part of the problem here.
    Chairman Waxman. I'm sorry to be rude. But I think I've 
been more than generous and I don't think it's fair. Other 
Members aren't getting extra time to do that. We're only going 
one round.
    Mr. Cummings.
    Mr. Cummings. Thank you, Mr. Chairman. Mr. Clemens, I want 
to come back because I've got to tell you that of all the 
testimony and the things that I've read, and if I had to--if I 
walked in here and it was even Steven between you and Mr. 
McNamee, I must tell you that the person I believe most is Mr. 
Pettitte. You admit yourself that he is a good guy. He's a 
truthful guy. And there have been a number of things that make 
his testimony and his deposition and that--and his affidavit 
swing the balance over to Mr. McNamee. I've got to tell you. 
And part of it comes from your own words.
    Now let me go back. This is about a conversation not 
regarding HGH but steroids. Mr. Pettitte told us about a 
conversation that took place in Mr. Pettitte's home in 2003-
2004. Mr. Pettitte told us that Mr. McNamee said, ``he had 
gotten steroids for Roger.'' Let me read to you from the 
transcript of the deposition with Mr. Pettitte. Question: Did 
you have any reason to think Mr. McNamee wasn't being straight 
with you about that? Answer: No. I had no reason to think that. 
Question: Were you surprised? Answer: Yes. Surprised me when he 
said that. That was the first time I had ever heard him say 
anything about steroid.
    Mr. Clemens, you have stated that Mr. McNamee is lying 
about the use of steroids. If he is lying now, why would he 
have told Mr. Pettitte in 2003-2004 about your use of steroids?
    Mr. Clemens. Congressman, I have no idea. Again, Mr. 
McNamee never told me about Andy Pettitte using HGH. The 
running theme that I know of is that every time something came 
up--again, that conversation with Jim Murray, Brian McNamee 
said I'm trying to warn you but don't tell Roger. So I have no 
idea. All's I'm telling you is if Andy--Andy Pettitte thought 
that I had used HGH, our relationship was such that he would 
have come to me.
    Mr. Cummings. OK. You told us that several times. I got 
that. I understand. Let me go on to this. I've listened to you 
and I've listened to you carefully. Again, I'm trying to see 
where to strike a balance. I have two people who are saying 
kind of opposite things. I'm looking for an independent source 
to help me try to figure out which side to believe. And I've 
got to tell you, one of the most interesting things--and Mr. 
McNamee said it, it's been borne out in the depositions--is 
that when McNamee gave testimony about Knoblauch and Pettitte, 
those allegations were borne out to be true. And for some 
reason, your guy, who you admire, who you think is one of the 
greatest guys and honest guy and everybody says he's a 
religious guy, when he--although he--when it comes to you, it's 
a whole another thing. You following what I'm saying? So you 
are saying Mr. McNamee lied about you but he didn't lie about 
the other two. How do you explain that?
    Mr. Clemens. Again, Congressman, I am--I am certain that 
when Andy Pettitte--when Andy Pettitte used HGH, why didn't he 
tell me that he used HGH? I never learned about any of this. I 
am--Andy and I are close friends. We were playing travel mates. 
If he misheard me on a subject that I was talking about, some 
gentleman's using HGH for quality of life like I stated, then 
he misunderstood that. I'm telling you in--again, that he 
should have had no doubt in his mind when he came into the 
locker room when the Mitchell Report was--the L.A. Times report 
was released about having us implicated in that ordeal, he sat 
down and looked at me. I still at that time did not know----
    Mr. Cummings. My time is running out. I hear you, but my 
time is running out.
    Mr. Clemens. Again, he looked at me wringing his hands, 
white as a ghost and asked me, what are you going to tell them? 
I told them, I'm going out there to tell the truth. I didn't 
use any of that stuff. That alone should have took Andy off of 
any kind of wavering of whatever he had.
    Mr. Cummings. As I said before, I have listened to you very 
carefully and I--I take you at your word. And your word is that 
Andy Pettitte is an honest man and his credibility pretty much 
impeccable. Your lawyer says the same thing. But suddenly--and 
the committee gave him time after time after time to clear up 
his testimony and he consistently said the same thing under 
oath. Not only that, his wife, he goes and tells his wife 
everything and she says the same thing. But suddenly he 
misunderstood you. All I'm saying is it's hard to believe, it's 
hard to believe you, sir. I hate to say that as--you're one of 
my heroes. But it's hard to believe. Thank you.
    Chairman Waxman. The gentleman's time has expired. Mr. 
Shays.
    Mr. Shays. Thank you, Mr. Chairman. Thank you and Mr. 
Ranking Member for beginning these hearings in 2005. I felt the 
initiation of these hearings were spectacular in the sense that 
we finally got Major League Baseball to wake up and the other 
sports as well. They originally refused to come in in 2005 and 
they said, we don't have--you know, we have our rules and 
requirements. But they're not in writing. We found out they 
were in writing. Then they said it was only a draft. We found 
it was in the draft. They said that the standard was tough and 
we looked at it, and it was--you were either suspended or fined 
and it was 10 strikes and you were out. And so major 
improvements have happened since then. I think the value of the 
Mitchell Report was that it said things were pervasive, but 
this was not a document where the players have been, for 
instance, tested. Is that correct? You had no test results of 
any players that it had performance enhancement drugs. Is that 
correct, Mr. Scheeler?
    Mr. Scheeler. It's correct that we did not have any test 
results prior to 2005. In 2005 test results became public----
    Mr. Shays. Right. But my point is most of these players, 
it's accusations, it's slips, and so on. I'm not suggesting 
where there's smoke there isn't fire.
    Mr. Scheeler. Sure.
    Mr. Shays. But this is not a document that sends people to 
jail. And my recollection of Mr. Mitchell's report was, he was 
saying, we've got a problem, you need to clean it up and start 
to go back and see about who you prosecute and so on. And his 
judgment was I think you know you'd be going down in the wrong 
direction. So now we have a player here, one player. There were 
89 players, one player is here. And he's here because everyone 
in this audience knows he is the icon in baseball. He's what 
brings all these cameras, and all those people out there, in my 
judgment, were lining up like you're going to a Roman circus, 
seeing the gladiators fight it out. And so my view of this 
hearing is, this isn't where it's at. It's not where it's at. I 
mean, for you, Mr. Clemens, it's where it's at because it's 
your life.
    For you, Mr. McNamee, I believe some of what you say. But 
you know, it depends when. I view you as a police officer who 
is a drug dealer. And when I read your comment, to put it in 
context, the issue of steroids and performance enhancing drugs 
in baseball was starting to pick up steam in 2000. While I 
liked and admired Roger Clemens, liked and admired Roger 
Clemens, I don't think that I ever really trusted him. Maybe my 
years as a New York City police officer had made me wary. What 
a strange comment.
    Mr. McNamee. If the players didn't ask--excuse me.
    Mr. Shays. I read that comment and I think maybe a police 
officer would have made you not want to be a drug dealer. But 
instead it made you be wary of him. But I just had that sense 
that if this ever blew up and things got messy--and they are 
pretty messy, aren't they--Roger would be looking out for No. 
1. Well, that's understandable. He's going to look out for 
himself. I viewed the syringes and evidence that would prevent 
me from being the only fall guy. So congratulations, you're not 
the only fall guy. Congratulations.
    Mr. McNamee. I understand your concerns. But as far as your 
comment about a drug dealer, I only did what players asked and 
it was wrong.
    Mr. Shays. Mr. McNamee, you are a drug dealer. You may----
    Mr. McNamee. That's your opinion.
    Mr. Shays. No, it's not in my opinion. You were dealing 
with drugs.
    Mr. McNamee. OK.
    Mr. Shays. You were dealing with illegal drugs. Tell me as 
a police officer how that is not being a drug dealer.
    Mr. McNamee. That's your opinion.
    Mr. Shays. No, it's not my opinion. I'm asking you to tell 
me. Tell me how it's legal to do illegal things and you not 
call it what you were. You were dealing in drugs, weren't you?
    Mr. McNamee. Dealing in them, yes.
    Mr. Shays. Were they legal drugs?
    Mr. McNamee. No, they weren't.
    Mr. Shays. Thank you.
    Chairman Waxman. Would the gentleman yield? I certainly 
think you would agree that the players who asked him for drugs 
were also dealing with an illegal----
    Mr. Shays. I would. And reclaiming my time, that's a good 
point. If you had 89 players here, I'd feel a lot better about 
this hearing. But we just have one.
    Mr. Issa. Would the gentleman yield?
    Mr. Shays. I'd be happy to yield.
    Mr. Issa. Just one more question for you, Mr. McNamee. 
Isn't it true that if you were injecting people with drugs, 
illegal drugs, and that made them perform better, that helped 
your career as a performance enhancing trainer and wouldn't it 
be true that if you couldn't have done as well without drugs, 
in fact, what you were doing is putting drugs into people to 
benefit your career? And please don't give me a ``I used to be 
a cop'' answer, OK?
    Mr. McNamee. I just do what they ask.
    Mr. Issa. I do what they ask. You know, that's what every 
drug pusher says, is we wouldn't be selling them if they 
weren't asking for them. You know, I really when I talked about 
``piled higher and deeper,'' I wasn't talking about Ph.D.'s who 
get their degrees through the front door. I was talking about 
people like you who obtain one through a mill for the purpose 
of tricking and deceiving people.
    Thank you, Mr. Chairman.
    Chairman Waxman. Mr. McNamee, did you deceive anybody when 
you gave them a shot? Or did they know what they were doing?
    Mr. McNamee. They knew what they were doing.
    Mr. Clemens. Mr. Chairman, he deceived me.
    Chairman Waxman. Well, that's your opinion, too. Ms. 
Watson.
    Ms. Watson. Thank you, Mr. Chairman. And I do hope that all 
the witnesses have had a break. This has been going on a long 
time. I've listened to the questions. I've listened to the 
responses. And I really don't know where this hearing is going. 
But I do hope that there will be something learned with the 
hours that we have spent listening. And I do hope that there 
are messages that will come out of this for those who look on 
our athletes and our celebrities, and so on, as their heroes 
and heroines. And Mr. Clemens, since you've been the subject of 
the questioning for the most part, Mr. McNamee, No. 1, what did 
you think about the Mitchell Report as a document that 
represented some research, whether it was in-depth or 
substantive if not. What did you think about what you read?
    Mr. Clemens. Congresswoman, I've always agreed with the 
Mitchell Report. I have disagreements, obviously strong 
disagreements what this man, the claims he's made in that 
report about me. I've lived my life--I want--I've lived my life 
knowing that if I ever had the opportunity to chase my dreams 
and to make it to the major leagues then I would be an example 
for kids. Not only mine but the other children. I want them to 
know that there are no shortcuts, that you have to work hard. 
When I give these talks to young kids and I give--to younger 
kids, to high school kids, to college kids, who the man was 
present with me at the University of Kentucky, about these 
college kids, about taking care of your body, your body's your 
temple, understand that you're a student athlete, not an 
athlete student. And that I put this man out in front to also 
say that same message to them. I want the kids to know that 
with hard work that you can achieve your goals, whatever it 
might be. Yes, you are going to fail. You're going to fall 
down, you're going to stumble. And that's the message I try to 
preach to these kids, but you've got to pick yourself up and 
go. And I want the kids that are out there listening this day 
to understand that, that there are no shortcuts, that steroids 
are bad for your body. Everything that we've heard about 
steroids, they're bad for you, they break you down. I believe 
it's a self-inflicted penalty. I want the children to know 
that.
    Ms. Watson. Mr. McNamee, what did you think about the 
Mitchell Report?
    Mr. McNamee. I think it was a document that needed to be 
done and it's not really up to me on what people's opinion of 
that is. All I know is I told the truth in that document.
    Ms. Watson. As you know, all of you were sworn in. That is 
what happens in this committee. And if you don't speak the 
truth, and there's evidence that showed that you were not 
telling the truth, you can be found guilty of perjury. And so 
what would you like to say to the public? This is all on C-
SPAN. There have been at least 100 press people out there, if 
not more. So this is going out across the Nation and probably 
abroad as well. What would you like to say, not in your own 
defense but about that report and about baseball to young 
people?
    Mr. McNamee. You're addressing the question to me?
    Ms. Watson. Yes.
    Mr. McNamee. I think the report is maybe the first chapter 
in maybe a bigger document that would have to disclose more 
information on how--how much this--this really was involved, 
the drug use in baseball was involved. And as far as young 
people, we really need to address that deeper in the roots of 
the younger people's coaching staffs and the parents. We need 
to educate parents what to look for. We need to educate high 
school coaches, youth ball coaches, we need to educate the 
college coaches. Major League players, they're adults, they're 
going to make adult decisions. You have to get to the root of 
the problem. All you did was--all the Mitchell Report would 
do--it did was scratch the surface of a much larger problem, 
but at least it started it, it's chapter one.
    So it's up to you guys. We're sitting here now. Let's go 
back down to the grassroots of where baseball started. If you 
want to get into the high school and the colleges and youth 
balls, let's educate the trainers, let's educate the fathers, 
the mothers, the baby sitters, let's educate everybody about 
the signs, what to look for. And what's going to be encouraging 
to these people is alternative methods.
    Ms. Watson. Let me just ask you this. My time is running 
out. There's some pretty harsh things said just a few minutes 
about you. And what would you say about your own involvement in 
all of this as a trainer? What--how would you describe your 
involvement?
    Mr. McNamee. Well, my involvement, as I mentioned in my 
opening statement, I'm not proud of it and I wish I wasn't here 
but I am. So there's got to be something good that comes out of 
this, and hopefully it will start happening after this meeting.
    Ms. Watson. Thank you very much, Mr. Chairman.
    Chairman Waxman. Thank you, Ms. Watson. That concludes our 
questioning and our testimony. I want to recognize Mr. Davis 
for a concluding statement.
    Mr. Davis of Virginia. Thank you, Mr. Chairman. Let me 
thank the witnesses. It's been a long day. I'm sure there are 
other things you would have preferred to have done today. But 
let me just say that the underlying report by Senator Mitchell 
I think remains largely intact. There is this bone of 
contention on this particular item that I think we've tried to 
give some focus to today. But I think we'll have--that doesn't 
in any way shape or form, I think, take away from the 
underlying recommendations that the report has made. As far as 
this goes, I think this has been a robust discussion, a lot of 
questions at issue, and I guess history will judge that. Mr. 
Waxman and I will talk about how we handle it from here. But I 
want to thank both witnesses for being here. I think--I have my 
own opinions on this, but I think so do probably the viewing 
audience. Our goal when we started this was to send out the 
message that steroid use was dangerous, it was wrong, it was 
illegal, and you had a million kids taking them. Major League 
Baseball's changed their policies and we're hoping they will 
change them again in light of the Mitchell recommendations. And 
it's good to hear the one thing you agree on is that you agree 
with that underlying recommendation.
    So I want to thank you both for coming here today and, Mr. 
Chairman, thank you for holding the hearing.
    Chairman Waxman. Thank you very much, Mr. Davis. We've 
worked together on this whole issue from the very beginning in 
2005 when you were chairman and now when I'm chairman, and this 
is not anything that separates us as Democrats or Republicans. 
We all care about this issue. Each Member and perhaps everyone 
in the audience that watches this hearing will reach his or her 
own conclusion. But this is what I think we've learned: Chuck 
Knoblauch and Andy Pettitte confirm what Brian McNamee told 
Senator Mitchell. We learned of the conversations that Andy 
Pettitte believed he had with Roger Clemens about HGH. And even 
though Mr. Clemens says his relationship with Mr. Pettitte was 
so close that they would know and share information with each 
other, evidently Mr. Pettitte didn't believe what Mr. Clemens 
said in that 2005 conversation.
    Mr. Clemens. Doesn't mean he was not mistaken, sir. It does 
not mean that he was not mistaken, sir.
    Chairman Waxman. Excuse me. But this is not your time to 
argue with me. Evidently he didn't believe it in your second 
conversation because he went ahead and issued a statement to 
us, as did his wife.
    Mr. McNamee, you've taken a lot of hits today. In my view, 
some were fair and some were really unwarranted. There will be 
some Members who will focus on your inconsistencies. But as Mr. 
Souder pointed out, that may not be unusual in these types of 
situations. I want you to know though that as Chair of this 
committee I appreciate all your cooperation with our 
investigation. And I want to apologize to you for some of these 
comments that were made. The rules do not allow us to comment 
on each other when we have time that's yielded and a Member can 
say whatever he or she wants in that 5 or 10-minute period of 
time. I think people who look at this whole question will not 
just look at the conflict of testimony between the two of you, 
but others who expressed views on this matter as well.
    But let me end by saying that we started this investigation 
in baseball to try to break that link of professional sports 
and the use of these drugs. And we don't want to look at the 
past any longer in baseball and we didn't even want this 
hearing today, as I indicated in my opening. We want in the 
future to look at making sure that we don't have steroids, 
human growth hormone, and other dangerous drugs used by 
professional sports who are role models to our kids because 
we're seeing the culture of the clubhouse become the culture of 
the high school gym.
    That concludes our hearing today and we stand adjourned. 
Thank you.
    [Whereupon, at 2:40 p.m., the committee was adjourned.]

                                 <all>

</pre></body></html>
